<html>
<title> - COMBATTING TERRORISM: IMPROVING THE FEDERAL RESPONSE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




          COMBATTING TERRORISM: IMPROVING THE FEDERAL RESPONSE

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                and the

                   SUBCOMMITTEE ON THE CIVIL SERVICE,
                     CENSUS AND AGENCY ORGANIZATION

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2002

                               __________

                           Serial No. 107-200

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-609              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
JOHN SULLIVAN, Oklahoma                  (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel
   Subcommittee on the Civil Service, Census and Agency Organization

                     DAVE WELDON, Florida, Chairman
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
CONSTANCE A. MORELLA, Maryland       MAJOR R. OWENS, New York
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
C.L. ``BUTCH'' OTTER, Idaho          ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Garry Ewing, Staff Director
                 Chip Walker, Professional Staff Member
                          Scott Sadler, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 11, 2002....................................     1
Statement of:
    Collins, Admiral Thomas, Commandant, U.S. Coast Guard, 
      Department of Transportation; Bruce Baughman, Director, 
      Office of National Preparedness, Federal Emergency 
      Management Agency; Douglas Browning, Deputy Commissioner, 
      U.S. Customs, Department of the Treasury; Robert Acord, 
      Administrator, Animal and Plant Health Inspection Service, 
      Department of Agriculture; John Tritak, Director, Critical 
      Infrastructure Assurance Office, Bureau of Industry 
      Security, Department of Commerce; Larry A. Medford, 
      Assistant Director, Cyber Division, Federal Bureau of 
      Investigation; and Michael Becraft, Acting Deputy 
      Commissioner, Immigration and Naturalization Service.......    77
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    17
    Harman, Hon. Jane, a Representative in Congress from the 
      State of California........................................    15
    Lieberman, Hon. Joseph, a U.S. Senator from the State of 
      Connecticut................................................    35
    Rudman, Warren, co-chairman, U.S. Commission on National 
      Security, 21st Century.....................................    63
    Specter, Hon. Arlen, a U.S. Senator from the State of 
      Pennsylvania...............................................    37
    Tauscher, Hon. Ellen O., a Representative in Congress from 
      the State of California....................................    31
    Thornberry, Hon. Mac, a Representative in Congress from the 
      State of Texas.............................................     5
Letters, statements, etc., submitted for the record by:
    Acord, Robert, Administrator, Animal and Plant Health 
      Inspection Service, Department of Agriculture, prepared 
      statement of...............................................   102
    Baughman, Bruce, Director, Office of National Preparedness, 
      Federal Emergency Management Agency, prepared statement of.    82
    Browning, Douglas, Deputy Commissioner, U.S. Customs, 
      Department of the Treasury, prepared statement of..........    91
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada, prepared statement of.....................    19
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Tauscher, Hon. Ellen O., a Representative in Congress from 
      the State of California, prepared statement of.............    33
    Thornberry, Hon. Mac, a Representative in Congress from the 
      State of Texas, prepared statement of......................     8
    Tritak, John, Director, Critical Infrastructure Assurance 
      Office, Bureau of Industry Security, Department of 
      Commerce, prepared statement of............................   106

 
          COMBATTING TERRORISM: IMPROVING THE FEDERAL RESPONSE

                              ----------                              


                         TUESDAY, JUNE 11, 2002

        House of Representatives, Subcommittee on National 
            Security, Veterans Affairs and International 
            Relations, joint with the Subcommittee on Civil 
            Service, Census and Agency Organization, 
            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the Subcommittee on National Security, 
Veterans Affairs and International Relations) presiding.
    Present from the Subcommittee on National Security, 
Veterans Affairs and International Relations: Representatives 
Shays, Putnam, Gilman, Lewis, Platts, Weldon, Otter, Kucinich, 
Tierney, Schakowsky, and Watson.
    Present from the Subcommittee on Civil Service, Census and 
Agency Organization: Representatives Weldon, Morella, Souder, 
Otter, Davis, and Norton.
    Staff present from Subcommittee on National Security, 
Veterans Affairs and International Relations: Lawrence J. 
Halloran, staff director and counsel; Dr. R. Nicholas Palarino, 
senior policy advisor; Thomas Costa, professional staff member; 
Jason M. Chung, clerk; David Rapallo and Tony Haywood, minority 
counsel; Michael Yeager, minority deputy chief counsel; and 
Jean Gosa and Earley Green, minority assistant clerks.
    Staff present from Subcommittee on Civil Service, Census 
and Agency Organization: Garry M. Ewing, staff director; Chip 
Walker, professional staff member; and Scott Sadler, clerk.
    Mr. Shays. I would like to call this hearing to order and 
to welcome our witnesses and our guests. This is a legislative 
hearing on H.R. 4660. None of our witnesses will be sworn in. 
It is a joint hearing with the Subcommittee on Civil Service, 
Census and Agency Organization with Dr. David Weldon, and he 
and I will be chairing this hearing. This is a hearing that we 
have been eager to have, and we are on our way.
    And this morning we will hear from six Members of Congress, 
four from the House and two from the Senate. We are going to 
disburse with the opening statements of the Members until our 
legislative colleagues have made their statements and responded 
to our questions. Then we will have our statements before 
Warren Rudman who has appeared before this committee on a 
number of occasions about this very issue: combatting 
terrorism, improving the Federal response, the reorganization 
of our government, to do that.
    And we have before us the Honorable Mac Thornberry, the 
Honorable Jane Harman, the Honorable Jim Gibbons, the Honorable 
Ellen Tauscher, and the Honorable Joseph Lieberman, my 
colleague from Connecticut, and the Honorable Arlen Specter as 
well as our two Senate colleagues.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.001
    
    [GRAPHIC] [TIFF OMITTED] T6609.002
    
    Mr. Shays. If we could close the doors, that would be 
helpful. And what we are going to do is we are going to have 
opening statements from our colleagues. This is not 
perfunctory. They are not in and out. Our colleagues will be 
responding to our questions. They have fought long and hard on 
this issue. They are experts on reorganization and we are eager 
to get their input. And we are just going to go down the row. 
Representative Thornberry.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, Mr. Chairman, and thank you for 
having me back. I remember very well in April 2001 appearing 
before your subcommittee to talk about this very issue. You and 
the members of this committee have really been out in the 
forefront in recognizing that we live in a different and, in 
some ways, sometimes more dangerous world and we have to reform 
government in order to meet those dangers and meet those 
challenges. And so I commend you and the members of this 
committee on your leadership.
    Mr. Chairman, I would ask that my complete statement be 
made part of the record, and I would like to summarize without 
going through a lot of the history. Where we are is that the 
President has made a bold and I think well-considered proposal, 
and the ball is now in Congress's court. I have to admit that I 
have been working on this for about 1\1/2\ years, but I think 
the President's proposal is better than the bills that I have 
introduced, and it really advances the thought.
    Let me make just a few points and I most eagerly would like 
to respond to your questions and comments. The first point I 
would like to make is that this proposal is well studied. There 
are some critics who seem to infer that this was four people in 
the middle of the night who all of a sudden came out with 
something.
    The origins as far as I know go back to the Hart-Rudman 
Commission, and you will hear from Senator Rudman in a moment; 
but I think it is important for us to remember that in 1997, we 
in Congress passed into law authorization for this Commission 
to look at the broad range of security challenges over the next 
20 and 30 years. And on this Commission were some of the most 
prominent, experienced Americans in issues of national 
security. In addition to Senators Rudman and Hart and our 
former colleague, Speaker Gingrich and our former colleague Lee 
Hamilton; it included people like Anne Armstrong, former 
counsel to the President and Ambassador to Great Britain; Norm 
Augustine, chairman of Lockheed Martin; John Galvin, the former 
CINC in Europe; Leslie Gelb, president of the Council on 
Foreign Relations; Jim Schlesinger, Secretary of Defense and 
Energy; Ambassador Andrew Young from the UN; and the others 
were just as prestigious.
    They spent 3 years studying the broad range of national 
security issues. They said the No. 1 vulnerability we have got 
is homeland security, and what they said is we need to create a 
Department of Homeland Security, and they made the proposal.
    I introduced the bill in March 2001, and you have spent 
time since then having hearings. Senator Lieberman's committee 
has had a number of hearings. The point is there has been lots 
of work going into this proposal before now, and it is well 
studied and we have got to get the details right, but a lot of 
background work has been done.
    The second point I want to make is that the need for this 
kind of reorganization I think is beyond question. I have been 
listening carefully to the comments made since the President's 
proposal and before. I don't hear anyone saying, no, I am 
satisfied with the current system, we can just rest with what 
we have and trust the security of our people to the current 
structures. Everybody agrees we have got to make changes. 
Everybody agrees 100 different agencies scattered around the 
government is unacceptable. They can't be coordinated. They 
don't have the right focus. Homeland security is not the kind 
of priority that it needs to be, and even the best efforts of 
Governor Ridge and 100 people in the White House cannot solve 
that problem. Everybody agrees that organization is needed, 
that it doesn't solve all the problems, but we must act.
    The third point I want to make is that we must act, but 
this cannot and should not try to solve all of the problems 
with homeland security. I get a little frustrated with people 
who argue, well, this doesn't solve all the problems the FBI 
has; or what about the CIA difficulties? You cannot pass one 
bill that solves everything. What you can do is try to bring 
together different organizations that have a similar mission, 
make sure they are coordinated, have a similar focus, and some 
of my colleagues at the table are working with the Intelligence 
Committee to sort through some of those issues. Maybe we need 
to do something on the FBI, but we can't do everything in this 
bill. But that should not stop us from doing what we can.
    And sometimes I am afraid that some of these excuses or 
things that this bill does not solve is really an excuse for 
inaction, and I think we have to be careful about that.
    The last point I would like to make, Mr. Chairman, is that 
we must act and we must act quickly. As I say, the ball is in 
our court. I believe that minority leader Gephardt's call to 
have this passed by September 11th is right and good, and that 
ought to be our goal.
    From the very beginning of this effort, this has been 
bipartisan in the Congress. My colleagues here at the table 
with me, I believe, have no differences of opinion. We have 
worked together every step of the way. And we have been 
bicameral as well. With Senators Lieberman, Specter, and 
Graham, we have worked language together. We have tried to make 
sure that it is as good as we can get it. And there is no 
reason in the world we should not continue to be bipartisan and 
bicameral. But there will be opponents and we have to be wary 
of those people who find excuses why this cannot happen.
    Mr. Chairman, all of us woke up today with headlines in the 
Post about yet another attack against our country which we have 
successfully stopped, thank goodness. But this is what is at 
stake, this kind of attack using chemical, biological, nuclear 
weapons, radiological weapons, or some other kinds of suicide 
bombers, the kind we have seen. We must act quickly. Delay in 
passing this bill helps the terrorists, because it means we are 
unprepared that much
longer. So I want to urge that, while we are careful to do it 
right, we must also act promptly. The ball is in our court and 
history will be judging us on our actions.
    Mr. Shays. Thank you, Representative Thornberry.
    [The prepared statement of Hon. Mac Thornberry follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.003
    
    [GRAPHIC] [TIFF OMITTED] T6609.004
    
    [GRAPHIC] [TIFF OMITTED] T6609.005
    
    [GRAPHIC] [TIFF OMITTED] T6609.006
    
    [GRAPHIC] [TIFF OMITTED] T6609.007
    
    [GRAPHIC] [TIFF OMITTED] T6609.008
    
    [GRAPHIC] [TIFF OMITTED] T6609.009
    
    Mr. Shays. Representative Harman.

  STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you Mr. Chairman, and Chairman Weldon, 
for holding what I believe is the first hearing on a structure 
for homeland security since the administration unveiled its 
ambitious and bold proposal last Thursday. To you, Chairman 
Shays, I just congratulate you for a big year. Your name was on 
the campaign finance proposal that we finally passed recently, 
and I think you are one of the leaders in this House, along 
with many of us sitting before you on this issue as well. And 
you might get two goals this year. That is really big and it is 
a comment on your extraordinary talent and your leadership, and 
I just commend you for that.
    Mr. Chairman, or Mr. Chairmen, we must remain focused on 
our goal, which is to prevent further terrorist attacks. As we 
talk about this legislation, the legislation pending before 
your committee and the new proposal by the administration, let 
us stay focused on the goal to prevent further terrorist 
attacks. As Representative Thornberry just mentioned, we had a 
great victory yesterday. The CIA and FBI worked closely 
together to prevent or to stop, disrupt, and take apart a plot 
perhaps to unleash a radiological bomb against our citizens. 
But we cannot be complacent that is the only plot that is out 
there. There may be more. And until we have a strategy and a 
coordinated means to prevent and disrupt these attacks on our 
homeland, we will continue to be vulnerable. So that is what we 
have to keep focused on.
    To place this issue in context, as Mac Thornberry said, 
this new proposal that we are considering today along with the 
legislation pending in the subcommittee, borrows productively 
from many of the ideas that my colleagues and this committee 
have been considering. the basic idea that we need to do a 
threat assessment, develop and coordinate a homeland security 
strategy, is not new but it is urgent. I support the thrust of 
the President's proposal as introduced on Thursday, and I 
endorse the notion of leader Gephardt that we set September 11, 
2002 as the target date for completing congressional action to 
fine-tune the concept and enact it into law. After all, Mr. 
Chairman, dedicated American workers have already removed all 
of the debris from Ground Zero ahead of schedule and they will 
complete repairs to the Pentagon ahead of schedule as well. In 
fact, I understand that today is the last day of work on the 
Pentagon and what remains only as a ceremony is to place one 
last block that survived from September 11, 2001 in place.
    That is tremendous. Look what we accomplished. Doesn't it 
make sense that we set an ambitious goal here, too, to complete 
this work, perhaps to pass the conference report in our 
extraordinary session set in New York City on September 6, and 
then to sign this bill into law, to be present when our 
President signs this bill into law on September 11, 2002, at 
the Pentagon? It seems to me it would be the most fitting 
tribute to those killed at the World Trade Center, at the 
Pentagon, and those who courageously died in Pennsylvania if 
our government could act in a bipartisan fashion so quickly to 
protect the rest of the Nation.
    A number of ideas underlying the President's proposal are 
not new, as I mentioned. Pre-September 11th, Speaker Hastert 
set up a Working Group on Terrorism and Homeland Security on 
which my colleague Jim Gibbons serves and on which I am the 
ranking member. We were charged with assessing the capability 
and performance of the intelligence agencies to prevent 
attacks. Many of our ideas were included in last year's 
intelligence authorization bill, more will be in this year's, 
and we will release a preliminary report on our findings soon.
    Over the last half decade, as Mac Thornberry mentioned, 
there have been several major commissions. There was the Hart-
Rudman Commission, and we will hear from Senator Rudman. There 
was the Gilmore Commission which is still in service. Congress 
has extended it a third time to cover additional work. And 
there was the Commission on Terrorism, also called the Bremmer 
Commission, on which I served. All of them did good work. All 
of them warned of imminent major attacks on the homeland and 
proposed legal and structural changes; alas, too few of which 
were actually implemented pre-September 11th. But although we 
have been working on this for awhile, the form for this new 
proposal by the President is different from many of the 
previous proposals that have been made.
    H.R. 4660, which is pending before your committee and which 
is cosponsored by all of us sitting up here, of which the 
companion version exists in the Senate, offered by Senator 
Lieberman, is different from H.R. 4660. In our proposal--is 
different from the President's proposal. In H.R. 4660, we would 
put authority in a White House-coordinated position, which 
would have statutory and budgetary authority over homeland 
security strategy, and then we would set up a separate 
department. The administration would put most of that authority 
in a separate department. But as far as I am concerned, I agree 
with Mac Thornberry that either way is acceptable and we can 
work with the administration's proposal as our base.
    I see my time is up, and I want to touch on three other 
points.
    First of all, we must acknowledge that we don't have all 
the answers. Many of them reside in the private sector. Ninety 
percent of our critical infrastructure is owned by the private 
structure, and they have significant experience, more than our 
government does with reorganizational measures. But there are 
many pluses in the administration's plan, particularly that it 
is bold and innovative. There are also many minuses which I am 
sure will come out as we talk about this further. They can be 
dealt with. We can do this. We must do this. It is critical to 
protect against the next wave of attacks.
    Mr. Shays. Thank you.
    Representative Gibbons, I am calling on you next, but I 
want to thank our Senators for allowing the House Members their 
opportunity to talk about the legislation, as according to 
protocol, and appreciate your patience. Representative Gibbons.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman and members 
of the committee, and again thank you for having a hearing on 
what I believe is the most important if not the most historic 
reorganization of American government since 1947. It is indeed 
a privilege to be here, and i ask unanimous consent that my 
full and complete written testimony be entered into the record. 
I will attempt to summarize my thoughts briefly in the time 
allowed.
    Mr. Chairman, this is the 9-month anniversary of September 
11th, the attack on the World Trade Center, the Pentagon and, 
unfortunately, the barren fields in Pennsylvania. This country 
has come together as a united country, more so today than at 
any time I can remember ,and rightfully so. Too often we forget 
and lose sight of the freedoms that we have in this country as 
a result of the efforts of many of our men and women who serve 
in our Armed Forces, and we must never forget that.
    Mr. Chairman, let me also say that September 11th did not 
necessarily change the minds of what we were saying prior to 
September 11th, but September 11th changed who was listening. 
And now we have an opportunity to move forward, I think, and 
protect and provide for the American people an opportunity to 
give them greater security than we have had since--at any time 
that we have addressed the issue of terrorism.
    I was privileged and honored to be with my colleagues, who 
are sitting here at this table, in a meeting with the President 
and Vice President and Governor Tom Ridge last Friday when we 
discussed this. And out of that meeting came I think uniform 
agreement that we have to move forward on this issue and we 
have to move forward quickly. And most importantly, Mr. 
Chairman, the American public needs this kind of legislation. 
We cannot afford to let another well-intended idea get dragged 
down by the weight of bureaucracy. I believe the citizens of 
America deserve better than that.
    And as the vice chairman of the Terrorism and Homeland 
Security Subcommittee that my colleague Jane Harman and I both 
sit on, there has been a recurring theme that has been brought 
to us time and time again, and that is the failure or the lack 
of ability to share information. The so-called Phoenix memo 
that we have read about and heard so much about is a perfect 
example. Those in charge of connecting the dots do not always 
get the dots connected to form a complete picture. Mr. 
Chairman, let me express this as an idea. It is as if we had a 
large puzzle all broken up and put in a big box, and each 
agency reaches in and grabs a handful of those parts of that 
puzzle and goes off to their separate offices, whether it is 
the CIA, the FBI, the Border Patrol, the INS, Customs, you name 
it; they are in different rooms, different offices, trying to 
put together a part of a puzzle, but they don't have the big 
picture.
    We need to break down those walls and allow for them to see 
what each other's information and intelligence is providing to 
give us a uniform picture, the information that we need to be 
able to stop future terrorist attacks. The stovepiped 
information or the failure to share information between 
agencies has got to stop, and this legislation I believe will 
help arrange that.
    This Congress should have no higher priority to the 
American public than to pass this legislation. But there are a 
few questions that should be addressed and should be answered 
in the meantime. I would like to suggest that we need to find 
out how the new Secretary of Homeland Security will obtain key 
information from other agencies like the FBI, like the CIA. And 
will he be able to task those agencies for that information? 
And will he receive the same briefings that the President of 
the United States receives?
    We must answer these questions, Mr. Chairman, and I believe 
that as we work this through legislation through Congress we 
can get those questions asked. And I believe also that the 
Director of Homeland Security must ensure both horizontal and 
vertical integration of that intelligence information, and I 
include vertical all the way down to the first responders, 
those individuals in our State and local government that have 
to respond to these incidents at the first occurrence.
    Mr. Chairman, those are some of the ideas and I believe 
that we have had historically other opportunities. We have had 
a drug czar that has failed because of bureaucracy to actually 
get a strong foothold on America's drug problem. I do not want 
this Agency and this issue to meet the same result.
    Let me cite one little quick quote from the Boston Globe. 
Mr. Ash Carter once noted that the White House czars have been 
historically toothless, unable to control activities of Cabinet 
and bureaucracies. To be effective as homeland security czar, 
Ridge will need influence over budget. As my colleague Ms. 
Harman and, of course, Mac Thornberry have already said, H.R. 
4660 gives the director real teeth in granting him authority to 
approve or reject budgets that pertain to homeland security. 
And I think this is critical. And as part of the $38 billion 
budget that we are going to address and spend on homeland 
security, it is important to give some oversight authority to 
Congress to make sure that the money is spent well.
    With that, Mr. Chairman, my time is up. I do again want to 
thank you for the opportunity to be here to testify on this 
historic piece of legislation. Thank you.
    Mr. Shays. Thank you, Representative Gibbons.
    [The prepared statement of Hon. Jim Gibbons follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.010
    
    [GRAPHIC] [TIFF OMITTED] T6609.011
    
    [GRAPHIC] [TIFF OMITTED] T6609.012
    
    [GRAPHIC] [TIFF OMITTED] T6609.013
    
    [GRAPHIC] [TIFF OMITTED] T6609.014
    
    [GRAPHIC] [TIFF OMITTED] T6609.015
    
    [GRAPHIC] [TIFF OMITTED] T6609.016
    
    [GRAPHIC] [TIFF OMITTED] T6609.017
    
    [GRAPHIC] [TIFF OMITTED] T6609.018
    
    [GRAPHIC] [TIFF OMITTED] T6609.019
    
    [GRAPHIC] [TIFF OMITTED] T6609.020
    
    [GRAPHIC] [TIFF OMITTED] T6609.021
    
    Mr. Shays. Representative Tauscher.

   STATEMENT OF HON. ELLEN O. TAUSCHER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Tauscher. Thank you, Mr. Chairman. I am always happy 
to use Senator Lieberman's microphone. Thank you, Mr. Chairman. 
Thank you for inviting me to testify today and thank you to all 
my colleagues for your attention to this issue that I know you 
have been working on as well as those colleagues at the table 
to make sure that we can work on behalf of the American people 
to create the opportunity to make these urgent steps that our 
Nation must take to better face the threat of terrorism a 
reality in the not-too-distant future.
    I would also like to recognize the strong leadership of my 
colleagues at the table, including Senator Lieberman whose 
tireless efforts led to the Government Affairs Committee in the 
Senate to pass out a bill recently, and to Congressman 
Thornberry for spearheading this effort in the House through a 
number of different versions.
    Mr. Chairman, the American people are waiting and watching 
as well as our allies and adversaries are waiting and watching. 
I think the President did a take a very bold step on Thursday, 
but I think it is important now, as he said on Thursday, that 
this is now something that only the U.S. Congress can do to 
create a new Department of Homeland Security. None of the turf 
fights or Federal or congressional restructuring that the 
creation of a new Agency will entail are going to be easy. We 
all recognize that. But we have a golden opportunity, now that 
the President has articulated his agenda, to defend the 
homeland, and Congress is ready to meet him with enabling 
legislation my colleagues and I have offered.
    We would be wise to explore all options, including 
establishing a special committee on homeland security before 
embracing or dismissing any possible reform. Congress cannot 
get bogged down in petty jurisdictional fights that would delay 
the process. While on a number of occasions Congress is forced 
to be a reactive body, homeland security reform is one area 
that Congress is ahead of the curve. Over the last several 
years, a number of congressionally mandated panels have called 
to attention the growing type of terrorist threats to our 
homeland. We know about the Gilmore Commission. We know about 
the Hart-Rudman Commission. We will hear from Senator Rudman in 
a few minutes.
    It is those recommendations on which the legislation that I 
and my colleagues, Mac Thornberry, Jane Harman, and Jim Gibbons 
introduced several weeks ago, all of these different 
commissions, this legislation is based.
    I emphasize one point Mr. Chairman: The bills in Congress 
and the President's call to action are not a knee-jerk 
reaction. They are based on longstanding recommendations by the 
Intelligence and National Security Communities. The current 
system, as we know, is unworkable. We need to act. And I 
applaud Minority Leader Gephardt's suggestion that we work as 
fast as possible and as closely together as we can, because 
this has always been a bipartisan bicameral opportunity from 
the very beginning that we work with the administration to get 
something done that we can present to the American people that 
can be signed on or before September 11, 2002.
    I have a little interesting local issue that I have to talk 
about briefly, because it is important that Congress pay 
attention to the science issues and that we pay close attention 
to the opportunity to galvanize the many different specialities 
that we have across the country that the government controls, 
including the national labs.
    In the President's proposal, the entire Lawrence Livermore 
National Laboratory, which is in my district, would become part 
of the new Agency, even though only a small fraction of the 
work they do is relevant to homeland security. As everyone 
knows, Lawrence Livermore and Los Alamos Labs are the two 
national nuclear labs and they are responsible for stockpile 
stewardship and our nuclear defense deterrent. In our bill as 
it currently stands, there would be a liaison in the new Agency 
who would be responsible for making sure the labs work in their 
expertise; like the anthrax killing foam they invented a decade 
ago would be well known to all different agencies.
    As this new Agency takes form, I look forward to working 
with the administration and this committee to figure out the 
best way to use the expertise of all of our country's nuclear 
weapons labs and all of the science and technology 
opportunities to make sure we can protect the American people.
    I thank the Chair for holding this hearing today to get the 
ball rolling and I look forward to any kind of questions the 
committee has. And I especially look forward to working with 
all of us to make sure we can protect the American people from 
future attacks. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Representative Tauscher.
    [The prepared statement of Hon. Ellen O. Tauscher follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.022
    
    [GRAPHIC] [TIFF OMITTED] T6609.023
    
    Mr. Shays. The four of you House Members represent real 
heroes to this committee. You have been working on this issue 
pre-September 11th. You have been patient in waiting for this 
committee to conduct our hearing on your legislation, which we 
appreciate; and I just want you to know that we look forward to 
the dialog that will take place between the members on this 
committee and the panel, and to say as well to any Member who 
just came in, we are going to keep our opening statements--we 
are going to share opening statements before Warren Rudman, but 
after this panel has left.
    And now to our colleagues from the Senate: Senator 
Lieberman, you are obviously a friend and someone we admire 
deeply from Connecticut, obviously, so delighted you are here.
    And, Arlen Specter, you have been on this issue as well for 
so many years. It is exciting to think that Republicans and 
Democrats and House and Senate can work so closely on this 
issue, and it speaks well I think for the outcome.
    Mr. Shays. Senator, Lieberman, welcome. You have the floor.

  STATEMENT OF HON. JOSEPH LIEBERMAN, A U.S. SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Senator Lieberman. Thank you, Mr. Chairman, and thanks for 
your leadership on this issue. I agree with you, this is a 
group that you see before you, bipartisan, bicameral, that has 
been working together now for several months on the question of 
homeland security. And it is both a measure of the significance 
of the challenge we face and of our capacity to do here on 
homeland security what we have done at our best when it comes 
to international security, which is to leave partisanship at 
the borders.
    Now that we have been struck within our borders, it is 
appropriate for us to leave bipartisanship aside generally, and 
achieve what is in the interest of the security of the American 
people.
    Mr. Chairman, I have a statement which I would ask be 
included in the record, and I just want to speak with you 
generally about where I think we are now. To say the obvious, 
American history changed on September 11th. The unique security 
that we enjoyed over most of the preceding centuries of our 
history because of geography, particularly the oceans, was 
broken with devastating impact by the terrorists who acted that 
day and showed us with painful reality that no matter how 
strong we are--and we are, of course, the strongest Nation in 
the history of the world--if people have no regard for their 
own lives, let alone the lives of others, they can still do us 
damage.
    So we are challenged now to reach for our strength and to 
utilize it to defend against attacks of this kind in the 
future. And I for one do not accept as inevitable that there 
will be another September 11th-type attack. I think we have it 
within our capacity, if we organize ourselves, to prevent such 
attacks from occurring again. That certainly should be our 
goal.
    Mr. Chairman, as has been stated by my colleagues here on 
the panel, there were many who were warning us about exactly 
the kind of attack that occurred on September 11th, long before 
September 11th. Senators Warren Rudman and Gary Hart in some 
ways, sadly, may be considered the Paul Reveres of our age 
because they were saying to us, very loudly, the terrorists are 
coming. Unfortunately, we didn't listen to them in time.
    Last September, toward the end of the month, after the 
attacks of September 11th, the Senate Governmental Affairs 
Committee held a hearing, and Warren Rudman and Gary Hart were 
there and they testified along with others. Senator Specter and 
I put together a bill that basically incorporates their 
proposal. Over time, we joined with our colleagues here in the 
House, and later we joined Senator Specter with Senator Graham 
who had a different proposal, put it together, and in fact that 
was reported out of the Senate Governmental Affairs Committee 
just about 3 weeks ago.
    But the significant development was the one that occurred 
last week when President Bush embraced the ideas in our bill, 
most of them, certainly those regarding the Department of 
Homeland Security, and added additional ideas of his own which 
I think overall strengthened the proposal. So the challenge is 
now ours to act on this, as my colleagues have said, in a 
timely way.
    I want to make a few points about where we are and about 
the President's proposal particularly. It seems to me, as 
others have said, Congressman Gibbons and others, that as we 
learn more about what happened prior to September 11th that 
created the vulnerability that the terrorists took advantage 
of, that clearly the lack of coordination of intelligence, both 
domestic and foreign, is part of what created that 
vulnerability. We cannot let that happen again.
    In the President's proposal there seems to be a kind of 
clearinghouse within the Department of Homeland Security for 
intelligence from different sources. I think all of us have to 
ask whether that is enough, whether we need to put more 
authority either in the Secretary of Homeland Security or in 
another office in the White House--such as the Senate bill 
has--to, if you will, demand the kind of coordination of 
intelligence resources that is the best security that we will 
have.
    The experts on counterterrorism will always tell you that 
the best defense, if you will, here is an offense; and that is 
the best intelligence, so that we can know what the terrorists 
are planning so that we can stop them before they strike, as we 
successfully did with Mr. Muhajir when we arrested him at 
O'Hare Airport about a month ago.
    I want to say that I hope that at some point, although 
probably not in our consideration in establishment of this 
department this year--because I think it is too big a step to 
take--that we consider whether either the entire FBI or parts 
of it involved now in domestic intelligence, quite 
appropriately, ought to become part of the Department of 
Homeland Security. I raise the question and suggest that is 
maybe more than we can bite off and absorb this year.
    Second, I want to stress very briefly the importance of the 
new Department of Homeland Security coordinating and making as 
one force the hundreds of thousands of local police officers, 
firefighters, emergency public health officials. They are our 
eyes and ears out there. They can be critically important, not 
just in the emergency response function, but in the preventive 
intelligence function, and we have got to make adequate use of 
them.
    Third, if I may hold up a warning flag very briefly, there 
is language in the President's document put out last week that 
suggests a kind of broad civil service reform in the director--
in the Secretary of Homeland Security. This has aroused fears 
that I have already heard, perhaps some of you have already 
heard, from Federal employee organizations about the 
possibility that this department and this legislation that we 
are considering may be used to diminish the collective 
bargaining rights of Federal employees. That is a battle we 
cannot get into as we adopt this department. Members of 
Congress have different points of view on it. It is an issue to 
be joined at some point.
    I just want to say to my colleagues, let us not get trapped 
into that particular web, because it will tie us up so much 
that we may lose sight of the main goal here.
    Finally, to say what I think we all feel, this piece of 
legislation may be the most important work that any of us ever 
does in our service in Congress. It is that important. And I 
pledge to you, Mr. Chairman and my colleagues in the House, the 
fullest cooperation as we work together to get this right and 
to do it as quickly as possible.
    Thank you.
    Mr. Shays. Thank you Senator Lieberman, a great deal. Thank 
you.
    Senator Specter, you are the clean-up hitter.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I commend you and 
this distinguished committee for moving ahead so promptly on 
this important subject.
    Mr. Shays. You have such a voice. Could you just tap the 
mic and see if it works?
    Senator Specter. I now see a green light so I will proceed.
    Thank you, Mr. Chairman, for your leadership in proceeding 
so promptly on this very important subject, and I appreciate 
the opportunity to appear here today. The issue of homeland 
security is developing more complex ramifications each day and, 
as this committee considers the restructuring of government, we 
now see that it is going to be necessary to reexamine some of 
our substantive laws with the disclosure yesterday of the 
arrest of Abdullah al Muhajir as an enemy combatant; and noting 
the intention of civilians John Walker Lindh and Yaser Esam 
Hamdi, the Congress under the Constitution has the authority to 
establish military tribunals and to establish the structure as 
to how these issues are to be handled.
    And while it is true that the Supreme Court of the United 
States decided during World War II that petitioner Haupt, a 
U.S. citizen, was classified as an enemy belligerent, and now 
we have Abdullah al Muhajir classified as an enemy combatant, I 
suggest to this committee that we are going to have to take a 
look at the substantive rules to see what our public policy 
ought to be on these prosecutions. That is a broader subject. 
And I note that the Attorney General did not notify at least 
the Senate Judiciary Committee, neither the chairman nor the 
ranking member, as to this detention. And I do believe that it 
would be useful to get the institutional wisdom of committees 
on both sides of our bicameral structure to have some 
assistance, but I suggest we need to take that question up.
    I do not challenge what Attorney General Ashcroft has done 
in detaining this man who was a real menace, but I do believe 
these are basic policy considerations that ought to be 
considered by the Congress.
    With respect to the restructuring of government, Senator 
Lieberman and Senator Graham and I have offered legislation on 
this subject, but as the picture is unfolding, it is a great 
deal more complicated than picking up the Border Patrol, Coast 
Guard. And FEMA and a variety of agencies. We are now looking 
at some really very, very difficult problems with the CIA and 
FBI and what we have seen last week with the disclosures of 
Agent Colleen Rowley about the Zacarias Moussaoui case where 
the FBI used the wrong standard on going for a warrant under 
the Foreign Intelligence Surveillance Act and the U.S. attorney 
in Minnesota thought they needed a 75 to 80 percent 
probability, and Colleen Rowley talked about preponderance of 
evidence more likely than not 51 percent, that is simply not 
the law.
    So there is going to have to be in a new Agency, an 
authority to dig down and see what is going on. And on the 
Phoenix memo, without dwelling unduly there, there is a very 
tough matter here about what we all know has been categorized 
as the culture of concealment.
    And two very brief references to what I have seen. The 
Governmental Affairs Committee in investigating campaign 
finance reform in 1997 asked the FBI for some material. They 
said they didn't have it; and then we found that in the CIA 
records that the FBI had turned over to the CIA, and either the 
FBI didn't know they had it or they were not forthcoming. I 
commented on that at some length in the Congressional Record on 
September 16, 1997.
    And one brief comment about the CIA. When I chaired the 
Intelligence Committee during the 104th Congress, I saw many, 
many instances, but one I will describe within a minute, and 
that is a 40-year veteran in the CIA had turned over tainted 
materials which came from the Soviet Union; that is, they were 
doctored and he knew that, and he made those available on 
January 13 to both President Bush and President-elect Clinton. 
And when asked why he did that--incredible story--he said he 
didn't tell them it was tainted because if he did, they 
wouldn't use it. And the next question was: How do you know it 
was reliable? He said, I know it is reliable because of my 
experience. And incredibly, he would turn it over to the 
highest levels of government.
    I haven't given you the whole story, but it is an 
illustration as to an attitude which simply has to be dealt 
with and how we are going to deal with it is a matter of 
enormous difficulty. One of the ideas which Senator Lieberman, 
Senator Graham, and I have been working on is to have somewhere 
what might be called a ``national terrorism assessment center'' 
which would have information compiled by all the intelligence 
agencies--FBI, CIA, NSA, DIA, State, INS, Justice, Customs, the 
whole works--so that at one point, there is a repository for 
all of the information to be analyzed. Because had all of the 
information been available as to what Murad, the Pakistani 
terrorist connected with al Qaeda, talked about going into the 
CIA headquarters and the White House, and had we followed 
Moussaoui and gotten into his computer, and had the Phoenix 
memorandum all been put together, my judgment is there was a 
veritable blueprint in advance of September 11th.
    And Senator Graham has testified further, using the 
connecting the dots technology, that those items and others are 
only part of the picture. He knows a great deal more. So we 
have a very heavy responsibility, and I am delighted to see 
this committee working on it so promptly. Thank you, Mr. 
Chairman.
    Mr. Shays. Thank you, Senator Specter.
    We are just going to right directly to questions, not 
statements. But I would like to just acknowledge the Members 
that are present: Mr. Gilman, Mr. Souder, Mr. Lewis, Dr. 
Weldon, Mr. Putnam, Mr. Otter on the Republican side; and on 
the Democratic side we have Mr. Kucinich, the ranking member of 
this committee; we have Ms. Schakowsky, Ms. Norton, Mr. Tierney 
and Ms. Watson.
    We usually do 10 minutes per question and we are going to 
do 5 minutes, given the number of Members. I am going to 
suggest that if a number of Members are going to respond and 
others want to jump in, we might have leeway in the 5-minute 
rule and that will be my judgment. I will try to be fair about 
it. So we will start with you, Dr. Weldon.
    Dr. Weldon. I thank my colleague, and I certainly want to 
join with the others for commending him on the leadership he 
has provided on this important issue. Before I get to my 
question, I want to commend Senator Lieberman for what he said 
about it is not necessarily going to happen that we are going 
to be attacked again. As I travel around the country I hear a 
lot of people saying that sort of thing, and I believe there is 
power in our words. I think if we as a Nation really join 
together and do the right things and all the agencies come 
together, we can prevent another attack from happening in the 
United States.
    The question I have is we are going to reorganize the 
executive branch; should we also be talking about reorganizing 
ourselves? You know, we have the Armed Services Committee; 
overseas the Army, Navy, Air Force, Marines; and we have in the 
Senate the Finance Committee; in the House the Ways and Means 
Committee for tax policy; but yet I have this chart here that 
shows--a busy chart, all the different committees in the House 
and Senate with jurisdiction.
    Now, I know no one wants to create another committee in the 
House and the Senate with all the criticism of bureaucracy that 
we get, but if you are not going to create another permanent 
committee, people keep saying this is going to be very 
difficult to get through the House and the Senate. And should 
the Speaker and the minority leader and the majority leader of 
the Senate and the minority leader come together and maybe form 
at least a temporary select committee and perhaps maybe draw on 
people from all the committees of jurisdiction so that we can--
and the staff from the respective committees, so that we can 
indeed get this done expeditiously and maybe have it finished 
in September like Mr. Gephardt has proposed?
    So I will just open that up. Any of you want to respond to 
that?
    Mr. Gibbons. Mr. Weldon, let me begin by saying one of the 
favorite games in Washington, or favorite parlor games in 
Washington, is turf war. And it is not just limited to the 
administration but it is also within the U.S. Congress, both 
the Senate and House. I couldn't agree more with you that at a 
time that is as pressing as this for our Nation, we need to 
look at everything possible to ensure that not only do we have 
expediency but we have an efficiency in dealing with these 
types of issues.
    We have got a very large project ahead of us. We have a 
very limited amount of time within which to do it. If we 
assigned responsibility to I believe 66 different committees, 
or however many there are in both the Senate and the House, we 
would find ourselves here until time eternity trying to deal 
with these issues.
    I think there has to be some direction, and we are working 
with the leadership today to provide for, just as you have 
suggested, perhaps a single committee with jurisdiction as 
directed by the leadership, to take this issue and to represent 
this issue to the U.S. Congress.
    Dr. Weldon. So you spoke with the House leadership.
    Mr. Gibbons. No, I said we are working to that regard.
    Dr. Weldon. Are you proposing a permanent committee or 
temporary select committee to move this legislation through?
    Mr. Gibbons. This is the point we will be talking about. We 
want to discuss whether it will be a temporary or permanent 
committee; but in either of them, we have to have one committee 
assigned to do this heavy lifting on this bill because there 
are so many committees with jurisdiction over this issue.
    Dr. Weldon. I would like to hear from the Senate side.
    Senator Lieberman. Thanks, Dr. Weldon. Obviously there is a 
distinction here between how we handle the legislation before 
us on a question of creating a new Department of Homeland 
Security and then, after it is created, who has jurisdiction 
over the Department. I can only speak for the Senate side. 
Under the Senate rules, rule 25, it is certainly clear to me 
that the Senate Governmental Affairs Committee has jurisdiction 
for any proposals regarding the organization or reorganization 
of the executive branch. Now having said that, obviously the 
decision is ultimately going to be up to the leaders, but the 
proposal that Senators Specter, Graham, and I introduced was 
referred by the Clerk to Senate Governmental Affairs Committee 
and reported out from there.
    As to which committees or committee handles the Department 
once it is created, that is a separate question for all of us. 
I will give you a first reaction, which is, this will be the 
second largest department in the Federal Government. Homeland 
defense will become second only to international defense as we 
consider how we carry out our constitutional responsibility to 
provide for the common defense. So I don't see how we handle it 
without creating a new committee in each Chamber, which would 
be the Committee on Homeland Security.
    Ms. Harman. I just would like to add two things. First of 
all, I see it as Senator Lieberman does that there are two 
phases. One is to consider the legislation, and the second then 
is to oversee and authorize what comes next.
    I think this committee and the House is very capable of 
considering this legislation. And if we invent a new committee 
structure, I am afraid we delay. And that is my second point. I 
read in the newspaper today that the administration may not be 
able to send up legislation until after July 4. I think that is 
regrettable. I think that probably has to do with turf wars 
downtown, and they are regrettable. So I would hope that either 
on our own initiative, or with their expedited assistance, we 
could have legislation introduced here in the next few days and 
referred to the relevant committees on both sides, and we can 
roll and consider it and get it done by September 11th.
    Mr. Shays. Thank you. Representative Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman. Thank you 
for holding this hearing and thanks to my colleagues for the 
work they are doing to try to protect our Nation.
    I wanted to ask Senator Lieberman a question that is 
actually something that this committee has grappled with for 
some time. And that is, do you think, Senator, that it would be 
useful for our country to have a comprehensive threat and risk 
assessment of the Nation's vulnerabilities prior to this kind 
of massive restructuring which we are about to embark on?
    Senator Lieberman. I think we are now at a point, 
particularly after September 11th, where the vulnerabilities 
are clear and we have had a series, if you will, of threat 
assessments both internal and classified, but also the external 
public work done by the Hart-Rudman Commission, the Gilmore 
Commission, the Bremmer Commission, and in fact in an ongoing 
series of appearances by witnesses, director of the CIA, 
director of FBI, that have spoken to this. So I think we know 
the problem is there, and it is not bad to have another 
assessment done as the new Secretary comes in, but I think we 
have got to really organize our troops, if I can put it that 
way--and I mean it that way--our troops for homeland defense. 
And we have got to do that quickly.
    Mr. Kucinich. Here is my concern, Senator, and any member 
of the panel, we are looking at a massive allocation of 
resources and reallocation of resources here. The President has 
an Executive order where, when he created Governor Ridge's 
position, he directed the Governor to develop a national 
strategy. I am not aware that this committee has received that 
strategy, and what I am wondering is if we are going through 
this reorganization--we haven't seen a comprehensive threat and 
risk assessment, we haven't seen a national strategy 
developed--wouldn't it be better to have the risk assessment as 
part of the strategy and then proceed with reorganization? Does 
anyone want to answer that?
    Senator Lieberman. My answer, respectfully, is no; that the 
problem is so evident to us, we have lost more than 3,000 of 
our fellow citizens on September 11th and the anthrax attacks 
that followed, that we have got to get reorganized. And as we 
get organized we also have to have a strategy.
    It is interesting to note that I don't believe Governor 
Ridge was going to come out with his threat assessment and 
overall strategy in July. I think prior to the surprising but 
welcomed announcement by the President last week, a lot of us 
assumed that we would hear then about what thoughts the 
administration had regarding reorganization.
    So, obviously, I am not the one to answer, but I would not 
be surprised if we hear that overall threat assessment and 
strategy early in July, which I understood was the schedule 
that Governor Ridge was on.
    Mr. Kucinich. I do want to go to--OK, go ahead.
    Mr. Shays. Mr. Thornberry, you wanted to respond?
    Mr. Thornberry. Well, Mr. Kucinich, I would say, as Senator 
Lieberman said, the White House is going to have a strategy 
that they come to us with. But whatever that strategy is, we 
have to have the folks who are guarding our aborted orders be 
able to work together. We need to make sure the Customs Service 
radios work with the Coast Guard radios, and that the 11 
different data bases these organizations have become 
compatible.
    So there are some basics at work here that regardless of 
what your strategy is, or how it evolves, and I would suggest 
it will evolve as we get new information, there are some things 
we need to do. So bringing together the organizations that 
guard the border, that deal with cyber terrorism, that deal 
with emergency response, bringing them together so they are 
coordinated, focused together is a basic we need regardless of 
the strategy.
    Mr. Kucinich. Your point is well taken, Mr. Thornberry. We 
just had a hearing, Mr. Chairman, about how the Department of 
Defense has, at latest count, 1,167 different accounting 
systems that they have not been able to get together. So I can 
understand how if you have a few Coast Guard and other radio 
systems that aren't together, that is a problem.
    I want to say, Mr. Chairman, and thank you for your 
indulgence here, that a comprehensive threat assessment has not 
been done. And the reason why we may want to consider that it 
should be done before we proceed with this massive 
reorganization is that we should determine which threats are 
more immediate and which are less. Otherwise, how do we know 
what we should devote more resources toward?
    The Executive Order which created Governor Ridge's position 
talked about developing national strategy, and all of us here 
are concerned that our country be protected. And I salute the 
Members of this Congress who are dedicated and putting all your 
time into creating this, but I would respectfully submit that, 
so we don't indulge in an Alice in Wonderland journey here, 
that first it might be good to have a national strategy and a 
threat assessment and a risk assessment before we embark on 
this great reorganization.
    I thank the Chair.
    Mrs. Tauscher. Congressman, if I could add briefly one 
thing. I think that we have to understand that there is a 
separation here that we have all agreed to. The first is we 
have to prevent and we have to prepare. And part of the problem 
is that the intelligence functions are part of the prevention 
issues.
    I actually want to split a hair here. My colleagues, both 
Senator Lieberman and Mr. Weldon, have said we are all 
concerned whether these attacks are inevitable or not. The 
attacks are inevitable. The question is can we prevent the 
attacks from being the cataclysmic events we saw on September 
11th. So we have to do the right thing.
    What we are talking about here is the preparing part. We 
need the intelligence agencies, we need harmonization of 
computers, we need all of the work done to analyze and archive 
and alert and advise. That is the intelligence function. But 
unless we have all these functionaries, the men and women, the 
good Americans that are working on the border control and in 
Customs, in the right place, and do it in a very expeditious 
way, we are never going to be able to deal with the sense of 
preventing and preparing.
    Mr. Kucinich. I thank the gentlelady, and I think we are in 
agreement on the need to protect this country. The idea of a 
comprehensive risk and threat assessment will address, I 
believe, the issue of inevitability, because there are some of 
us who feel that perhaps if we have that kind of assessment we 
would be able to make the determination as to whether or not 
these alleged or predicted attacks are in fact inevitable.
    I thank the gentlelady again.
    Mr. Shays. Let me say before recognizing Mr. Putnam, then 
we will go to Representative Norton, that we will probably 
proceed, in the spirit of your comments and also Senator 
Lieberman's and the other Members who have spoken, really on a 
dual track. Before you see the reorganization of government, I 
think you will see the threat assessment outlined and the 
strategy articulated. Because your point is well taken, you are 
not going to see the reorganization of government without that. 
But I don't think we need to wait until that happens before we 
begin this part of the process.
    Mr. Kucinich. I think the American people will take comfort 
in the Chair's recognition that it should at least proceed on a 
dual-track basis.
    Mr. Shays. I think those are the comments I glean from the 
others.
    We will go to Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman, and I want to echo the 
comments that have been made about this group of Congressmen 
and women who are on the cutting edge of bringing this issue to 
the fore.
    In one of the first subcommittee hearings that I 
participated in as a Member of the 107th Congress, we were 
presented with the Hart-Rudman report, which at that time said, 
``America will become increasingly vulnerable to hostile attack 
on our homeland, and our military superiority will not entirely 
protect us.'' It said, ``Americans will likely die on American 
soil, possibly in large numbers.'' It said, ``Americans are 
less secure than they believe that they are.''
    With all due respect to my colleague on the panel, this is 
no longer an academic discussion. To characterize this as an 
Alice in Wonderland pursuit is irresponsible, and I would like, 
to the degree possible, to ask you some questions specifically 
about the legislation, recognizing that the President's plan 
has not come forward yet and so we are sort of dealing with 
what you all have put forward and what we think the 
administration will put forward in detail.
    What role will the National Guard play in this new 
Department of Homeland Security or will it remain separate and 
a part of the Department of Defense?
    Mr. Thornberry. The short answer, Mr. Putnam, is it will 
remain separate. A number of us are on the Armed Services 
Committee in the House and the Senate. There are some reforms 
that need to be made there, in my view, but not as a part of 
this legislation.
    Senator Lieberman. If I may add a word to that. The answer 
is, of course, correct that Congressman Thornberry gave, that 
it will remain separate under the legislation, but the question 
raises an important point.
    Right now the Pentagon is considering, and I believe either 
the Secretary may have it or it may be on the way to the 
President, the creation of a Northern Command, which is to 
expand the duties of the commander-in-chief now at Colorado 
Springs, Colorado, to include homeland defense and the 
employment of the assets of the Pentagon for that purpose, 
including, presumably, I am sure, the National Guard.
    So that is happening, and I ask my colleagues on this 
committee to think about that, and we will on the Senate side, 
as we consider the proposal as part of our shared bill, which 
creates an Office of Counterterrorism in the White House, an 
adviser to the President who has coordinating capacity not only 
over the Department of Homeland Security, but intelligence, 
FBI, and the assets of the Pentagon that are involved in 
homeland defense, because not everything will be done by the 
Department of Homeland Security.
    Mr. Putnam. Thank you, Senator, I understand that. I think 
it is important, though, that this panel, and as we move 
through the details of this, the huge role the National Guard 
would have to play.
    Ms. Harman. Mr. Putnam, I just wanted to add.
    Mr. Putnam. Well, let me just get through this.
    Mr. Shays. Let me just say that you will get more time if 
another panelist wants to respond. I realize the 5-minute rule 
kind of stinks, but we will go beyond that.
    Ms. Harman. Thank you, Mr. Chairman. I just wanted to add 
that the National Guard presently plays a huge role in our 
homeland security program everywhere in the country, and they 
are to be commended. There would be no possible way to put 
every function of government into one little package or one big 
package, but I think what the President has done here is to 
apply a functional analysis to what should be there and to move 
those boxes in there.
    I agree with Senator Lieberman that there must remain a 
coordinating function in the White House, and that was the 
legislation that Mr. Gibbons and I introduced over here 
sometime back that then became part of this bigger bill the 
committee is considering. How much authority that function 
should have I think will depend on what the Department of 
Homeland Security ends up looking like.
    But I think that combination will assure that the National 
Guard resources, which remain in the Pentagon, are most 
effectively utilized under the Northern Command structure.
    Mr. Gibbons. Mr. Putnam, let me add one little brief 
comment here, in addition to what has already been said. It 
must be remembered that the National Guard is a State agency 
until it is Federalized, which puts a very difficult premise in 
there when you start reshuffling the National Guard into other 
Federal agencies.
    It is called up under, I forget the title number now, which 
goes then into the Department of Defense when it is 
Federalized. Otherwise you have 50 State agencies called the 
National Guard which are under the Governor of each respective 
State. So we have to keep in mind that difficult, complexing 
factor in this as well.
    Mr. Putnam. Well, I appreciate that, and if you look at the 
functional chart that the administration has put out, it tends 
to focus on the key areas of the information gathering, the 
border security, the weapons of mass destruction, and what 
doesn't appear, in my opinion, is how we deal with the 
nonforeign threats.
    If it is homeland security, which of those functions deals 
with homegrown terror? Which of those functions deals with 
Oklahoma City type incidents? Which deals with mailbox bomber 
type incidents and homegrown type issues that do not reach the 
critical mass of a weapon of mass destruction but are 
nevertheless a threat to homeland security?
    Mr. Gibbons. Mr. Putnam, let me briefly say I think we are 
dealing with two different categories. We are dealing with 
international terrorism, and that is the issue we are trying to 
coordinate today between the CIA's information, because it is, 
by law and by statute, prevented from spying on any American 
citizen, whether they are in a foreign country or here in the 
United States. It is that information that we are trying to 
coordinate between agencies.
    I believe the FBI is best prepared to deal with crimes 
committed within the United States by individuals, whether you 
call them terrorist acts, such as we saw in the Murrah Federal 
Building in Oklahoma City or the pipe bomber which was arrested 
in the State of Nevada recently.
    Mr. Putnam. You believe that is a separate issue and will 
remain in the purview of the FBI?
    Mr. Gibbons. I think it is a separate issue that will 
remain in the purview of the FBI.
    Mr. Putnam. OK. Thank you.
    Mr. Shays. Thank you. Before giving the floor to 
Representative Norton, I just want to acknowledge the presence 
of Representative Davis, who is the ranking member on the 
Subcommittee on Civil Service, Census, and Agency Organization, 
a teammate with Mr. Weldon, and also to welcome our colleague 
Mr. Platts as well.
    Ms. Norton, you have the floor.
    Ms. Norton. Thank you, Mr. Chairman. And just let me thank 
you for what is so typical of your leadership in getting this 
bipartisan panel together so early, and tell you how much I 
appreciate it.
    I serve on two committees which have been considering 
homeland security. I am not on this subcommittee, but I 
appreciate the opportunity to come and sit today. I am on 
another committee that went very far, however, this is by far 
the more comprehensive legislation. The other bill took into 
account that Ground Zero, when it comes to homeland security, 
in New York it may have been the Twin Towers, it is my district 
if we think about our country. There is some speculation, for 
example, that the dirty bomb, and it is only speculation, may 
have been headed for the District. I saw the man landed in 
Chicago.
    But the District does serve on the Justice Department 
Terrorism Task Force, and it is the first responder. The other 
bill takes that into account. The Federal presence is here, all 
of us are here, and if anything goes wrong in this District, it 
is this city and this region that we must call upon, and I 
would like to see this bill take account of that as well.
    I have questions regarding the Lieberman-Thornberry bill. 
Perhaps Mr. Thornberry can take one and Mr. Lieberman the 
other, particularly since it raises an issue that he himself 
raised.
    Mrs. Tauscher alluded to something that will come up time 
and time and time again, and that is people are going to say: 
How come you are taking the whole thing out of and putting it 
there, and what is going to happen to the real homeland part of 
this, the part that has to do with my district, the part that 
has to do with domestic concerns? Unless you have an answer for 
that is explicit, either statutorily or administratively, at 
some point along the way you may have a backlash from people 
saying they are not being attended to because the whole thing 
went over and the whole world now is about terrorism and no one 
cares about what is happening with respect to that particular 
issue here. The major one may be immigration services and the 
INS, although one could argue that immigration services are in 
fact related to the law enforcement services. But that is the 
major one there.
    For Mr. Lieberman, whom I regard as a like mind on a number 
of issues, including a bill he and I are working on together in 
another capacity, I have to ask Senator Lieberman to say more 
about the tantalizing and important issue he raised about the 
FBI. He did it in the careful Lieberman way, because he doesn't 
want to complicate an already complicated issue. The reason I 
ask you to say more is that the major criticism of the 
President's plan and, therefore, ultimately of the Lieberman-
Thornberry bill will be that the major problem was not these 
agencies that you are dealing with; the major problem was the 
CIA and the FBI. And you still leave us wondering about those 
agencies.
    So that if we had some greater sense that we would move at 
some point on what your thinking was, I think there would be 
greater comfort and less criticism of the present bill for not 
in fact touching upon that issue. So in either order..
    Mr. Shays. Before answering, there are probably a number of 
you that would want to answer that. We will give you more time 
if they do, because this is a key element of the question. So 
all of you feel free to jump in.
    Senator Lieberman. Thanks very much, Ms. Norton, for your 
question. My own feeling is that the fact of September 11th, 
that the attack occurred, is evidence that there was a 
breakdown, that the status quo failed to protect the American 
people. Some of that was intelligence and law enforcement, but 
some of it was not. Some of it had to do with border control 
agencies, some of it had to do with the FAA, I think, some of 
it had to do with, one could argue, with our foreign policy 
over the years.
    So I do think that in bringing these agencies together, as 
my colleagues here have indicated earlier, we are going to 
tighten our defenses generally in ways that the events of 
September 11th showed need to be tightened. But you are right, 
as evidence gathers both from congressional investigations and 
from media inquiries, the most troubling, infuriating, and I 
have to say heartbreaking because of the deaths that occurred 
on September 11th, evidence is that the flow of information 
that as my colleague Senator Specter says wasn't just dots that 
weren't connected, it was a blueprint that wasn't seen, and 
that had to do with intelligence and law enforcement, FBI and 
CIA.
    So our answer to that and our proposal is to have this 
White House office coordinating with a statutory responsibility 
to coordinate FBI, CIA, law enforcement, and intelligence. In 
the President's proposal there is a clearinghouse, a threat 
assessment section, within the Department of Homeland Security. 
Again, the President hasn't presented the proposal in 
legislative language, so we don't know exactly what it will 
entail. I am a bit concerned now that group seems like a kind 
of passive customer of whatever the CIA or the FBI send them 
and not in control. In other words, it is more supply side than 
demand side, if I can misuse a metaphor.
    Ms. Norton. But, Senator, you suggested this morning that 
you would go even beyond where your bill takes us thus far.
    Senator Lieberman. Yes, I wanted to put it on the table, 
but it is probably more than we can embrace as we create this 
department, and probably we need to get some experience with 
it. But as the FBI becomes, and in my opinion appropriately, 
more involved in what might be called domestic intelligence, 
how do we get the information that will help us prevent 
terrorism from occurring, whether that more appropriately 
belongs within the Department of Homeland Security is a big 
question, and one that probably we are not able to answer in 
the short run.
    In the short run, we ought the end this process feeling 
that we have got not just an ongoing working relationship now 
between the CIA and FBI, but we have got something in law that 
compels that coordination to the best extent we can.
    Mr. Thornberry. Ms. Norton, let me just mention on that and 
the first part of your question, if we pass our legislation, or 
the President's legislation today, exactly like I would like 
it, we still cannot all pack up our bags and go home. There is 
lots of work to do with intelligence, with the National Guard, 
with a whole list of agencies. And so I just want to be careful 
that we all recognize this is not a magic answer to all our 
problems. It is good and it is important, but we still have 
work to do.
    Now, exactly what part of what agencies get brought in you 
raise, and some of this is going to be a judgment call, I think 
some of them are easy. All of FEMA needs to be brought into the 
Department of Homeland Security. Whether you are training or 
responding to a hurricane or some sort of terrorist incident, 
it is the same sorts of skills, the same sorts of relationships 
with State and local governments. That is very important to 
bring that together.
    You raise immigration. I think it is a more difficult call 
about exactly where is the best place for the service part of 
INS to go. We have already voted to split it in two, but 
exactly where that part goes it is not absolutely clear to me, 
and we just have to work through those. I regard those as 
important, but they are details, exactly how the reporting 
change will go and exactly what part of what agencies.
    The key is just use a common sense approach. Do the best 
you can. We may have to come back and adjust, just as Congress 
had to come back and adjust the National Security Act of 1947 
several times. None of us are going to get it perfect even if 
we spend 10 years working on it. We do the best we can, put 
things together that make sense, and try to use just the common 
sense test.
    Ms. Harman. Ms. Norton, as one of the lawyers on this panel 
speaking to someone who is an excellent lawyer herself, I would 
just like to raise a note of caution about moving the FBI into 
this department, and my primary reason is that it is and 
remains a law enforcement agency. It also has under the 
reorganization by the new Director, which I think is a sensible 
reorganization, a large intelligence function. But the law 
enforcement piece has to remain separate.
    If people are to be afforded due process under the 
Constitution, there has to be a firewall to protect grand jury 
information and other things affecting their own cases. And we 
are going to have a long debate in this country for sure, we 
are having it now, about how to rebalance our increased 
security needs with our Constitution and civil liberties. But 
certainly I think one way to keep that balance is to keep a 
separate and better functioning FBI.
    Ms. Norton. They have a terrorism function that is quite 
apart from the investigatory arm.
    Ms. Harman. Right.
    Mrs. Tauscher. Ms. Norton, you referred to the Livermore 
Lab issue. In our bill, we had essentially created a science 
and technology clearinghouse, the opportunity to detail people 
from our national labs, both the nuclear design labs and our 
science labs, so that we could have a portfolio, very needed 
science and technology catalogs to be able to be readily 
available to anyone involved in homeland security.
    The Lawrence Livermore Lab, in my district, has primary 
responsibility for stockpile stewardship, nuclear weapons 
design, and to make sure our nuclear deterrence is safe and 
reliable. They have, obviously, 200, 300, 400 people that work 
on weapons of mass destruction, detection devices, and they 
have a lot of experience with international terrorism on these 
issues. Those were the people that could be migrated.
    The Livermore Lab's employees are not Federal employees. 
They work for the University of California because of the 
contracting relationship. We don't believe the White House 
really intended to move the Lab over into Homeland Security, 
and we are working with them to make sure that the Lab, which 
is part of the National Nuclear Security Administration that 
Mr. Thornberry chairs, and I am a ranking member of the panel 
on the Armed Services Committee, which we oversee, so we think 
this was a drafting mistake that is going to get fixed, but, 
obviously, we can't get bogged down in these issues because we 
need to galvanize the support of Congress to move forward.
    Mr. Shays. Thank you. At this time the Chair would 
recognize Mr. Lewis, and then we will go, I think, to you, Mr. 
Tierney.
    Mr. Lewis. Thank you, Mr. Chairman.
    For years, Congress has been told that we were going to 
face, not if but when, we were going to have a terrorist attack 
on this Nation. I have been here going on 9 years now and I 
have heard it every year. CIA told us, the commissions told us, 
and it happened. And it didn't happen just on September 11th, 
it happened several years before that at the World Trade 
Center.
    My question is, why didn't we learn from that experience? 
Why were there not questions to the CIA, to the FBI and to 
other agencies of why that happened? Maybe September 11th could 
have been prevented if we would have learned something from 
that, and not only the World Trade Center, by the Cole, two 
U.S. Embassies in Africa, Somalia, two apartment buildings that 
housed our military personnel in Saudi Arabia. Americans were 
dying, and we probably should have learned something from that.
    So I think there is a lot of blame that can go around as to 
why September 11th happened, because there is certainly a lot 
of evidence there that we should have learned from. But my 
question is how can we ensure information sharing, because we 
should have been sharing information before September 11th?
    I know from my own personal experience, in whatever 
position I have ever held, where there were groups of people 
with individual responsibilities for different areas, they have 
a territorial view of things. So if we set up the Department of 
Homeland Security, we bring all those agencies under that 
umbrella, how can we ensure that they are going to share the 
information? And not only Homeland Security, but how can we get 
the FBI and the CIA to start sharing their information and stop 
trying to play these turf wars?
    It should have happened way before September 11th. I would 
love to know how we can ensure it afterwards. That is the 
question I am posing.
    Ms. Harman. Mr. Lewis, as we speak, right now, the 
bicameral Intelligence Committees are meeting and questioning a 
witness, Richard Clark, who was, until fairly recently, the 
senior counterterrorism person in the White House and still 
plays a role with respect to cyber terrorism, on the lead-up 
events to September 11th; what was looked into, what was 
worried about and so forth. I just want to mention to you that 
inquiry goes on, and the point of it is to look backward and 
look forward, not just to find someone to blame or some 
administration to blame, but to learn the lessons, to learn 
what we missed, so that we create for the future a much better 
capacity.
    On your second point, about information sharing, there was 
a bill that was introduced virtually unanimously by the House 
Intelligence Committee, H.R. 4598, which would mandate that we 
develop within 6 months a system to share information across 
the Federal Government. That means including the FBI and the 
CIA and whatever agencies are now in this new department, and 
any others, across the Federal Government horizontally and then 
vertically between the Federal Government and local responders, 
local first responders and American citizens, critical 
information about terrorist threats.
    The way this would be done is that information would be 
stripped of sources and methods, of its classification 
qualifications, so that it could go out on our law enforcement 
networks, NLETS, the National Law Enforcement 
Telecommunications System, called NLETS, and we hope that bill 
will proceed through this Chamber quickly and then will be 
taken up by the Senate. Information sharing was a huge part of 
the problem, and that is something that Congress can quickly 
fix.
    Mrs. Tauscher. Mr. Lewis, part of what we have to do is we 
have to have a procurement strategy that says that the East 
Coast of one agency cannot buy computers that do not talk to 
the West Coast agency computers. You cannot have a major place 
like the FBI not have e-mail. You have to have 21st century 
technology, telecommunications, and bandwidth. You have to have 
a complete amalgam of a new set of structures that are able to 
deal with portals that strip out pieces of information and that 
get down to the guy and the gal standing in a booth at one of 
our borders; the information that says this is the guy you are 
looking out for. I may not tell you everything you need to 
know, but if you see this person, this is the four digit number 
you call and we will be there in 5 minutes to get him.
    And we can do that. We do that in corporate America day in 
and day out. So part of what we do needs to be sure that we are 
not blowing money all over the place on a procurement strategy 
that buys us stuff that isn't interoperable. We know that in 
the military that is one of the key ingredients for our 
success. It is one of the ways we harmonize our ability to work 
with our coalition partners. Everybody has a radio that looks 
the same and they all talk on the same bandwidth. We have to do 
that in the Federal Government, too.
    So part of this is to make sure that we are building an 
infrastructure that is 21st century responsive, can deal with 
privacy, can deal with secrets, can deal with making sure, but 
we have to take down these artificial firewalls, that have 
basically also been computers and telecommunications, so that 
people can get the information to the people that have to have 
it and they can act quickly.
    Mr. Gibbons. Mr. Lewis, let me just add one final thing, if 
I may. The new Department of Homeland Security should be the 
keystone, if you will, among our intelligence gatherers. It is 
not a collection agency, it is an analytical agency. Therefore, 
I think one of the questions you have asked raises the issue 
that I brought up in my testimony, which is can the new 
Secretary of Homeland Security task these various agencies when 
he sees an issue based on his collective knowledge of all the 
information coming in to him? If he sees a direction or a trend 
or a warning sign or an indicator, can he task agencies to be 
more specific and go after that information?
    It is something we must work out in this legislation, but I 
think you have raised a very important issue here.
    Mr. Lewis. Thank you.
    Mr. Shays. Mr. Tierney, thank you for your patience.
    Mr. Tierney. Thank you, Mr. Chairman, and thank you for 
your leadership in having this meeting today, and thank the 
members of the panel.
    I have two quick points I want to make before I ask a 
question, and one is I know we talked earlier about risk and 
threat assessment and its order in going forward here, and I 
agree we have to move forward at least on both tracks, but I 
hope we don't let that slide. I think it is critically 
important, and I was somewhat disappointed that Governor Ridge 
did not have when he came and met with our committee a while 
back even the rudimentary aspects of a risk and threat 
assessment. We are going to need to know what those threats are 
and how they stack up against one another so we can prioritize 
them and have some way of putting this together. We may need, 
as Mr. Thornberry says, to make some amendments to this once we 
see that, and we may need to know how to allocate the resources 
that will surely be asked for.
    The second point, and, Mrs. Tauscher, you made a great 
point about the technology, I hope we are going to encourage 
the President to call upon the collective expertise of people 
in industry and entrepreneurs who are so good at doing that 
type of thing. This is an effort akin to World War II when the 
President called in industry and asked for them to volunteer 
some time and expertise. I hope this President takes the 
leadership to do just that and to help us make sure we find the 
right hardware and certainly the right software gets 
immediately put together to do that, because I know that your 
voices on that issue will weigh in and be considered with 
appreciation by the White House.
    Ms. Harman, let me start with you on the question I had. We 
have been dealing a great deal with local emergency personnel 
and first responders. How do you envision this plan? I look at 
the President's plan, which talks about going through the 
States, and I know it raises some concern with my local first 
responders, I assume others, about that extra level of 
bureaucracy. Do you envision, as we move forward with this 
legislation, that at least with respect to programs that have 
worked so well, like the COPS and the Fire Act, and others, 
that we can cut that level out and have these Federal resources 
go directly to the local responders?
    They are the ones that obviously have the fear and 
innovation and the solutions right there on the front line.
    Ms. Harman. Well, you have to understand, Mr. Tierney, that 
Governor Ridge, as a former Governor, and President Bush, as a 
former Governor, might have some affection for the Governors of 
the 50 States, and of course Mrs. Tauscher and I love our 
Governor, Governor Davis, but I think the goal is to streamline 
whatever system is in the bill.
    The present idea, pre-Department of Homeland Security, is 
to get the $3.5 billion out to first responders going through 
the States. But the States are prohibited from holding on to 
more than 25 percent of the money. And whether that is an 
adequate system or not, I am not sure, but I am eager, as you 
are, to make sure our first responders have the best 
technology, the best training, and the best information that 
they can have. And that is why it is critical that we also make 
sure that we mandate information sharing in any way that we 
can, because it is not happening adequately.
    Just a final comment. Every act of terrorism in America is 
local, and it is going to happen on somebody's real estate. 
Maybe it is going to happen on Ms. Norton's real estate here in 
Washington, DC, but it could as easily happen somewhere else. 
So we must make sure that the resources we have to protect 
Americans wherever they live are in place, and that is why, if 
I had to prioritize, I would say getting money to first 
responders is paramount.
    One final comment. You talked about a threat assessment and 
a strategy. I think you know that even when I am home asleep I 
talk about a threat assessment and a strategy. I am not sure, 
however, that once we do this threat assessment, which is 
overdue, that we should make it public. I would not like to 
tell terrorists what we are protecting and what we are 
protecting less. I think that might be a very bad idea.
    Mr. Tierney. Mr. Thornberry.
    Mr. Thornberry. Mr. Tierney, I think that this relationship 
between the Federal Government and the State and local first 
responders is one of the most important features of this whole 
proposal. Right now you have several offices around the 
government which have some responsibility for helping out in 
the case of an emergency or in training to prepare for an 
emergency. What our bill and the President's bill tries to do 
is bring those together so that those relationships, like FEMA 
has 10 regional offices around the country, can be the primary 
method of communication, and so you get used to dealing with 
those folks. They help do the training, and they are also the 
people you call when you have an emergency.
    So you develop those relationships with the Federal and 
State and local folks so that you have one phone number to call 
rather than a phone book to try to look up the number of who it 
is you are supposed to call when such-and-such happens. And you 
bring that together, and having the coordination and 
integration for that intergovernmental relationship I think 
will be of enormous benefit for any kind of emergency, natural 
or otherwise.
    Mr. Tierney. Well, I appreciate that, and I just hope that 
we are talking about getting it straight down. If we can get 
rid of one level of bureaucracy, and it has not necessarily 
worked well, that the money stops at the State and fully one 
quarter gets chopped off. I don't think that is a great plan. 
The money has been very, very slow getting to the local 
communities, especially those that have put out $1.5 billion 
collectively since September 11th and have yet to get any 
reinforcement for that, nor have they gotten any sign yet that 
we are going to, as a group and the White House together, give 
them any credit for that by softening up the matching 
requirement as they go forward.
    You know as well as I that most of our States and local 
communities are strapped right now, and I think we can help 
them in a number of ways by looking at those issues.
    I didn't mean to cut you off, Mrs. Tauscher.
    Mrs. Tauscher. No, Mr. Tierney, we need a Marshall Plan for 
our relationships around the world but we need a Manhattan 
Project to get this telecommunications bandwidth and 
communications computerization thing worked out, because it has 
been a nightmare heretofore, the kind of procurement strategies 
that different agencies use. We need someone that is frankly 
like an orchestra conductor, and we need to really engage the 
private sector, certainly in California and in your State of 
Massachusetts, and around the world, to say that it is 
imperative when we are analyzing and archiving information that 
it can actually be put into bite-size securitized pieces so 
that the people that have to do the functionary jobs, whether 
they are first responders or border patrol, just collecting 
information from hospital emergency rooms to make sure that if 
somebody sees something with bumps on them that it really is 
chicken pox and not smallpox. All this stuff needs to be done, 
and it needs to be done now.
    That is why we have to have a procurement strategy, not 
only so we do it right, but so that we don't waste the money 
the American people think we are going to.
    Mr. Gibbons. Mr. Tierney, let me add my thoughts here as 
well. I couldn't agree more that our city and local responders 
need assistance and they need it quickly. But no doubt about 
it, when you look at every State, some of the first responders 
are not local or community organizations, they happen to be 
State organizations as well. So whether the division of 
resources, 25 percent to the States, 75 percent to local and 
community responders, is adequate, I think Congress will look 
at that and make that determination and assign maybe a fast 
track to get the resources down to those local communities.
    But, again, I go back to what Mr. Putnam said, the National 
Guard is a State agency, and it will be one of our first 
responders, as we saw during the September 11th and post-
September 11th events. You cannot cut State out altogether. 
They have to be a part of this. Ultimately, the decision tree 
can be streamlined, I hope, as you have suggested as well.
    Mr. Tierney. Thank you.
    Mr. Shays. Thank you.
    Mr. Otter, thank you for your patience. Thank you for 
staying.
    Mr. Otter. Thank you, Mr. Chairman, and thank you for your 
leadership on this very important and obviously complex issue.
    Just a couple of things that I would like to start with, 
and I don't mean to begin a bantering process here between the 
panel and the committee members, but you know, when I take a 
look, I believe in some cases we do have a Marshall Plan. In 
fact, I think we maybe even came perilously close to creating 
martial law in this country. And if we are not careful with how 
we go with our great enthusiasm, we may just do that.
    And as far as the Manhattan Project goes, it is interesting 
that when they put that together they were not quite sure if 
they were going to succeed, but nobody was studying what 
happens if they were successful. If we had been studying what 
happened if they were successful in achieving their goals under 
the Manhattan Project, we probably would have stopped a 60 
years cold war, because we knew we would control those massive 
devices of destruction if we had said to ourselves at the same 
time what happens if we are really successful here.
    One of the things I would like to engage in with the panel, 
and I have not heard it and as I have searched through this I 
have not seen it, and that is the participation of the 
individual. We have committees and we have directors and we 
have secretaries, and it goes on and on and on, and I am just 
concerned that whenever the government gets a profile and this 
committee gets a profile and this act gets a profile, that 282 
million Americans are going to say, well, somebody's handling 
it, I don't have to worry about it. Too often that is exactly 
what happens.
    So as I have searched through the appointments and the 
directors, I have seen nothing in this bill that says here is 
how we are going to activate 282 million citizen patriots. 
Because what we need here is not a Neighborhood Watch, we need 
a Nation Watch, and they need to be able to respond, I believe, 
when they see something that obviously looks out of the 
ordinary. Perhaps your September 11th on a Nation level will 
answer part of that.
    The other thing that really concerns me was the response 
that we got to Mr. Putnam's question relative to domestic 
terrorism. We do have domestic terrorists, and especially out 
west we are very aware of them. There are people that purposely 
destroy property, in some cases have sent pipe bombs and letter 
bombs to executives at corporations that they disagreed with 
their corporate mission, and that sort of thing, and we have 
done precious little to stop that sort of terrorism.
    We know their names. In my other committee, the Natural 
Resources Committee, we had a member of ELF come before the 
committee and took the fifth amendment 105 times. The very 
constitutional protection that he exerted in that committee he 
denied to everybody and to their private property that he 
assailed. So we have ecoterrorism going on in the United States 
right now, and they can be every bit as damaging.
    In fact, through the chairman's leadership a while back, we 
got a pretty good look into some of the terrorism that was 
planned against the United States during the Second World War 
when a plot was uncovered to send arsonists from both Germany 
and Japan to the United States and set our forests afire, not 
unlike what is going on in Colorado and some of our other 
sister States today.
    So I think that we need to take a look back to Flight 93 on 
the morning of September 11th, a flight that was headed from 
New York right straight to San Francisco. When we informed, 
when those people became informed on that flight that they 
didn't have very many alternatives, when they had the 
information, they acted. So those were the first citizen 
patriots I believe this country saw, and I believe that we need 
to assume that same responsibility that they did.
    I would be in hopes that someplace in this act we would 
find an encouragement, an enthusiasm for the individual's 
responsibility to, No. 1, be responsible for their own freedom; 
No. 2, their family's freedom, and then it grows into the 
communities and, yes, the cities, the counties and the States 
as it goes on. But let us not deny the most massive force that 
we have. When Osama bin Laden and So Damn Insane, or Saddam 
Hussein, figures out that he has to defeat 282 million 
Americans that love their freedom, they are going to say this 
is a ship we have at sea that is never going to find a port, I 
believe. So I would hope that we would encourage that.
    There are a couple of things that I want to speak to here, 
and my time is already up. Primarily, as I have gone through 
the act, and maybe you could do this later, section 108, which 
is the good faith, as long as the individual and the agency is 
acting in good faith they cannot be held personally responsible 
for what they may do to a citizen's civil liberties.
    Section 302, the immunity provisions, whatever immunities 
they had before they carry with them. I think if they are going 
to be responsible for enforcing a law like this, they ought to 
understand it, and they ought to understand where their 
limitations are.
    And, Mr. Chairman, I made a speech instead of asking the 
question, so I apologize for that.
    Mr. Shays. You don't need to apologize. You have been 
thinking about this a long time and you have been waiting in 
this hearing. I would be happy to have this addressed. That was 
in your legislation, not the President's. The President has 
submitted his bill.
    Would you like to, each of you, just comment on that, and 
then we will go to Ms. Watson.
    Mr. Thornberry. If I could, in summary, what our bill tries 
to do is take existing agencies and existing authorities and 
brings them together in a more coordinated and coherent 
fashion. We are not trying to create new exemptions or new 
powers for Federal employees, we are trying to bring them 
together. So our draft is an attempt to reflect authority that 
is already in law.
    And, of course, you are right that the strength of this 
country is in the citizens, not in other things. That is what 
we have that is most important. I guess I just want to 
emphasize that we are not trying to do everything. We are not 
trying to marshal all the resources here. What we are simply 
trying to do is realign government agencies in a way to make 
the country safer. That is the focus, and I think that this 
proposal does that.
    Ms. Harman. And I would just add to that I think the 
empowered individual is at the center of this legislation and 
at the center of the way we can protect our country in the 
future from terrorist acts.
    I mean, a terrorist act is designed to inflict terror. If 
we have a prepared public that understands what it is supposed 
to do and take individual precautions to protect the 
individual, the family, the community, and so forth, then 
terrorism will fail. And the structure that the administration 
has come up with, particularly the blue piece on the right, the 
analytical capability, I think is designed to get good 
information to first responders and to individual citizens so 
that they can take responsibility to prevent the attacks in 
their own communities.
    And I think that is a great thing we can do as a government 
to help individual freedom, and I certainly support the thrust 
of your comments.
    Mr. Shays. Ms. Watson, thank you for your patience.
    Ms. Watson. Thank you, Mr. Chair, and thank you so much for 
this hearing. I really think that we are going about this all 
the wrong way. I feel that what we need to do, and as has been 
just said, is work on a coordinated function, have a separate 
research group that would do nothing but concentrate on what 
homeland security is all about, then come up with a proposal 
that will pull out provisions from other departments.
    Just taking departments and throwing them all under one 
head is not going to solve our problem. You are going to have 
personnel problems with status and so on. We have to set aside 
a budget. This is not going to pay for itself by the budgets 
already in these departments. But I think we need a separate 
unit that does nothing but research and come up with a 
proposal. It might take us 1 year, 2 years, or 3 years, but in 
the meantime, it is the coordinated effort.
    How can you have a department without the CIA and the FBI 
part of it? The reason for the establishment of the CIA is to 
gather intelligence, and they need to be under this pinnacle. 
So I think moving real quickly to make one huge massive 
department, called Homeland Security, is the wrong way to go.
    I think the coordinated effort is the right way to go at 
this time, and then give some time to a select committee to put 
up a proposal in front of us. Can I have comments on that, 
please?
    Mr. Thornberry. Ms. Watson, let me make a couple of 
comments, and then I am sure others will want to join in.
    In order to get coordination, you have to bring some of 
these agencies together under one chain of command. In other 
words, Governor Ridge has been trying to do this from the White 
House for several months. He does not have the ability to make 
the Coast Guard, and I am using a simple example, the Coast 
Guard radios compatible with the Border Patrol radios. You have 
to bring them together in one department so there is a guy at 
the top who has control of their money and says do this. Until 
you get that direct chain of command, with the money that goes 
with it, you will not have the kind of coordination which I 
believe we need.
    And let me just address one other point briefly. We have a 
CIA for lots of reasons: To collect intelligence for foreign 
activity, for threats that may be happening in India and 
Pakistan, for example; things that are happening in Africa, 
drugs in South America. They are collecting intelligence all 
over the world for a variety of purposes. What the President's 
proposal does is say, OK, we will get together the information 
collected by the CIA and the FBI and other intelligence 
agencies and we will look at it with a new set of eyes, looking 
at it from a homeland security perspective. In other words, it 
is the analysis, thinking about homeland security from that 
perspective, that is new and different, and I think is a major 
step forward.
    Ms. Harman. I endorse those comments, but I would just 
point out to you, Ms. Watson, that we have done the research. 
That was called the Hart-Rudman Commission and the Bremer 
Commission and the Gilmore Commission. They looked at these 
things. The Federal Government spent real money. Senator Rudman 
just told me that the Hart-Rudman report cost $12 million, and 
I just told him I am not sure he was worth it. But humor aside, 
they have seriously studied these issues, and the 
recommendations that we are dealing with today grow out of a 
recent history of really serious and focused research to arrive 
at this result.
    This new proposal doesn't cover every function of 
government, as we have said, and it is a variation on 
legislation that all four of us have cosponsored and support, 
that would have these functions arrayed slightly differently, 
but we all feel strongly these functions do have to be attended 
to in some organized format. Otherwise you will not get the 
result, which is increased homeland security.
    Mr. Gibbons. Very briefly, while I join my colleagues in 
their comments as well, you have raised the issue as to why 
this is such a difficult task, and that is because we have so 
many turf wars that we are going to have to deal with, both 
here in Congress as well as in the administration, and that is 
clearly evident to all of us and each of us as we have gone 
through this whole process. What we are after is to streamline. 
We are after making more efficient those agencies which have a 
role in homeland security, which are disparate now. They are 
spread out among other agencies.
    What concerns us when we see these separate agencies and 
separate responsibilities is that focus among those agencies 
may not be on the most important task for the defense of 
America within that bigger agency. In the Transportation 
Department, you have the Coast Guard. Is it the Secretary of 
Transportation's primary focus to worry about the safety of 
America or is it to worry about how the infrastructure of 
America functions to keep our economy going, which is just as 
big an issue in this country?
    We want to simply streamline by removing some of these 
various agencies that have a role and put them into a clearer 
focused agency, whose role is for a single purpose, homeland 
security. And you are absolutely correct, it is going to cause 
some heartache among some of these larger agencies when they 
start seeing relative parts, representative parts of their not 
only department but budgets go with them over to this new 
agency. It is something we will have to work on. It is not 
going to be easy, it is not going to be quick, but we have to 
do it.
    Mrs. Tauscher. Perhaps if we talked about who is moving, it 
would be helpful. There are over 100,000 people now, when you 
include the Transportation Security Administration, in 40 
different departments of the Federal Government that have 
terrorism or counterterrorism in the first line of their job 
description, and they are underneath this kudzu blanket in many 
different departments that have primary functions to do other 
things. They are nice to have, in many cases, in big 
departments that have primary jobs to do important things for 
commerce, for our environment, for the people of America, but 
they are over here. And what we need to do to make sure that 
once we get this CIA-FBI analytical and archiving and advising 
and alerting function moving, you have to have people in a 
place with someone that is going to tell them what to do, with 
the budget authority to get it done, with the right set of 
tools to accomplish what needs to be done to prevent and 
prepare for attacks.
    We are not just picking people and moving them because they 
are in this building or that office. These are people that 
already have functions that are about terrorism and 
counterterrorism, but they are working for other people and 
they are not always the most important people in that building 
and they are not always getting budget and the authority they 
need. So this is an effort to move them into a place so that 
they get the kind of attention they need.
    Now, my colleagues are right, because of the atmosphere we 
have now these are the people that are probably going to get 
more money in different departments than some other people are, 
and it is going to be hard to separate them from the leadership 
that they have now. Everybody wants the people that are the 
flavor of the week or the budgetary issue of the week. So we 
know this is going to be difficult. But unless we take down 
these firewalls and unless we put them in one place and hold 
people accountable and responsible for what they do, and give 
them the tools and equipment they need and the budget authority 
they need, we will never get to the place where we can prepare 
and prevent. That is why I think this bill is very important.
    Ms. Watson. Just a comment. I couldn't agree with the four 
of you more. I think the coordinated function is what is 
essential at the current time. The establishment of a new 
department, I think we need to go beyond the Rudman report so 
that it is essential and relevant to what is needed in today's 
climate, and I think that is what is going to take the time.
    And then how do we allocate the budget? We cannot just pick 
up the cost of running a particular agency and put it over 
here. We are going to have to do more in-depth thinking about 
how we do that. We are just going to have to all agree it is 
going to cost us to develop this new department. Over the 
weekend the news was it is not going to cost us anything. We 
are going to pick up the budget. That is unrealistic. We ought 
to go ahead, dedicate the money, we ought to deal with the 
coordinated function right now.
    But we have personnel issues that are just going to be the 
biggest challenges we have ever had. We have to move people 
around. The people who have the authority to make all the 
decisions at the top are going to be answering to somebody 
else. So it needs to be thought through very, very carefully 
and at a depth level that I have not heard yet, but I think the 
coordinated function has to happen yesterday.
    Thank you.
    Mr. Shays. Thank you very much. Let me just tell the panel, 
they have been very patient, that we have four more people. We 
have Mr. Platts, we have Mr. Davis, Mrs. Morella, and then 
myself, and I am just going to ask you some general questions. 
Hopefully, you will be able to stay for all the four who 
remain. And then I will tell you that we have a very patient 
person, the $12 million man, Senator Rudman. Worth every penny.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I am going to be very 
brief, and just say, one, thanks to you and to our panelists 
for today's testimony, and I think one of the really important 
messages that has come here at the table is the bicameral, 
bipartisan agreement that we need to act fast. We can have some 
differences on the specifics as we move forward to iron out, 
but there is an imperative nature to this need. And I very much 
appreciate the efforts not just today but over the past months 
and years, really, that you all have been working on this, and 
certainly your leadership, Mr. Chairman, on this issue.
    Thank you.
    Mr. Shays. Thank you.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you, very much, Mr. Chairman, 
and I too want to commend you for your leadership on the issue, 
and I also want to thank the panel for their generosity in 
terms of the time that they have been able to spend.
    I was very interested in the question raised by Mr. Lewis 
when we talked about the lack of coordination or the amount of 
coordination and information sharing, and how do we really 
cause that to happen. I was appreciative of the answers that 
were given relative to greater use of technology, how we really 
bring that together, and also the development of a procurement 
strategy that is laced into the issue.
    I guess the question that I would further pursue would be 
how much legislative direction are we going to be willing to 
give a new agency. Those are human elements. Those are 
management tools and systems and things that are used. But I 
also think that there has to be a rather clear legislative 
intent or legislative direction that is given.
    The other thought that I had, and it seemed like my friend 
and I from Idaho were thinking somewhat alike in terms of 
trying to figure out with all that we are talking about, how 
much training or how would we come up with a way to seriously 
involve the citizenry in, first of all, the development of a 
mindset relative to prevention, relative to detection, and then 
emergency response. I mean, how do we respond as a citizenry 
should there be another disaster?
    And so I would just like to hear some comments relative to 
that. And, again, Mr. Chairman, I appreciate your leadership on 
this issue.
    Ms. Harman. Mr. Davis, let me just speak to information 
sharing first. I am not sure you were here when I mentioned 
bill H.R. 4598, which is supported, I think unanimously by the 
House Intelligence Committee, and a number of our colleagues, 
obviously on a bipartisan basis that would mandate information 
sharing about terrorist threats across the Federal Government, 
and then vertically between the Federal Government and local 
responders. And the reason we think this legislation is 
critical now is that it does cover the CIA and FBI and all the 
functions that could go into this new Department of Homeland 
Security. The CIA and FBI won't go there.
    So this is a bill broader than just information sharing 
between this agency and local responders. And the notion is 
that within 6 months, we would develop a system through 
existing channels to share critical information, its 
classification. That way it can go to the broad population of 
first responders, many of whom don't have security clearances. 
That is on your first point.
    The second point about informed citizenry, Ellen Tauscher 
and I are from California, the land of earthquakes, and I think 
it is probably true that 98 percent of Californians know what 
to do in the event of an earthquake. And I think that is the 
kind of place we have to get to with this. I am old enough to 
remember the civil defense drills of the 1950's. Our goal here 
is to provide information to empower individuals to know what 
to do. And if they know what to do, they won't panic. And if 
they don't panic, we will severely limit--this is good--the 
amount of casualties that occur in the event that we are not 
able to protect against a future terrorist attack.
    Mrs. Tauscher. The whole issue of a procurement strategy is 
an important one because there is going to be a tremendous 
amount of money expended in order to connect this agency to the 
rest of the world, especially to first responders so that they 
can act in a responsible way. I hesitate to have--I think 
mandates are a bad thing, but I think prescriptive outcomes are 
the kinds of things we want to look at in legislation, things 
that are very clear about the kinds of coordination, the kinds 
of abilities for telecommunication bandwidth to be secured, to 
basically say over and over again as often as we can and to 
have the legislation have the outcome that we want, which is 
that the people that need to get the information to act to 
archive, to advise, to alert, get it in a timely manner so that 
they are empowered to do it, that they are trained and that we 
have, at the same time, the ability to deal with privacy 
issues, secrecy issues and obviously civil liberty issues. So I 
think it is very important that we are prescriptively outcomes 
based and not mandating, go by this or go by that.
    Mr. Gibbons. One quick comment to join with my colleagues 
here, I agree with what they have said. In 1947, we had one of 
the previous massive reorganizations of U.S. Government. We 
have, in Congress, every year since then, struggled with the 
idea of how to appropriately fund them, how to give them 
direction that we constantly deal with on a year-in/year-out 
basis. I don't believe, as we go down this road, any of us are 
under the misconception that we are going to solve the problems 
beginning with this. We are going to have to work with this 
time and time again, as you well know, from your many years 
here. We constantly try to iron out the wrinkles, and each time 
we do we create a wrinkle in some other part of the fabric, but 
we are going to continually work on this because we believe 
this is in the best interest of the American citizens that we 
go forward with this issue.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and the only thing I would like to say about, the only thing 
that I don't find desirable about California is its 
earthquakes. So we will be looking to you for leadership.
    Mr. Shays. Thank you Mr. Davis.
    Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman, and I thank you for 
holding this joint subcommittee. It is very important and I 
thank my colleagues for being here and being patient in 
presenting not only the legislation, but responding to the 
questions. My question is that I know that the administration 
is asking for significant flexibility in the hiring process, 
also looking for flexibility in compensation, systems and 
practices. Given the battle that has been waged over 
Federalizing those airport screeners, where do you all stand on 
sidestepping Federal worker union pay scales and grievance 
procedures?
    Mr. Thornberry. Mrs. Morella, I think our intention is not 
to take on other battles in this legislation. Now what, as I 
mentioned awhile ago, our goal is to take existing agencies and 
realign them in ways that make more sense so that they can be 
coordinated and so that they can have the proper focus and so 
they can have the prior--proper set of priorities. Now there 
are some issues in the administration's proposal that we have 
not seen the language yet. I don't know exactly what they mean, 
so there is no way for us to comment on what they have in mind. 
And we will have to go through those. But again, I don't think 
this is the place generally to change substantive law about 
immigration or other things. This is the place to try to 
improve the organization of the government so we can make the 
country safer.
    Ms. Harman. I agree with those comments. I would just add 
that at least this Member does not want to interfere with 
longstanding principles like collective bargaining. I think 
there will be a way, if we are all flexible and focused on the 
goal of preventing the next wave of attacks, to work this out 
and preserve the protections that we have in Federal law. This 
is not the place to fight that fight. I don't happen to think 
it should be fought, but any rate, this is the place to 
integrate various functions of government that, at the moment, 
aren't integrated, and because they are not integrated, cannot 
connect the dots or build the blueprints to protect us against 
the next wave of attacks.
    Mr. Gibbons. Mrs. Morella, I would agree. I think this 
fight is completely outside of the realm of the personnel 
issues that Congress has already spoken about in its past 
legislation. I think if Congress wishes to test or to change 
those, then it would be a separate subject by way--not 
necessarily this committee, but someone in Congress will bring 
up and we will have to deal with those issues then. We are 
simply here trying to, as Ms. Harman said, streamline and make 
more efficient our intelligence capabilities and agency 
efficiencies within our government.
    Mrs. Tauscher. Ms. Morella, with my colleagues, I am 
certainly not for abrogating or rolling back any of the civil 
employee rights for either collective bargaining or anything 
under the rubric of flexibility. I think that we need to be 
very flexible and we need to be very steadfast. But as a member 
of the Transportation Committee, I can tell you that we have 
lots of legislation that is being held up right now from floor 
votes because of Davis Bacon, and we need to have to State 
revolving funds for water recycling and a bunch of other things 
that have got up bottled up because of an issue that would pass 
a floor vote, but certain parts of leadership won't allow to 
come to the floor.
    And I think my colleagues and I are very firmly--and hope 
with everyone else that we don't want ancillary issues that are 
going to delay our ability to do what is right for the American 
people that are basically inside stories here in Washington 
that are very partisan, frankly. We don't want them to come up, 
we want them to be put to the side so that we can do the right 
thing we are hoping that we will get everyone's support on 
that.
    Mrs. Morella. I appreciate your responses. I want to bring 
that up because I think it is critically important for the 
people who are there and on whom we are going to be depending 
to make sure we do not abrogate any of the privileges and 
rights they have. And since, Ms. Tauscher, you mentioned 
transportation, there is a case in point, you got the TSA. I 
mean, you are supposed to, by November, Federalize the 
screeners and you know, airport passengers. How is that going 
to work out being melded into this new homeland security? It is 
a problem I don't know whether you have any answers, but I pose 
this as something we need to look at.
    Mrs. Tauscher. I think there is a lesson from the creation 
of the TSA, which was done, I think, without a lot of broadband 
consultation that was held up on an issue very similar to what 
we are talking about here that caused a lot of things to happen 
that potentially are terrible unintended consequences. We have 
got tremendous problems in California to be able to hire 
screeners, because many of our screeners are not American 
citizens, but are certainly here legally. So we have a lot of 
issues about TSA that I think are lessons to be learned.
    I don't want a repeat of that, but I don't think we should 
spend any time at all shrinking back from that experience. I 
think we have to learn from it, but I think the lesson in that 
is that the best work that we do here is bipartisan and 
bicameral. And that is why I think it is very, very important 
that we keep the openness that we have been able to achieve so 
far and not get ourselves into little rooms where people are 
not talking with each other and where these unintended 
consequences grow very quickly.
    Mr. Thornberry. Mrs. Morella, one quick point. If you see 
the chart in the President's material, Transportation Security 
Administration comes en bloc, all of the people, the rules and 
regulations that we have already adopted come as a block. Coast 
Guard comes en bloc. Now there is a new Cabinet Secretary at 
the top, but we don't dismantle either of them and reassemble 
them in some ways. They come as they are en bloc inside a new 
Cabinet department. So I think a lot of these understandable 
concerns about substantive changes inside the agencies are not 
what any of us, including the President, had in mind.
    Mrs. Morella. Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentlelady. As I have listened to the 
incredibly thoughtful questions of this committee and of these 
committees, I noted the enthusiasm that the Members have, and 
also their caution, and I think both are appropriate. I think 
that we have heard about no traps, no hidden agendas for this 
legislation. And I was struck by the fact as I was looking 
particularly at my four colleagues, who are before us right 
now, how grateful I would be as President--if I were President, 
to be able to know that you all are leading the charge with 
him, Republican and Democrat, very thoughtful Members.
    I particularly like your comment, Mr. Gibbons, of reaching 
in and trying to put a puzzle together and everybody going into 
separate rooms. I mean we have a list of the majority of those 
departments and agencies just listed on those two tables, and 
if we were to deal with that issue we would have to bring them 
all in.
    And I look at the proposal that has been outlined by the 
President's folks, not in statutory language, and think that is 
probably good that didn't happen. It is probably good we had 
this hearing and we can talk more generally and not about the 
specific detail that will follow to help guide you all as you 
help the President draft this legislation, to stay away from 
some of those traps. And I just have to say to you, I find the 
President's proposal that built on the $12 million man's 
proposal and your proposal, I find it is elegant, frankly, in 
its simplicity and its ability to bring it all together, to 
bring all of it under one, in some cases, under direct control 
and in some cases as an active customer demanding that the 
intelligence come not just from the CIA, but from DEA.
    Even the local police departments will be able to feed into 
that blue column. So I am just very grateful you all are here 
and would only ask is there any question that you think should 
have been asked that you want to ask yourself that you want to 
put on the record? If not, I will also say you started a new 
first. We had no statements on the part of the committee and my 
colleague, Dr. Weldon, said let us not read our statements 
before Mr. Rudman. Let us forego the statements before Mr. 
Rudman. I want you to know I had a great statement. And I am 
not going to read it, but I am going to read one paragraph and 
a half, and it was in another age in the face of another mortal 
challenge to our serenity and sovereignty President, Abraham 
Lincoln, advised Congress and this is what he said the dogmas 
of the quiet past are inadequate to the stormy present.
    The occasion is piled high with difficulty, and we must 
rise with the occasion as our cases new so we must think anew 
and act anew. We must disenthrall ourselves and then we shall 
save our country. That is what Abraham Lincoln said. So I would 
say at this moment in history saving our country requires bold 
action to reshape and refocus the instruments of Government's 
most fundamental responsibility defense of life and liberty.
    Last week the President proposed that bold action, in my 
opinion, because of the work that you all have done. Thank you 
all very much. While we are waiting to set up, I would ask 
unanimous consent--household issue--I ask unanimous consent 
that all members of the subcommittee be permitted to place an 
opening statement in the record, and that record remain open 
for 3 days for that purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered. Jason can we move those mics a 
little further away--the other ones. Why don't you put them on 
the floor, Jason.
    Mr. Rudman, I had this particular amount of admiration and 
glee. Never have we kept a Senator waiting so long, but I would 
like the record to state that we gave you the opportunity to be 
in the back room or come later, and to your credit, you said 
you wanted to listen to the comments of our colleagues, and 
that makes your testimony frankly more valuable having you hear 
the questions of the committee already and have heard their 
statements.
    You, I think, rightfully deserve to be by yourself. You 
have been working with others admittedly, but you have been at 
the forefront of trying to get this country to wake up to the 
terrorist threat. And you had proposed bold programs and we are 
coming to see the wisdom of those proposals. So welcome, and we 
now are prepared to hear your statement

  STATEMENT OF WARREN RUDMAN, CO-CHAIRMAN, U.S. COMMISSION ON 
                NATIONAL SECURITY, 21ST CENTURY

    Mr. Rudman. Mr. Chairman, Chairman Weldon, members of the 
committee, thank you for inviting me. I am delighted that the 
day has come that you are having a hearing on the consolidation 
that we recommended several years ago. Just a brief historical 
note for those who may not be familiar with our work, this 
Congress, mainly the House of Representatives in 1997 at the 
urging of President Clinton and former Speaker Gingrich, 
decided that national security for the 21 century ought to be 
looked at in every aspect, the Pentagon, the State Department, 
education, science, and, of course, terrorism. At the end of 
that 3\1/2\-year period, to the surprise of everyone on that 
panel, our risk assessment, our threat assessment concluded 
that the single greatest threat to this country was what 
happened on September 11th.
    And I have asked the staff to place on your places a copy 
of this chart, which is page 17 of our final report, which 
bears a striking similarity to what has been produced by the 
President. The reason we did this is because our risk 
assessment told us that we were not organized to meet the 
threats. And what we did in many ways that are a striking 
similarity to what President Truman and George Catlett Marshall 
did in 1947 and 1948--there are few people around to remember 
what happened back then--but what happened was that there was 
an Army and there was a Navy and there was an OSS. There was no 
joint chiefs of staff. The Air Force is part of the Army and 
the State Department was organized totally different than it is 
today.
    Out of that study came the joint chiefs of staff Department 
of Defense. What is being recommended here is similar to that. 
What the President has said is let us take all of these 
functions, which have a similar goal protecting the homeland, 
protecting the borders, protecting, responding, preserving, put 
them in an agency that has one director. Let them keep their 
identities, let them do what they have always done, but maybe 
do it better, do it with more coordination, more direction.
    For the benefit of those who are not familiar with our 
work, in that 3\1/2\ years, we spent enormous amounts of time 
with some of the world's leading authorities on all of these 
issues. We had extensive briefings from all of our people in 
the government as well as foreign governments. We met with 
allies and adversaries. We had testimony from CIA, DIA, FBI, 
the academics who work in these fields for years. So I would 
say to Ms. Watson that I think the threat assessment you will 
find in volume 1 and 2, which was part of our charge from the 
Congress, tells you the prioritization of what we think the 
threats are. For instance, we say clearly the threat this 
country faces today is totally asymmetric. It has nothing to do 
with the huge Army, Navy Marine Corps Air Force that we have. 
It has a lot to do with transnational threats from both State 
sponsored terrorism and nonState sponsored terrorism and we are 
not quite sure what September 11th was yet but right now we 
think it is al-Qaeda but who knows whether in the future 
intelligence could uncover there were State connections. We 
don't know that. Now let me simply say I have heard a lot of 
questions about intelligence here. And as I know that you know, 
Mr. Chairman, I served on Senate intelligence and chaired the 
PFIAB or vice-chaired it for the last 9 years. This isn't going 
to solve your intelligence problems. That is separate. I hope 
that these committees now hearing this that Congresswoman 
Harman spoke of that these hearings will start to address that.
    But do not expect this to address the intelligence problem. 
It goes a way, the President's proposal, to establish an 
analytic section, but--and that will help, but if there are 
major intelligence problems, this was not designed by the 
President to solve those problems. It was designed for a 
totally different reason, to take those parts of border 
security, protection and response and prevention and put them 
in one place. We commend it. We agree with it, but I would only 
add that I have yet to see a major piece of legislation that 
came to Congress from a President that wasn't improved by the 
time it got to the President's desk for signing. I am sure that 
Congress will come up with ideas to improve this and you will 
work these out with the administration. But we fully support 
this. I have talked to most members of the commission. 
Incidentally the commission was allocated $12 million, it spent 
$10 million. The members of the commission did their work pro 
bono. All of the money was spent on a first class staff of 3\1/
2\ years.
    Mr. Shays. Do we need an investigation of what happened to 
the $2 million?
    Mr. Rudman. I don't think so. I think the GAO has a total 
record, if you want to look at how the money was spent. It was 
spent wisely and I think fairly well. I don't have much else to 
say, except to say I am pleased to answer your questions. What 
the President did was to add to our recommendation of 18 months 
ago three key elements: Transportation security agency which 
didn't exist at the time that this was written; the INS, which 
we thought of putting in here but didn't, and maybe that is the 
right thing to do; and an analytical section for intelligence 
and the Secret Service, and I believe the labs, which I don't 
fully understand yet, but I am sure there is a reason.
    Let me answer in advance one question that was asked of the 
panel. In our recommendation when we said the Customs Service, 
we specified it was the law enforcement part of Customs 
Service. We did not think that the revenue raising part of the 
Customs Service need be transferred. So I think the Congress 
working with the administration can probably work out some 
carveouts of certain parts of agencies that might want to stay 
where they are. But when you look at the history, can you look 
at the Coast Guard being in transportation, and you look at 
border security being in justice, and you look at Secret 
Service being at the Treasury and law enforcement Customs being 
in the Treasury, you say well these were done for reasons, 30, 
40, 50, 75 years ago.
    Today they need to be changed. The function has to be 
followed by the organization, or visa versa, if you wish. That 
is what the President has proposed. We support it. And we hope 
the Congress will work its will and produce a first class piece 
of legislation that will give this country protection.
    A final word, I think, to Chairman Weldon and to my dear 
friend, Joe Lieberman. I wish I shared your optimism about the 
future. I think that with new organization, with improved 
intelligence, we can probably prevent a great many terrorist 
acts from taking place in this country, but I do not believe 
that it would be logical to think that we can prevent them all. 
The Israelis have tried mightily with their incredible 
intelligence and they have been unable to. The British, during 
the Northern Ireland situation, tried with their intelligence 
and couldn't. There is something uniquely horrible about 
terrorism compared to conventional warfare in that it is so 
hard to determine what is in the minds of people.
    I am fond of saying that in baseball, if you bat 500 you 
are in the Hall of Fame. In intelligence, if you bat 750 you 
are loser and we are going to lose some of these battles. I 
wish I felt otherwise, but I will tell you, Chairman Weldon, I 
have seen far too much information over the last 9 years to say 
that we can prevent it all, but we can go a long way in 
preventing a great deal of it. Our goal ought to be 100 
percent. That is where our goal ought to be. But I think to 
anticipate we can do that and we fail greatly if we don't is to 
raise expectations probably more than we probably should. I 
will take your questions.
    Mr. Shays. Thank you for that very heartfelt and thorough 
statement. I appreciate it.
    Dr. Weldon you are starting and then we will go to you, Ms. 
Schakowsky.
    Mr. Weldon. Thank you, Senator. I certainly agree with you 
that our goal should be to prevent all acts of terrorism 
against our homeland, and nothing short of that should be our 
goal. My comments related to Senator Lieberman's comments 
really were a reflection of what I think is an attitude on the 
part of some people that it is inevitable, and I think if we do 
everything we possibly can, that is our obligation, our 
responsibility, and we need to pursue that and we need to make 
our goal not a single additional attack will occur.
    Mr. Rudman. I agree.
    Mr. Weldon. Can we sit here and say even if we enact the 
President's request and put all the resources, financial 
resources and logistical resources behind the agency, that we 
will succeed? Nobody knows. Only the good Lord knows that. I 
would like your comment on the question I asked the first panel 
about reorganizing the Congress to respond to the challenge, 
and I see that as really two issues, the permanent committee 
concept where we would have, in the House and the Senate, a 
committee on homeland security to oversee this new cabinet 
agency, which I think is something perhaps we do not need to 
act on immediately, but it is something we very seriously need 
to consider.
    But my other overriding concern is there are some 66 
committees in the House and Senate that have a jurisdictional 
piece of this issue, and if we are going to get this done 
before we adjourn for the fall campaign, I just don't know how 
we can move something this big through all those respective 
committees. And I personally would favor some sort of effort to 
streamline the committee referral process so that it will make 
it more possible for us to get it enacted into law.
    Mr. Rudman. We gave a great deal of thought to that, and 
let me tell you what we said. Recommendation No. 48 of 50, 
Congress should rationalize its current committee structure so 
it best serves U.S. National security objectives. Specifically, 
it should merge the current authorized committees and the 
relevant appropriation committees.
    Now that is quite a statement coming from an ex-
appropriator, but that is what we believe. We went on in the 
body of this text to do exactly what you are speaking of. I am 
not sure you can get through the creation without multi 
committee structure. I mean, there is just too much history 
there, too many people that have great interests in these 
agencies. But I do believe once it is done, you cannot have a 
secretary who is going to come up here and talk to 30 40, 50 
subcommittees.
    I mean, if that is the case, you better have a wonderful 
deputy secretary, because he will really be running the agency. 
I think you ought to have a select committee like Intelligence. 
You have an Armed Services Committee. This is a Homeland 
Defense Committee, and we do recommend in here that the Members 
ought to be picked from those committees that have experience 
with the issues such as intelligence, Armed Forces, you call it 
something else here, foreign relations, appropriations and a 
representative committee that every committee would feel was 
represented on the select committee. I mean, that is what we 
recommend.
    Mr. Weldon. I am running out of time. I did have a followup 
question about the FBI. Do you make any recommendations in your 
report regarding the FBI? I think it was Senator Lieberman 
might have been the one who recommended bringing FBI into this 
agency.
    Mr. Rudman. I think that would be a terrible mistake. We 
did not spend a great deal of time on that in this report. I 
will tell you why. I have had a lot of experience with the FBI 
before I came here when I was Attorney General in my State and 
in my role in the other body where I had jurisdiction over the 
FBI, they are mainly a law enforcement agency. No matter what 
anyone wants to say publicly, they will be a law enforcement 
agency. 90 percent of their work will be law enforcement. Let 
us kind of take the terrorism section of it and take a hard 
look at it and decide if that is where it belongs. It may or 
may not.
    Mr. Weldon. What about domestic intelligence? We 
traditionally--you know, the CIA did intelligence work off our 
shores and for privacy concerns, we really haven't had a 
domestic intelligence agency and the FBI in light of these 
terrorist attacks is assuming some of that responsibility. It 
would seem to me that this new Director of Homeland Security is 
not only going to need the input from the CIA but he or she is 
going to need first class input from somebody who is monitoring 
all of these potential terrorist groups within the United 
States.
    Mr. Rudman. If I might take a couple of minutes to answer. 
It is a very profound question. The history is very 
interesting. In 1947 and 8, when the OSS was converted into 
CIA, J. Edgar Hoover did not want any other agency of the U.S. 
Government to have investigative and law enforcement authority, 
and he was joined by the civil libertarians, which is a rather 
interesting combination. J. Edgar Hoover and civil libertarians 
all agreed they didn't want an internal ministry, if you will. 
The counterespionage efforts that FBI was discharged with great 
distinction during World War II became counterespionage from 
1948 until very recently.
    A few years ago, they started getting into the 
counterterrorism business, and as you well know, there is a 
joint center of the FBI and CIA and others that is a 
counterterrorism center. If you really want to look, you know--
think out of the box, and I have talked about this with a 
number of people in both of those agencies--you may want to--
not this year I don't think, you ought to look at the British 
example, MI6 and MI5, the Israeli example in which they have 
Mossad and Shenbeck, one foreign one domestic.
    The question is do we want a first class domestic security 
agency that deals in counterintelligence and counterterrorism. 
Some will say yes, some will say no. But that is a huge issue 
and it is much bigger than we can solve today, but there are 
ways to do it. Scotland Yard, for instance, doesn't have the 
responsibilities in counterespionage and counterterrorism. They 
have law enforcement responsibilities. The FBI has both. And 
you are going to have to decide how you deal with that. This 
bill will not address that in any major way.
    Mr. Shays. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Senator unlike you, I missed a 
good deal of the questioning. A number of us were meeting with 
Prime Minister Sharon about security, among other things, so if 
I am redundant in questions that were asked earlier, I hope you 
will forgive me. And I appreciate all of the wonderful work--I 
went to one of your briefings earlier and I appreciate the work 
you have done for us.
    Yesterday's Washington Post had an article called 
``Unintended Task Face New Security Agency.'' And let me just 
read the beginning, to hear President Bush tell it, the new 
Department of Homeland Security will improve Government's, 
``focus and effectiveness'' but the confusion attending many 
aspects of his proposal suggest that government may be headed 
for a prolonged period of bureaucratic chaos before things are 
sorted out.
    Late last week Agriculture Secretary Ann Veneman wondered 
whether she could define the parameters of legislation so that 
Congress would not transfer all of the animal plant 
inspection--you get the drift. And it seems similar to what you 
said about the FBI just now that 90 percent is law enforcement 
and 10 percent other that might apply here.
    In addition to wondering whether or not we aren't just in 
store for all of these bureaucratic issues, I am wondering if 
this is, in fact, the time to do that, given the urgency of 
addressing our intelligence requirements and if our focus then 
has shifted then from perhaps where the most critical problems 
really are right now to things that are going to distract us 
from our capacity to connect the dots.
    So I want to address both the bureaucratic--the issues of 
bureaucracy in shifting it, but also the shift of focus.
    Mr. Rudman. You mean creating this new agency is shifting 
the focus from other things, is that your question?
    Ms. Schakowsky. What seems to have emerged over the last 
couple of weeks is that this has been an intelligence failure, 
and when we talk about connecting the dots that really all the 
elements were really there that potentially could have 
prevented September 11th had the dots been connected. And so I 
am wondering if our first priority ought to be addressing those 
clear failures and then addressing what may be longer term 
problems.
    Mr. Rudman. I think you can do both. That is the magic of 
the Congress, you divide it into committee structure which can 
deal with multiple problems at the same time and always has. 
This is a unique problem. This problem deals with border 
security and it deals with those people who are securing our 
borders and responding to acts of terrorism in attempting to 
prevent other than the intelligence piece. This is why we 
recommended 2\1/2\ years ago that we go to this kind of an 
organization. Obviously, it has a few more pieces to it, but it 
is essentially the same directorates of prevention, protection 
and security.
    You know, the intelligence committees may well decide after 
they finish their hearings later this fall that they need more 
hearings, that they want to reorganize the intelligence 
community. They might want to do it and change it. Let me just 
add one more thing. I don't necessarily accept the conventional 
wisdom that what happened was totally an intelligence failure, 
but that is probably because I had access to information over 
the years that is rather unique. There are some errors. I am 
not sure I would call it a massive intelligence failure as some 
have been wanting to call it.
    The problem we have and anyone you talk to in the 
intelligence communities will tell you is not that we don't 
have enough information, the problem is we have too much 
information. The question is how do we analyze this data and 
how do we do it. We have millions of items of intelligence 
coming electronically and from field reports and from many 
agencies. How do we deal with all that? How do we make sure 
that back in 2000, the director of the CIA or his deputy knew 
about that meeting in Kuala Lumpur? Probably unlikely that we 
would ever get up to that level. Why didn't it get to the FBI 
at the right level? Those questions have to be answered. But I 
must say there are a lot more success between the FBI and CIA 
than you ever hear about. They do great work together; most 
recently we read about what happened yesterday. So I am not 
sure massive intelligence failure is necessarily the right 
answer, although many feel that way.
    Ms. Schakowsky. Thank you.
    Mr. Weldon [presiding]. The Chair now recognizes the 
gentleman from Florida, Mr. Putnam.
    Mr. Putnam. I thank the distinguished Senator. Senator, 
when your report said that America will become increasingly 
vulnerable to hostile attack on our homeland and our own 
military superiority will not protect us when the commission 
you participated in said that Americans will likely die on 
American soil, likely in large numbers, and Americans are not 
as safe as they perceive themselves to be, you were called an 
alarmist, cynical, a lone voice in the wilderness, former 
elected officials taking advantage of the freedom of being away 
from office to propose radical changes that had they been in 
office would know that was not possible and my how the worm has 
turned.
    We have an obligation to do our own consequence management 
within the institution of Congress to deal with this issue and 
within the executive branch to craft this new response 
mechanism. In addition to recommending the creation of an 
Office of Homeland Security as the Hart-Rudman Commission did, 
you also focused on the financial aspects on the war on terror, 
something that President Bush has done. Do you believe that the 
administration's proposal adequately transfers and focuses the 
financial aspects of homeland security with the inclusion of 
Secret Service, or do you believe that it should go further?
    Mr. Rudman. No. I think they will have the use of the 
Secret Service, but I believe the work will still be done by 
FBI and other people at Treasury. I think they have done an 
excellent job. I have talked to Secretary O'Neill. I know what 
they are doing and much of it is classified. I think it is a 
very important step and the administration ought to be 
commended for recognizing if you cutoff the money, it would be 
difficult for some of this to take place. I think they are 
doing very well in that area and they should continue to do 
well.
    Mr. Putnam. Has the Treasury Secretary been made a 
permanent part of the National Security Council as has been 
recommended?
    Mr. Rudman. I don't know. I hope that the homeland security 
director will be a member of the National Security Council. I 
hope the legislation contains that, because that person should 
be, he or she whoever that director will be, the new cabinet 
secretary ought to have the same seat of the NSC as the 
Secretary of Defense, because they are doing identical things 
in different places.
    Mr. Putnam. To followup on Ms. Schakowsky's point, there is 
some concern about the level of priority that will be given to 
the non-homeland security functions that will necessarily 
transfer with these agencies. The Coast Guard will still be 
expected to attend buoys, to conduct search and rescue 
missions, to assist mariners in stress--in distress, AFIS 
function from USDA will still have certain responsibilities 
that aren't necessarily critical to the national security, but 
are important current functions. You believe that they can do 
both?
    Mr. Rudman. I do, as long as you don't change the statutes 
that give them their authority and responsibility. I am sure to 
take the Coast Guard for example, they will keep their 
organization just exactly as it is and expand it in the area of 
port security. Their major role will be port security and 
security of ships entering this country, who could be carrying 
weapons of mass destruction. One of the things we haven't 
talked a lot about this morning and no need to, but one of the 
principal parts of that report that you read from, Mr. Putnam, 
in fact, I think it is the paragraph at the very end or the 
very beginning of what you read is our concern is not only for 
what happened on September 11th, we have deep concerns of our 
weapons of mass destruction. And one of the figures in there, 
of course, deals with cargo containers, 50,000 a day coming 
into this country, less than 1 percent being inspected. A 
natural place for a weapon of mass destruction to be smuggled 
into the country.
    Coast Guard has a major responsibility in that area and 
they are a great organization and they discharge it as well. 
What they need is to have total coordination by one person who 
runs that security apparatus and we are going to that have if 
this legislation passes and that is why we fully support it.
    Mr. Putnam. If this legislation passes and we have a 
streamlined agency and we have perfect coordination and perfect 
communication and we improve our rate of inspection from 1 
percent--let us say we quintuplet which would be a massive 
improvement in the government, we will still only be inspecting 
5 to 6 percent of what is coming into this country. What are we 
leaving out in terms of research and development to devise 
techniques that allow us to improve our inspection?
    Mr. Rudman. I think it will give you some comfort to know 
that is going on right now. There is a lot going on right now, 
and the idea of electronically scanning a lot of this equipment 
as it comes off ships. In addition to that, there have been 
suggestions made by people who work on our staff that there can 
be more overseas inspection done of cargo before it is sealed. 
There are a lot of things going on to try to make us safe. As I 
said, not perfect, but the goal ought to be perfection.
    Mr. Putnam. I appreciate the chairman's indulgence, and 
your last point is important. We need to catch them before they 
get into our ports. Because if it is a weapon of mass 
destruction, it is too late.
    Mr. Rudman. There is substantial research going on and 
action going on, and I don't want to talk about that, but I 
think a lot of people have taken a lot of these recommendations 
to heart. You know, there 250,000 copies of these printed. We 
had 249,500 copies left on September 10. On September 12, we 
had no copies left. If anybody is interested in--at the three 
reports, they can look at the Web site maintained for us by the 
Pentagon, which is www.nssg.gov, National Security Study Group. 
There are a lot of Americans calling in to find out and read 
this report.
    Mr. Weldon. The Chair now recognizes the gentlelady from 
the District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman. Senator, I am not 
going to ask you questions about the nuts and bolts. It took 
September 11th for the nuts and bolts that you had out there 
and the book you just referred to to finally get the attention 
of the country and of the Congress. I am going to try to take 
advantage of your vast experience in intelligence which 
combines with your understanding of what to do about it. There 
has been--we continue to have this guesswork about what is 
inevitable and what is not inevitable. One of the notions that 
would inform me on the notions of inevitability, and I know you 
belong to the inevitability school--but one of the--one of the 
pieces of information that would help me understand what could 
happen if you would, would be to clear up a question I have had 
for many years, all my years in Congress, even before I came to 
Congress and perhaps because my district is this district. I 
watched terrorism occur against the United States and our 
allies all across the globe, in Africa, in the Middle East and 
in Europe.
    And I said to myself all during those years, I remember 
saying to myself in the 1980's before I came to Congress, in 
the 1990's since I have been in Congress, wow, why isn't it 
happening here? My own guess having no access to any 
information was to--and I ultimately complimented the 
intelligence of the United States. I said to myself, I know 
that we are not taking any precautions here. The only thing 
that must be saving us is we must have wonderful intelligence 
that are keeping these people from getting on planes and keep 
these people from getting into our country. God bless them.
    I don't know what they are doing but that was my only 
hypothesis. Now I must ask you what took it so long to get 
here? Was it that they were insufficiently organized? Was it 
simply fortuitous? Was it accidental? Were we really good 
enough to keep it from coming here until it got here? I have 
absolutely no understanding, particularly given what we know 
now you can walk across the border and do what you have to do 
and we were totally unprepared. I cannot understand why we were 
protected, if I may use that word very loosely, until September 
11th and would appreciate any motions in your own experience 
that you might offer.
    Mr. Rudman. Well, I can give you an opinion and we did look 
at that issue and talked about it some in I think volume 2 of 
this report. The brief answer is that for many years, the U.S. 
intelligence services, including the Agency and the FBI, were 
able to thwart a number of fairly low level threats against 
this country, and one you will recall was a millennium effort 
to sneak across the border an Islamic fundamentalist, I 
believe, and his mission was to blow up the L.A. Airport and 
that was thwarted. And there are many others. I can't talk 
about them publicly, but they happened. They have been thwarted 
in unique ways to the extent that the people never even got 
close to this country.
    What has happened is that there has been a movement in the 
world, mainly amongst, you know, very far, you know out Islamic 
fundamentalists who do not at all represent what the beliefs of 
that religion are who have distorted them totally, who have 
taken great umbrage at several things. No. 1 they are totally 
opposed to U.S. foreign policy and equally, they are opposed to 
our culture which comes into their countries in various ways 
with our servicemen and women, with our television, literature 
and so forth, and they are very offended by that.
    And third, they have started to acquire the capacity to 
commit the kind of acts that you saw. That whole rise of that 
type of fundamentalist action based on what we looked at and 
what I know started to arise in the late 1980's and built 
during the 1990's. Afghanistan was a haven for Osama bin Laden. 
He was able to, at will, run a terrorist training organization 
there. Other terrorist training organizations known to us were 
in other places in the world. Over a 6, 8, 10-year period, they 
trained for a mission of terror, and obviously what we saw on 
September 11th was the pinnacle of what they wanted.
    But I point out to you that many people in this government 
talking about what happened first to American servicemen in 
Germany when they were bombed in their discotheque and killed. 
They were targeted. Thereafter we let Ambassadors in Islamabad 
and in Lebanon. And then we have the two American embassies in 
Africa blow up then we have the COLE and there were a lot of 
voices who were saying it is moving this way, and people 
weren't listening. And my final response would be that and you 
may agree or disagree, you know we are a wonderful Nation and 
have a lot of great qualities and we all pull together.
    This hearing today is remarkable, bipartisan hearing, both 
Senate and House involved, you will get it done and what you 
get done will be good, I have not doubt. But the fact is we 
kind of don't want to believe the worst. Maybe that is part of 
the American psyche. We like to believe the best. We don't want 
to worry a great deal. We don't want to think about what is 
going to happen to us or our children and it takes a horrible 
event to galvanize this country into action. And there are many 
points in our history, December 7, 1941, being one when the 
country totally flipped from being isolationist to saying this 
will not go unchallenged. So I think it is an a combination of 
all those things.
    Mr. Weldon. The Chair now recognizes Mr. Otter for 5 
minutes.
    Mr. Otter. Thank you Senator for being here. Although I 
didn't get to hear your opening statement in its entirety, I 
did get a chance to watch most of it in the back room. You 
heard the exchange earlier on as I saw you sitting in the 
audience with panel one between my colleagues Kucinich and 
Putnam relative to has there been a threat assessment. Has 
there been a threat assessment, in your estimation?
    Mr. Rudman. There has been. As a matter of fact, that is 
what this Congress has to do. I think volumes 1 and 2 are the 
threat assessment, and based on the threat assessment, this is 
the road map for national security reorganizing the entire 
government in this area. Everybody is talking about the 
homeland security. There are only six of the 50 recommendations 
in this report are aimed at that point. So I think we have done 
that.
    Mr. Otter. I would agree with you. And my preliminary 
review of all of the engagement that you had relative to the 
issues that you worked on, plus I might add the sterling 
committee that worked on this with you cochaired and worked on, 
it is obvious to me that there was one agenda and that agenda 
was national security.
    Mr. Rudman. Absolutely.
    Mr. Otter. The other question I guess I have, do you think 
that this legislation satisfies the ongoing threat to this 
Nation, not from terrorism, but there is a reason we have 
counterfeiting as part of one of the Agency's responsibility. 
There is a reason that we have AFIS, as my colleague from 
Florida mentioned. There is a reason we have licensing and 
navigational procedures from the Coast Guard and it goes on and 
on. Do you think that under the present design that is being 
offered, that we can continue with those equally important 
missions of these agencies, and at the same time, increase that 
mission to include total national security?
    Senator Rudman. Well, I do; and I will tell you why. Coast 
Guard is a great example, and then I will come back to one of 
our recommendations.
    The Coast Guard is obviously going to have its role 
expanded mightily, because seaborne security is an important 
component. If you don't do that, you are ignoring something 
very important. The port security, the people coming in from 
foreign countries, inspecting these ships, making sure they are 
not carrying what they ought not to carry, they can do that. 
They are very much a law enforcement organization as well as a 
boat safety organization and a maritime safety organization. 
But I believe that their antiterrorism role is going to expand.
    The fact is, the Coast Guard will still be commanded by a 
commandant. They will be doing the same things they have been 
doing. They will probably have more money than they have had, 
because they certainly need it, but they will have a Cabinet 
secretary that is particularly concerned with the homeland 
security part of their issue and will work on that with them. 
So I think the answer is yes.
    Now, Customs, we split it in our report, if you read it 
recently. We said that the Treasury ought to keep the revenue 
collection part of Customs, which isn't very much any more, 
compared to what it was back in the old days when they were 
called revenue agents, but today it is very different. They are 
mainly law enforcement in so many of their functions. So we did 
say separate. No reason you can't, in certain instances, but 
there has to be clear divisional responsibilities to do it. You 
couldn't do that with Coast Guard. Today, that cutter is doing 
buoy work, tomorrow it's out intercepting a tanker to see if it 
really contains fuel.
    Mr. Otter. I am sure you have watched, with some--
enthusiasm, perhaps, is a poor choice of words, but I am sure 
it applies here, when the Patriot Act was passed----
    Senator Rudman. I did.
    Mr. Otter [continuing]. And all that was embodied in that. 
I was one of the Members that voted against the Patriot Act 
because I saw a lot of inherent perils in the Patriot Act. It 
doesn't make any difference who is taking my freedom away from 
me, whether it is some foreign terrorist or my own government.
    We extended law enforcement's broad expansive powers to--I 
think the number was 78 Federal agencies. A lot of people 
operated under the impression that went to the CIA, the FBI, 
and the NSA. Not true. Because it stated Federal law 
enforcement agent in there, and that includes the BLM and the 
bank examiners, and it goes on ad infinitum, ad nauseam. Do you 
think this could be an opportunity, if we create it through 
this legislation, an opportunity for us to go back to that 
group of 78 Federal agencies and withdraw some of those broad 
expansions of powers?
    Senator Rudman. Yes, it wouldn't be a bad idea to look at 
it. I am not saying you ought to do it, but I will tell you 
this. I always get concerned when you expand law enforcement 
powers into agencies that haven't had them before. Many of them 
don't know how to handle it and haven't had the training to 
handle it. Now, maybe they are getting it--I must admit I am 
not current on that subject--but certainly it is a good 
opportunity to look.
    Mr. Otter. Thank you, Senator. Thank you, Mr. Chairman.
    Mr. Weldon. The Chair now recognizes the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you very much.
    Thank you, Senator, for coming again before this committee. 
You have come before to carry the light and let us know that 
this was on the way, and I wish that a Congress and two White 
Houses at least had listened. So thank you for doing all the 
work with your Commission that you have done and for continuing 
to come and testify.
    Let me ask you, will you just expand a little bit on the 
importance of having the position of the homeland security head 
be a member of the Cabinet and be approved by the Senate and 
the reasoning why the Commission went that way?
    Senator Rudman. I think as we move into the 21st century, 
in many ways terrorism against the American people, against our 
homeland will be as much an issue as will our Department of 
Defense and its issues involved with maintaining security and 
America's interests overseas.
    The threat to American citizens is very real. In fact, the 
threat to American citizens is more real than the threats that 
we have from some of the international situations we are 
involved in. The American people are very concerned about 
Bosnia, they are very concerned about al Qaeda, but they are 
not threatened personally by that. They are threatened very 
personally by events like September 11th.
    I believe that when you have someone that is going to have 
the kind of responsibility that will indicate, that person 
should, No. 1, have Cabinet rank--and in this town titles do 
count. They ought to have Cabinet rank and, No. 2, I believe 
should be on the National Security Council.
    Mr. Tierney. In the process of drawing up your plan, you 
did bifurcate. You said the Customs Department, for one. On the 
Coast Guard, do you have any concerns if the Coast Guard is 
taken in in its entirety in this new division, what will happen 
with all their responsibilities with regard to the fisheries, 
rescues, things of that nature? Are we have to create another 
entity for that one?
    Senator Rudman. Well, knowing where you come from, I would 
suggest that, to make sure that doesn't happen, that we are 
absolutely positive that all those responsibilities statutorily 
are carried with them in whatever statute creates this, that 
there be language to incorporate their responsibilities.
    Because boating safety and safety for fishermen and helping 
boats in distress and all those wonderful things they do--and I 
am personally familiar with what they do off our New England 
coast--are extraordinarily important. I cannot believe that the 
Coast Guard will ignore those. What you have to make sure of is 
that they have enough funding to make sure they can do 
everything.
    Mr. Tierney. Well, there was never a thought in mind that 
they would ignore it, because, as you know, they have been very 
good at that. My concern is that when they get put into a 
division that is concentrating solely on homeland security that 
the pressures are on them, whether they be budgetary or 
otherwise, to focus so much on that they are not given the 
resources or the leeway to do the rest of their job, which is 
so critical to different parts of this country.
    Senator Rudman. Well, I think that is an important concern. 
It think it has to be addressed both by the appropriators and 
by the authorizing committees, and it should be. I think they 
can do it and do it well.
    You would be interested that we talked to a lot of Coast 
Guard people, high-ranking Coast Guard people, and officially 
they could not say too much, but they were not happy in the 
Department they were in.
    Mr. Tierney. Thank you.
    Mr. Weldon. I thank you, Senator Rudman, for your very 
valuable testimony to the committee; and I can assure you that 
we will be working diligently on these matters in the weeks and 
months ahead.
    The committee now will stand in recess until one o'clock, 
when the third panel will be called to testify.
    Did you want to add anything before we recess?
    Senator Rudman. I only want to thank you for the 
opportunity and tell you that we had a number of people at work 
on our staff over that 3\1/2\-year period that would be 
delighted to be a resource to this committee at any time on any 
of the subjects that you have covered this morning.
    Mr. Weldon. Thank you, sir.
    The committee stands in recess until 1 o'clock.
    [Recess.]
    Mr. Shays. I would like to call this hearing to order. I 
would like to welcome our witnesses. I am going to invite you--
I know the Admiral won't take us up on this, but I am literally 
going to invite you gentlemen to take your coats off if you 
would like. And the reason for that is, frankly, you are kind 
of crunched together. So if you would like to do that, that is 
fine. If I need to take off mine to get you to do yours, I will 
do that. Or during the course of the hearing, if you want to 
take your coat off, feel free.
    I would like to welcome you. I would say to you that it is 
a big panel, and you probably have seen big panels before. It 
takes a while. You are going to dedicate your afternoon to us. 
This is a gigantic issue and you are at the very beginning of 
telling this tale that needs to be told about how the 
government reorganizes itself to be effective. In some cases it 
is going to demand that you put aside your turf concerns for 
the greater good. The White House has told us that in speaking 
to go your superiors, that is there. It is also going to 
require Congress as well to look at how we organize. So we know 
we have our responsibilities.
    So I welcome you, and I would also say to you that because 
this is a hearing on legislation, we are not swearing you in. 
We usually swear in all our witnesses because we are an 
investigative committee, but we also have legislative 
responsibility on reorganization. It is wonderful to have you 
here, and I will just call your names and we will proceed in 
the order that I call you. I will just go down the names.
    We have Admiral Thomas Collins, Commandant, U.S. Coast 
Guard, Department of Transportation--for the record, my brother 
was in the Coast Guard, one of my brothers; Mr. Bruce Baughman, 
Director of Office National Preparedness, Federal Emergency 
Management Agency; Mr. Douglas Browning, Deputy Commissioner, 
U.S. Customs, Department of the Treasury; Mr. Robert Acord, 
Administrator, Animal and Plant Health Inspection Service, 
Department of Agriculture; Mr. John Tritak--am I saying that 
name correctly?
    Mr. Tritak. That's correct.
    Mr. Shays. Mr. John Tritak, Director, Critical 
Infrastructure Assurance Office, Bureau of Industry Security, 
Department of Commerce; Mr. Larry A. Medford, Assistant 
Director, Cyber Division, Federal Bureau of Investigation; and 
Mr. Peter M. Becraft, Deputy Commissioner, Immigration and 
Naturalization Service.
    Do we have everybody?
    Thank you for being here. We have Mr. Lewis here and we 
have Mr. Putnam. Would either of you like to make a comment 
before we begin this hearing?
    OK, thank you. Why don't we start with you, Admiral?

 STATEMENTS OF ADMIRAL THOMAS COLLINS, COMMANDANT, U.S. COAST 
GUARD, DEPARTMENT OF TRANSPORTATION; BRUCE BAUGHMAN, DIRECTOR, 
 OFFICE OF NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT 
 AGENCY; DOUGLAS BROWNING, DEPUTY COMMISSIONER, U.S. CUSTOMS, 
DEPARTMENT OF THE TREASURY; ROBERT ACORD, ADMINISTRATOR, ANIMAL 
AND PLANT HEALTH INSPECTION SERVICE, DEPARTMENT OF AGRICULTURE; 
   JOHN TRITAK, DIRECTOR, CRITICAL INFRASTRUCTURE ASSURANCE 
 OFFICE, BUREAU OF INDUSTRY SECURITY, DEPARTMENT OF COMMERCE; 
 LARRY A. MEDFORD, ASSISTANT DIRECTOR, CYBER DIVISION, FEDERAL 
  BUREAU OF INVESTIGATION; AND MICHAEL BECRAFT, ACTING DEPUTY 
      COMMISSIONER, IMMIGRATION AND NATURALIZATION SERVICE

    Admiral Collins. Thank you, Mr. Chairman. It is a great 
pleasure and an honor to appear before this distinguished 
committee. I have a full week and a half under my belt on the 
job, so I am very glad to tackle such a meaty issue here right 
out of the chute.
    Clearly the events of September 11th have changed the focus 
of our Nation, and today we suffer from constant threats of 
terrorism either as a coercion-type thing or retaliation-type 
thing. It is a reality, unfortunately, that is going to be with 
us for the foreseeable future.
    Our collective experience over the last 9 months demands an 
improved awareness of the vulnerabilities and the threats with 
which we must deal; an increased capability to detect, deter, 
and to respond to terrorist activities; and greater unity of 
effort by all the participants in the homeland security effort.
    Success here will help assure you have focused policy, 
focused strategy, focused doctrine, aligned resources and 
capabilities to keep the American public safe and secure. And I 
think these objectives are very clearly underscored in the 
first two panels that appeared before you today. Under the 
leadership of President Bush, we have all leaned forward with 
increased vigilance, stiffened our resolve, and allocated 
resources to the greatest risk areas, and much has been 
accomplished. But with his announcement last Thursday to create 
a single Homeland Security Department, the President has taken 
the next logical step to ensure an effective posture of 
readiness for our Nation.
    From the Coast Guard's perspective it is a necessary change 
whose time has come. The proposed organization will bring unity 
of effort and unity of command to homeland security efforts, 
with clear lines of authority to get the job done. It will 
serve to enhance awareness of threats and vulnerabilities so 
effective preventive actions can be instituted in a timely way. 
It will minimize the impact of a terrorist act should a 
response be needed, and will help ensure alignment of personnel 
and resources to the highest priority areas.
    I should offer that the Coast Guard is a logical component 
of the proposed department. Nearly 50 percent of our current 
operating budget is directly related to the fundamental and 
core missions of the proposed department. The bulk of the 
remaining missions contribute indirectly to the overall 
national security interests of the Nation. We also have a 
unique set of competencies, capabilities and authorities that 
will add considerable value to the new department.
    We have been a leader for the Department of Defense's 
maritime security and needs of our Nation since 1790. It was 
the reason we were formed 212 years ago. We possess extensive 
regulatory and law enforcement authorities governing ships, 
boats, personnel, and associated activities at our ports, 
waterways, and offshore maritime regions.
    We are a military service, with 7-by-24 command 
communication and response capabilities. We maintain at the 
ready a network of coastal small boat stations, captain of the 
ports, air stations, and cutters to prevent and respond to 
safety and security incidents, and we have geographic presence 
throughout the country, its coasts, rivers, lakes, both in 
large ports and small ports.
    We are a formal member of the National Foreign Intelligence 
Community. We partner with other government agencies in the 
private sector to multiply the effectiveness of our services. 
These partnerships are standard operating procedures in all 
that we do. We are the recognized leader in the world regarding 
maritime safety, security, mobility, and environmental 
protection issues.
    I am in full agreement with the critical elements of the 
President's proposal. To maximize the Coast Guard's 
effectiveness in the new department, I believe it is essential 
that the following stipulation should apply: The Coast Guard 
remains intact; the Coast Guard retains its essential 
attributes as a military, multimission maritime service; and 
that the full range, the full range, of missions is actively 
supported.
    It is also important to note that the threats to the 
security of our homeland extend beyond overt terrorism: 
Encountering illegal drug smuggling and other contraband in the 
transit zones, preventing illegal migration via maritime 
routes, preserving living marine resources from foreign 
encroachment, preventing environmental damage and responding to 
spills of hazardous material, maintaining an effective maritime 
transportation system are all critical elements of national 
security and directly bear on homeland security. They are all 
Coast Guard responsibilities.
    This mission set was recognized and validated as recently 
as 1999 by the Presidential Interagency Task Force on Coast 
Guard Roles and Missions. Our full range of missions, all 
critical to the Nation, would continue to serve America in a 
robust way under President Bush's proposal.
    We have functioned extremely well with the Department of 
Transportation for now over 35 years, most recently under the 
support and visionary leadership of Secretary Mineta. However, 
today's security realities necessitate bold action to ensure 
the safety of the public, including governmental reorganization 
where and when it makes sense. The Department of Transportation 
and the Coast Guard strongly support the President in his 
proposal to create the new Department of Homeland Security. The 
Department of Transportation will continue to oversee the 
mobility and the safety of the transportation system, and I 
envision the Coast Guard will always be a very close partner 
with the Department of Transportation in the marine 
transportation system issues.
    In conclusion, the Coast Guard remains dedicated to the 
safety and security of our Nation to the protection of our 
marine environment, to the contributions as a military service 
in the defense of our country. We will continue to answer the 
call. We will continue to live our motto, Semper Paratus, 
always ready, as we have done for the past 212 years.
    Again, thank you for the opportunity to testify here today, 
Mr. Chairman, and I will be happy to answer any questions you 
or the subcommittee may have at the appropriate time.
    Mr. Shays. Thank you, Admiral. I told you that my brother 
was in the Coast Guard. I should have also said he was 8 years 
older than me, and I really looked up to him and his service in 
the Coast Guard. Delighted you are here.
    Admiral Collins. Thank you, sir.
    Mr. Shays. Mr. Baughman.
    Mr. Baughman. Thank you, Mr. Chairman. It is my pleasure to 
represent Director Albaugh, who regrets he is unable to be here 
today to testify.
    Let me begin by outlining FEMA's role in support of 
homeland security. For more than 20 years, FEMA has been the 
Nation's lead agency in proposing for and responding to 
emergency disasters, regardless of cause. The agency has a core 
competency in managing the consequences of disasters ,to 
include acts of terrorism. Under the Federal response plan, 
FEMA coordinates the emergency response activities of 28 
departments and agencies.
    When President Bush asked Director Albaugh to establish the 
Office of National Preparedness in May of this year, its 
primary mission was to provide a central point of coordination 
for a wide range of Federal programs dealing with terrorism 
preparedness. Although the Office of National Preparedness was 
formally established only 8 months ago, our responsibilities 
were greatly enhanced as a result of September 11th. Because of 
FEMA's unique capabilities and leadership role in consequence 
management, the President selected our Agency to lead the First 
Responder Program when he announced it several months ago.
    The mission and overriding objective of the Office of 
National Preparedness at FEMA is to help this country be better 
prepared to respond to emergencies and disasters of all kinds, 
including acts of terrorism. This work is under way right now. 
Our effort has three major focuses. One is providing a central 
coordination point for all Federal preparedness programs. 
Second is the First Responder Initiative. And third is 
supporting the Office of Homeland Security.
    The Office of National Preparedness was established to meet 
the need for a single entity to take the lead in coordinating 
Federal preparedness programs designed to build the capability 
of State and local government to respond to emergencies and 
disasters. In our view, it is essential that the responsibility 
for pulling together and coordinating Federal preparedness 
programs be situated in a single agency. And I think formal 
reports, such as the Hart-Rudman Report and the Gilmore 
Commission has affirmed that.
    President Bush's proposal for the Department of Homeland 
Security would greatly facilitate this effort. FEMA's current 
efforts would be folded into this department and our work would 
continue, including working with and coordinating the response 
of the 28 agencies through the Federal response plan, 
interfacing this plan with State and local governments; 
planning, training, and exercising Federal State and local 
emergency responders; providing grant assistance to build 
emergency response capabilities at the State and local level; 
organizing the national response system, such as the National 
Urban Search and Rescue System, which responded to the World 
Trade Center and Oklahoma City; the National Disaster Medical 
System; and building a national mutual aid capability.
    Responding to emergencies of all kinds, as we have in the 
past, would continue, to include situations like Oklahoma City, 
World Trade Center, and the Pentagon. As I mentioned, we have 
been America's response to disasters, and it has been our 
mission for the last 20 years. We see this work continuing 
under a new Department of Homeland Security.
    One of the most important lessons learned from September 
11th is the value of a strong, effective State and local 
response capability. The President requested $3.5 billion in 
the 2003 budget to support first responders. These funds would 
help them plan, train, and acquire equipment needed, and 
conduct exercises in preparation for terrorist attacks or other 
emergencies. Right now we are developing a streamlined and 
accountable procedure that would speed the flow of moneys to 
the first response community. Specifically, these funds would 
be used to develop comprehensive emergency response plans, 
purchase equipment that is needed to respond effectively, to 
include communications interoperability; would provide training 
for the first responders to prepare them for terrorist 
incidents and operating in contaminated environments; and 
develop a comprehensive regular exercise program that would be 
used to improve response capabilities.
    The President is requesting funds in the 2002 spring 
supplemental to support this initiative also, including $175 
million for State and local governments to upgrade and, in some 
cases, develop comprehensive emergency operations emergency 
plans. These comprehensive plans would form the foundation for 
the work to be done in 2003 to prepare the first responders for 
terrorist attacks.
    ONP's work in other areas would continue. These include the 
development of a comprehensive training compendium easily 
accessible by State and local governments, the development of a 
robust national mutual aid system, the development of a 
national exercise program, and the development of 
interoperability standards for communications and first 
responder equipment.
    What I have described involves those portions of the 
homeland security effort in which FEMA is most directly 
involved: preparedness and consequence management, and working 
with the other Federal, State and local emergency response 
organizations.
    The President said from the outset that the overall 
structure for organizing and overseeing homeland security would 
evolve over time. His proposal for the Department of Homeland 
Security would unify the Nation's efforts to protect the 
American people, and the functions that FEMA performs would be 
key to the mission of the new Department of Homeland Security. 
The new department would administer Federal grants under the 
First Responder Initiative as well as grant programs managed by 
the Department of Justice, Department of Health and Human 
Services, and FEMA.
    The new Department of Homeland Security would address head-
on the problem of fragmentation and duplication in Federal 
terrorism training programs. The structure of the newly 
proposed department recognizes that FEMA's mission and core 
competencies are essential components of homeland security. 
Congress can rest assured that the Nation's response to acts of 
terrorism and the efforts of the first responders will be 
transparent to State and local governments and that the entire 
first responder community would be wrapped into that.
    Mr. Chairman, this concludes my formal remarks. I would be 
happy to entertain questions.
    Mr. Shays. Thank you, Mr. Baughman, we will have questions, 
and that is helpful.
    [The prepared statement of Mr. Baughman follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.024
    
    [GRAPHIC] [TIFF OMITTED] T6609.025
    
    [GRAPHIC] [TIFF OMITTED] T6609.026
    
    [GRAPHIC] [TIFF OMITTED] T6609.027
    
    [GRAPHIC] [TIFF OMITTED] T6609.028
    
    [GRAPHIC] [TIFF OMITTED] T6609.029
    
    Mr. Shays. Commissioner Browning.
    Mr. Browning. Mr. Chairman, members of the subcommittee, 
thank you for this opportunity to testify today. I know that 
the subcommittee has a great deal of interest in discussing the 
pending proposals to realign certain government agencies, as 
set forth in the President's proposal for a new Department of 
Homeland Security, and the inclusion of the entire U.S. Customs 
Service in that department. Commissioner Bonner has told the 
employees of the U.S. Customs Service that he fully supports 
the President's proposal and strongly believes that the new 
Department of Homeland Security will play a key role in 
safeguarding the American people.
    For over 200 years, the U.S. Customs Service has defended 
our country's borders and facilitated international trade and 
travel. Since September 11th, at the direction of the 
President, the top priority of the Customs Service has been 
responding to the continuing terrorist threat at our land 
borders, seaports, and airports. Our highest priority is doing 
everything we reasonably can to keep terrorists and terrorist 
weapons from entering the United States.
    I would like very briefly to describe for you some of our 
most significant efforts and initiatives on that front.
    Since September 11th, Customs has been at a Level One alert 
across the country at all ports of entry. Level One requires 
sustained, intensive antiterrorist questioning, and includes 
increased inspections of travelers and goods. Because there is 
a continued threat that international terrorists will attack 
again, we are still at Level One alert to this day, and we will 
remain so for the foreseeable future.
    To help ensure that Customs forms a coordinated, integrated 
counterterrorism strategy for border security, we established a 
new Office of Anti-Terrorism within the Agency, and the 
commissioner appointed an experienced security expert and 
former senior military officer to head that office. The 
director of the Office of Anti-Terrorism is also helping to 
coordinate Customs' role within our national security 
architecture with the Office of Homeland Security, our fellow 
border inspection agencies, and other government entities. This 
cooperation is essential to ensure that we are effectively 
responding to the threat of terrorism and to our mission 
priorities.
    Customs continues to play an important role in the fight 
against terrorist financing and those who aid and abet 
terrorist organizations through financial support for their 
activities. Last October, we formed Operation Green Quest, a 
joint investigative team, led by Customs and sponsored by the 
IRS, Secret Service, and other Treasury bureaus, as well as the 
FBI and the Department of Justice. I am pleased to report that 
so far, Operation Green Quest has led to the seizure of 
approximately $4.9 million in suspected terrorist assets and 16 
arrests.
    Customs agents are also working diligently under Project 
Shield America to monitor exports of strategic weapons and 
materials from the United States. We are seeking to prevent 
international terrorist groups from obtaining sensitive U.S. 
technology, weapons, and equipment that could be used in a 
future terrorist attack on our Nation. To help Customs officers 
in the field, Commissioner Bonner also established the Office 
of Border Security. The mission of that office is to develop 
more sophisticated antiterrorist targeting techniques for 
passengers and cargo in the seaport, airport, and land border 
environments.
    In approaching our primary mission to prevent terrorists 
and terrorist weapons from transiting our borders, Customs has 
promoted several initiatives to push our line of defense 
outward. The ultimate aim of pushing our security outward is to 
allow U.S. Customs more time to react to potential threats, to 
stop threats before they reach us, and to expedite the flow of 
low-risk legitimate commerce across our borders. These efforts 
include the Customs-Trade Partnership Against Terrorism, more 
commonly known as C-TPAT, which is a partnership with U.S. 
importers to improve security along the entire supply chain, 
from the loading docks of foreign vendors to our land borders 
and seaports.
    We were very pleased to have Governor Ridge and Secretary 
O'Neill participate in our announcement of C-TPAT at the 
Ambassador Bridge in Detroit in April of this year. As Governor 
Ridge noted, C-TPAT is important because it strengthens the 
security of our borders while speeding up the flow of 
legitimate goods.
    Another initiative is the 30-point Smart Border Declaration 
signed by Homeland Security Director Governor Tom Ridge and 
Canadian Deputy Prime Minister John Manley. Part of that plan 
includes placing U.S. Customs and Canadian Customs personnel in 
each other's ports to help in the targeting and prescreening of 
cargo that arrives in one country and is destined for the 
other.
    The Container Security Initiative, or CSI, places Customs 
enforcement personnel in major foreign shipping ports. The 
Customs officers will establish international security criteria 
for identifying high-risk cargo containers that potentially 
pose a risk of containing terrorists or terrorist weapons. We 
will prescreen the high-risk containers at their ports of 
shipment, utilizing detection technology, and we will develop 
and deploy secure containers with electronic seals and sensors 
to indicate potential tampering.
    The effective use of technology depends on good targeting, 
for which we require advance information. The Automated 
Manifest System, or AMS, is an automated application that uses 
information culled from a vast data base of shipping and 
trading activities. Using selectivity systems that operate 
within AMS, we are able to sort through cargo manifests 
provided to Customs by shippers and carriers and pick out those 
that appear unusual, suspect, or may be high risk.
    Legislation currently under consideration mandating the 
advance electronic transmission of cargo manifest----
    Mr. Shays. Commissioner, excuse me. If you would just kind 
of wrap up. You are into about 7 minutes.
    Mr. Browning. Yes, sir, I will. Thank you.
    --information will significantly increase the amount and 
timeliness of information input into the Customs data base.
    We appreciate the support the House and Senate has shown in 
making the advance filing of electronic cargo manifest 
information mandatory, and we look forward to providing any 
assistance with these bills when they go to conference.
    All of these efforts and initiatives by Customs that I have 
described today will bolster our defenses against terrorism and 
position us to play a significant role in this new 
organization. The events of September 11th demonstrate that we 
must be prepared for anything. The Customs Service, with its 
expertise and experience in protecting our Nation's borders is 
committed to working closely with law enforcement counterparts, 
as well as with members of the international community and our 
stakeholders in the private sector to deter terrorists that 
would strike America.
    Mr. Chairman, the commissioner and I are proud of the vital 
role that the men and women of the Customs Service have played 
and will continue to play under the President's plan in 
defending the Nation's homeland.
    Thank you for this opportunity to testify, and I am 
prepared to take any questions you may have.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Browning follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.030
    
    [GRAPHIC] [TIFF OMITTED] T6609.031
    
    [GRAPHIC] [TIFF OMITTED] T6609.032
    
    [GRAPHIC] [TIFF OMITTED] T6609.033
    
    [GRAPHIC] [TIFF OMITTED] T6609.034
    
    [GRAPHIC] [TIFF OMITTED] T6609.035
    
    [GRAPHIC] [TIFF OMITTED] T6609.036
    
    [GRAPHIC] [TIFF OMITTED] T6609.037
    
    [GRAPHIC] [TIFF OMITTED] T6609.038
    
    Mr. Shays. I think it is understood, but we would like to 
say that we are proud of all the work all your people do in all 
the various departments you are representing. We are grateful 
for their service to our country.
    Mr. Acord.
    Mr. Acord. Thank you, Mr. Chairman, and members of the 
subcommittee.
    Mr. Shays. I am going to ask you to bring that mic a little 
closer, and is the green light on?
    Mr. Acord. Yes, it is.
    Mr. Shays. Maybe the other mic will reach you more easily.
    Mr. Acord. Is that better?
    Mr. Shays. Yes. Why don't you work with that one? Take your 
time, the clock hasn't started yet, and it's a generous clock.
    Mr. Acord. Mr. Chairman and members of the subcommittee, I 
thank you for the opportunity to testify today on behalf of the 
U.S. Department of Agriculture's Animal and Plant Health 
Inspection Service on the establishment of the Department of 
Homeland Security.
    APHIS is a multipurpose organization with one main mission: 
protecting America's agriculture. Our main activities are 
designed to keep foreign pests and diseases out of the United 
States, to monitor and manage agriculture, pests, and diseases 
already existing in the United States, and to resolve and 
manage trade issues related to animal and plant health. The 
functions we perform are an important part of the Federal 
Government's effort to provide the Nation with safe and 
affordable food and to defend against agricultural terrorism.
    As we all know, the tragic events of September 11th forever 
changed our country, and for APHIS they forever changed the 
context in which we do our work. Whereas in the past our 
attentions have primarily focused on the accidental 
introduction of foreign pests and diseases, today we face a no 
longer abstract threat of intentional introduction of organisms 
that could disrupt American agriculture production, erode 
confidence in the Nation's food supply, and destabilize the 
American economy.
    The President's proposal for a new Department of Homeland 
Security will bolster our coordination, planning, response and 
management capabilities. Since the security and protection of 
our Nation is of the highest priority, it is of utmost 
importance that all biological and agricultural terrorism 
activities be consolidated into a single department focused on 
homeland security. Therefore, we fully support the President's 
plan for the creation of this new department.
    It is critical that government agencies continue to work 
together to protect America from terrorists. In particular, we 
must protect our food and agriculture supply against any threat 
that could harm our consumers or the farm sector. While we have 
a strong system of protections at our borders and ports of 
entry that help prevent the entry of agriculture pests and 
diseases, it is critical in this new age of threats that we 
enhance the protection of America's food supply.
    Until this new department can be established, we in the 
Department of Agriculture will continue to work closely with 
the Office of Homeland Security as we have since it was 
established in October 2001. USDA's Homeland Security Council, 
headed by Deputy Secretary Jim Mosely, will continue to 
coordinate USDA's efforts to meet pressing security needs. The 
Council has been and will continue working with the Office of 
Homeland Security and will provide assistance and staff to 
address critical agriculture issues.
    APHIS has also been working intensely to coordinate with 
other agencies as part of our safeguarding activities, and we 
will continue to do so. We have always thought that one of the 
most fundamental bases for safeguarding our border inspection 
system is APHIS's close cooperation with the Customs Service 
and other Federal inspection agencies. Although a high level of 
cooperation existed even prior to September 11th, since that 
time APHIS and these agencies have significantly strengthened 
their communications and direct cooperation with each other.
    For example, APHIS officials now participate with Customs 
in its emergency situation facility and also in a major effort 
to enhance the availability of all cargo manifest information 
to identify cargo containers as they are used in commerce 
throughout the world.
    However, consolidating homeland security functions into one 
department will ensure better communication and coordination 
leading to improved effectiveness. We look forward to working 
together with the other homeland security agencies as members 
of the same department.
    Again, I thank you for this opportunity to testify, and at 
the appropriate time I will be prepared to answer any questions 
you may have.
    Mr. Shays. Thank you, Mr. Acord.
    [The prepared statement of Mr. Acord follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.039
    
    [GRAPHIC] [TIFF OMITTED] T6609.040
    
    Mr. Shays. Mr. Tritak.
    Mr. Tritak. Thank you, Mr. Chairman, and thank you for 
having me here today to discuss the importance of establishing 
a Cabinet-level homeland security organization.
    In his address to the Nation last week, President Bush 
stated he intended to create a Department of Homeland Security 
to ensure that he continues to carry out his most important 
responsibility, that of protecting and defending the people of 
the United States. His decision to take this monumental step, 
the most sweeping reorganization of our national security 
establishment in over 50 years, was made on the basis of 
careful study and experience since September 11th.
    The administration considered a number of organizational 
approaches proposed by various commissions, think tanks, and 
including Members of Congress, such as H.R. 4660, introduced by 
Representatives Thornberry, Harman and others, as well as S. 
2452 introduced by Senators Lieberman, Specter and others.
    The new Department of Homeland Security would be organized 
into four divisions: border and transportation security; 
emergency preparedness and response; chemical, biological, and 
radiological nuclear countermeasures; and information analysis 
and infrastructure protection. The new department would be 
comprised mainly of existing organizational elements located in 
other departments and agencies.
    For example, my own office, the Critical Infrastructure 
Assurance Office, which is now located in the Department of 
Commerce's Bureau of Industry and Security, will become part of 
the new Information Analysis and Infrastructure Protection 
Division. This division within the new department will place an 
especially high priority on protecting our critical and cyber 
infrastructure from terrorist attack by unifying and focusing 
the key activities currently performed by the CIAO, the 
National Infrastructure Protection Center currently located at 
the FBI, and other Federal organizations.
    The CIAO was originally created by Presidential directive 
in 1998 as an interagency operation within the Department of 
Commerce to coordinate critical infrastructure policy. 
Specifically, our focus at that time was the development of 
national awareness and outreach programs with the private 
sector--we cannot achieve homeland security without active 
participation from the private sector. Homeland security is not 
just good for the Nation, it is actually good business--
assisting Federal departments and agencies in identifying their 
dependencies on critical infrastructure, which is a project we 
refer to as Project Matrix, which is another function we 
perform under PED 63, and, finally, developing an integrated 
national strategy for securing those information systems and 
networks essential to the operation of our Nation's critical 
infrastructures.
    Under the Bush administration, CIAO has taken on additional 
responsibilities. We serve as a member of the President's Board 
for Critical Infrastructure Protection. This board was created 
to coordinate Federal efforts and programs relating to the 
protection of information systems and networks essential to the 
operation of our critical infractures. The administration now 
is proposing, in his fiscal year 2003 budget request, an 
establishment of an Information Integration Program within the 
CIAO to improve coordination of information sharing essential 
to combatting terrorism nationwide. The most important function 
of this office will be to design and help implement an 
interagency information architecture that will support efforts 
to find, track, and respond to terrorist threats within the 
United States in a way that improves both the time and response 
and the quality of decisions.
    Together with lead Federal agencies and guided 
strategically by the Office of Homeland Security, this 
integration office will create an essential information 
inventory, determine horizontal and vertical information-
sharing requirements, define a target architecture for improved 
information sharing, and determine the personnel, software, 
hardware and technical resources needed to implement the 
architecture. Foundation programs will produce road maps or 
mitigation strategies that will be used by the agencies to move 
from where they are now to a desired state.
    The Office of Homeland Security and the Integration Office 
will also define near-term pilot projects and proof-of-concept 
initiatives that can immediately address short-term homeland 
security requirements.
    Having the CIAO as a formal part of the new department will 
strengthen the coordination we have been working to foster, and 
that is the core of the CIAO's mission. For this reason, the 
Secretary of Commerce, the Under Secretary of Commerce for 
Industry and Security, and myself fully support the President's 
plan to relocate the CIAO from the Department of Commerce to 
the new Department of Homeland Security.
    Indeed, even before the new department was announced, the 
Under Secretary of Commerce for Industry and Security had 
planned to relocate CIAO with the staffs of the Office of 
Homeland Security and the President's Critical Infrastructure 
Protection Board. The country needs a single, unified homeland 
security structure that will improve protection against today's 
threats and be flexible enough to help meet the unknown threats 
of the future.
    Thank you very much for having me, and I look forward to 
your questions.
    Mr. Shays. Thank you, Mr. Tritak.
    [The prepared statement of Mr. Tritak follows:]

    [GRAPHIC] [TIFF OMITTED] T6609.041
    
    [GRAPHIC] [TIFF OMITTED] T6609.042
    
    [GRAPHIC] [TIFF OMITTED] T6609.043
    
    [GRAPHIC] [TIFF OMITTED] T6609.044
    
    [GRAPHIC] [TIFF OMITTED] T6609.045
    
    [GRAPHIC] [TIFF OMITTED] T6609.046
    
    [GRAPHIC] [TIFF OMITTED] T6609.047
    
    Mr. Shays. Mr. Medford.
    Mr. Medford. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me to testify.
    Mr. Shays. Is your mic on? Am I pronouncing your name 
correctly; it's Medford?
    Mr. Medford. Yes, that's correct.
    Mr. Shays. Thank you, Mr. Medford.
    Mr. Medford. Thank you.
    Thank you for the opportunity to testify today on this very 
important topic. I have recently been assigned as the Assistant 
Director of the FBI's new Cyber Division, as part of the 
Director's reorganization of the FBI, in an effort to improve 
efficiency in information sharing and streamlining operations. 
I have recently, as part of this assignment, been assigned 
responsibility for overseeing the National Infrastructure 
Protection Center, referred to as the NIPC, which is now 
starting its 5th year of operation.
    This center provides a national threat assessment warning 
investigation and response capability for the interagency 
process and members of the center. NIPC's historical emphasis 
has been on protecting the Nation against cyber attacks, 
although it also has a mission to protect the critical 
infrastructure of the United States. By way of background, as 
you know, the creation of the NIPC grew out of the efforts of 
the President's Commission on Critical Infrastructure 
Protection, which after a year of studying a wide range of 
issues, provided recommendations to the President in October 
1997.
    In May 1998, the White House released a blueprint for 
coordinating the Federal Government's role in addressing both 
cyber and physical attacks on the critical infrastructure of 
the country. The interagency NIPC was formed to prevent and 
mitigate such attacks and to collaborate and to work with the 
private sector to enhance the ability to do so. The Center has 
accomplished this by forging an alliance between roughly a 
dozen Federal agencies, working full time in the center at FBI 
headquarters currently, and with key management positions held 
by the FBI, the CIA, the NSA, and the Department of Defense, as 
well as through a variety of public outreach programs such as 
Infraguard and the Key Asset Initiative created by the NIPC.
    The Center today consists of about 145 FBI positions, 42 
other Agency personnel, and 53 private sector contractors, for 
a total of about 240 personnel.
    The FBI's role in the NIPC includes field support, 
represented by our investigative representative and technical 
personnel located across the country, supporting the FBI's 
responsibility for counterterrorism and counterintelligence 
cyber-related investigations. It also includes the community 
outreach efforts, as I noted previously. Both the Infraguard 
Initiative and Key Asset Initiative, which were generated by 
the NIPC, focus on critical infrastructure protection and the 
sharing of threat data across a broad spectrum of private 
industry.
    The NIPC's current strategy concentrates on prediction, 
prevention, detection and mitigation of cyber threats and works 
very closely with the private sector on protecting key assets 
throughout the Nation. These sectors include government 
operations, gas and oil storage delivery, water supply system, 
banking and finance, transportation, electrical energy, 
telecommunications and emergency services. The key to success 
in these areas will be strengthened in cooperation with the 
domestic and foreign intelligence collectors and the 
application of sophisticated new analytical tools to better 
learn from day-to-day trends and to improve our ability to 
predict those actual threats, especially in the cyber arena.
    With respect to our future direction, the FBI is committed 
to ensuring that the NIPC mission is effectively accomplished. 
We look forward to working to ensure that an efficient 
transferral mission to the proposed Department of Homeland 
Security occurs and to improve the FBI's ability to conduct our 
criminal, investigative and national security responsibilities 
and contribute to the significant NIPC mission.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Medford.
    Mr. Becraft. Does that reach over to you?
    Mr. Becraft. I think so. Can you hear me?
    Mr. Chairman, thank you for the opportunity to appear 
before this subcommittee today to discuss the important topic 
of how our government is organized to combat terrorism.
    The President has proposed a bold and revolutionary 
approach to protecting our country from internal and external 
forces that threaten our physical safety. I know I speak for 
all 35,000 men and women of the Immigration and Naturalization 
Service saying we at the INS intend to do our part to make the 
Department of Homeland Security and its critical mission a 
success. Commissioner Ziglar and I strongly support the 
creation of this new Cabinet level department and consider this 
an important and very positive development for the security of 
our Nation and for the mission employees of the INS.
    In this new unified structure the Department of Homeland 
Security will have one of the most important missions of our 
government, protecting the American people and ensuring the 
safety of our institutions and our precious freedoms. The 
functions of the INS are particularly well situated for the 
transition to this new department.
    We have long recognized that the INS needs to be 
restructured, and we have taken many fundamental steps in that 
direction. However, there has been the lingering question as to 
what the final new structure would look like. The new 
Department of Homeland Security would include the functions of 
the INS and would, consistent with the President's longstanding 
position, separate immigration services from immigration law 
enforcement. The Department would build an immigration services 
organization that would administer our immigration law in an 
efficient, fair and humane manner. The Department would make 
certain that America continues to welcome visitors and those 
who seek opportunity within our shores while excluding 
terrorists and their supporters.
    To understand the full meaning and the potential benefit of 
these proposed changes, a few statistics help to put the 
current INS mission and its challenges into context. More than 
500 million inspections are conducted at our ports of entry 
every year. The INS has roughly 5,000 inspectors to process 
these hundreds of million visitors who arrive at our borders 
every year. INS has approximately 2,000 investigators 
throughout the country to deal with persons who have entered 
illegally, are criminal aliens who have overstayed their visas 
or otherwise have violated the terms of their status as 
visitors to the United States.
    The agency has experienced explosive growth over the past 
several years, growing at an annual rate of more than 10 to 20 
percent, including a doubling in the size of its work force 
since 1994. In the past 8 years alone more people have applied 
for naturalization than in the previous 40 years combined.
    INS's hard working employees have done a tremendous job 
under difficult circumstances in response to the tragic events 
of September 11th. Since September 11th, INS special agents, 
intelligence analysts, detention officers and others have 
worked closely with FBI-led counterterrorism task forces. They 
have generated and pursued thousands of leads, resulting in the 
arrests of more than 700 aliens for a variety of administrative 
and criminal charges.
    Border Patrol agents and immigration inspectors have been 
working just as diligently to strengthen security at our ports 
and along our borders, and we appreciate the support of the 
National Guard in this effort.
    While my written statement includes a fuller inventory of 
our efforts and accomplishments, I would like to take a moment 
to highlight some of the other important initiatives we have 
undertaken since September 11th to enhance security. Since 
September 11th, and like the Customs Service, we have been at 
Threat Level I at our ports of entry. Shortly after the 
terrorist attacks INS began Operation Tarmac, an initiative 
designed to ensure that employees who have access to secured 
areas of airports and other critical security infrastructures 
are legally in this country authorized to work and pose no 
threat to the American people.
    After September 11th, INS began conducting the Absconder 
Apprehension Initiative, designed to ensure that aliens against 
whom final orders of removal have been entered do indeed leave 
the country. INS has also worked with the State Department to 
establish new initiatives to increase security.
    Today INS inspectors have access to visa data from the 
consolidated consular data base system and as a result can call 
up visa records for immigrants and nonimmigrants and photos of 
nonimmigrants as they arrive at ports of entry. The system 
helps them to identify security and fraud risks.
    Under the direction of Department of Justice, the INS and 
FBI are integrating the IDENT and IAFIS fingerprint data bases. 
As part of this process, the U.S. Marshals Service Federal 
fugitive fingerprints and FBI fingerprints of foreign nationals 
wanted by law enforcement have been added to IDENT. This 
overall effort has resulted in the identification of over 1,600 
individuals wanted for felony crimes that include homicide, 
rape, drug crimes and weapons violations.
    We are moving forward on initiatives to strengthen our 
administration of nonimmigrant student and visitors, including 
SEVIS and regulatory changes to strengthen oversight of foreign 
students and the programs they attend as well as visitors to 
this country.
    The INS has been working closely with the Office of 
Homeland Security in its planning for implementation of an 
entry-exit system. Last week the Attorney General announced the 
National Security Entry-Exit Registration System. In close 
concert with the Office of Homeland Security we have worked 
with our neighbors in Canada and Mexico and agreed upon several 
concrete initiatives to secure safety and security and smooth 
the flow of legitimate travelers and goods.
    Let me emphasize, while responding to the need for 
heightened security nationwide, INS is accountable and will 
remain attentive to our immigration enforcement and benefits 
missions. Agents, officers and attorneys throughout the country 
are attending to our other mandates.
    Mr. Chairman, all of us at INS want to improve our systems 
operations and performance. We believe that the major changes 
envisioned by the President's proposal will enable us to 
achieve the results the Nation deserves. INS will continue in 
its mission to adjudicate applications for immigration benefits 
and enforce the immigration laws as the Congress and 
administration work together on legislation to establish the 
Department of Homeland Security.
    Mr. Chairman, I may be sitting on the edge of this table at 
the very end, but I assure you that INS is in the heart of this 
battle and we continue to fight.
    Mr. Shays. How long did it take you to think of that?
    Mr. Becraft. I just thought of it.
    Mr. Shays. Let me say to you I appreciate you all being 
here. We are all cowards. We didn't take off our coats. I guess 
we want to have the look of authority as we speak.
    Mr. Becraft. It was Admiral Collins, sir.
    Mr. Shays. We knew he couldn't take off his coat.
    Let me say that it is my decision we are going to take 10 
minutes per questioner because it would be kind of silly, in my 
judgment, to do the 5, and then one or two of you could 
respond. I want you to feel free to jump in even if the 
question is addressed to someone else if you think you have a 
contribution to make on that particular question. We might--if 
the questioner is a little uncomfortable that he is not able, 
or she, to get to their questions, we might extend over. But, 
Mr. Putnam, you have 10 minutes and we will do a second round 
as well.
    Mr. Souder, it is going to take a little longer to get to 
you, but I think we get better information if we do that.
    Mr. Putnam. Thank you, Mr. Chairman. I want to thank our 
distinguished panel. Your agencies have been under a lot of 
pressure since September 11th. But with the President's speech 
last week your world turned upside down, and I appreciate you 
coming up here to dutifully, if only halfheartedly, profess 
your love to this new reorganization plan. But I think you owe 
it to this panel to be very candid in your remarks about how we 
get there from here. I appreciate the professionalism that all 
of you have to make the President's plan work, and it is that 
kind of an attitude that is going to make this a successful 
plan. But the iron triangles have been ringing all over town 
expressing concerns about different pieces of this plan and how 
they impact all of the different agencies. So I think you owe 
it to us to give us a clear eyed policymaker's viewpoint 
because you are in the trenches and you deal with this every 
day. And we can't afford to turn the Federal Government upside 
down through rose colored, baby sniffing marches toward group 
think. And so as we move through this, if we are not asking the 
right questions, I hope you will let us know and I hope you 
will be completely candid in your assessment of how this will 
impact your specific mission and how you serve the American 
people.
    Mr. Shays. If the gentleman would yield, you can do it in 
the way by saying ``the challenges that present themselves,'' 
and we will know what you mean.
    Mr. Putnam. The Admiral very candidly laid out some 
stipulations that this will be successful ``if,'' and I think 
that sets a model for all of us to follow on how to make this 
situation work. And I will begin by asking of the gentleman 
from FEMA, in Panel I we heard from Congressman Gibbons that it 
was his intention, or his viewpoint that the primary function 
of the Department of Homeland Security would be to focus on 
foreign terrorist threats to the homeland. Do you believe that 
in that context your current responsibilities with flood, with 
hurricanes, with tornadoes and with incidents that may turn out 
not to be foreign related, as we have yet to find out with 
anthrax and as we found out in Oklahoma City, will those issues 
be adequately resolved under the structure as it exists today?
    Mr. Baughman. I am not sure I am following the question, 
but you know, if you are asking if it is a foreign threat, what 
would we do differently domestically? Is that the gist of your 
question?
    Mr. Putnam. The question is do you believe that the 
administration's intent is for the Department to only deal with 
foreign threats?
    Mr. Baughman. No, I don't.
    Mr. Putnam. That would be different than what we heard from 
Panel I.
    Mr. Baughman. I think it is to deal with domestic--
certainly with FEMA we are dealing with domestic consequences 
to terrorism regardless of whether it is caused by a foreign 
terrorist group. It does damage domestically like the World 
Trade Center or the Pentagon, and we would respond to that.
    Mr. Putnam. I would agree with you and I appreciate that.
    For the Customs Service, as you understand it, would you 
only lose the law enforcement component or would your entire 
agency be transferred?
    Mr. Browning. As I understand, the President's proposal has 
the entire agency with all of our core missions going over to 
the organization. And indeed I think earlier in this process 
when we started the dialog with the administration on how to 
approach this issue, Commissioner Bonner made it absolutely 
clear that from the U.S. Customs Service standpoint, it was 
critically important that all of our mission requirements go 
over.
    We have four core missions. Clearly border security today 
is our top priority. But we are a law enforcement agency and we 
have been a law enforcement agency and quite good at that for 
quite some period of time. At the same time, we have been able 
to weave into that law enforcement-border security mission the 
trade facilitation and trade compliance piece. There was a 
point in time when there was a very adversarial relationship 
between the U.S. Customs Service and our stakeholders, the 
trade community, and that has changed. And in fact, September 
11th has provided us with even more opportunity to weave 
together those four missions, and in many respects the 
efficiencies we have been able to achieve as an organization is 
due to the fact that we have been able to balance our law 
enforcement, border security, trade compliance and trade 
facilitation missions together and to get some synergy from 
those missions.
    Mr. Putnam. You currently inspect 1 or 2 percent of cargo 
shipments, is that correct?
    Mr. Browning. Congressman, I actually think that 1 to 2 
percent is a number that people have latched onto that doesn't 
fairly reflect what actually happens here. We look at 100 
percent of everything that comes into this country. We take a 
look at the documentation that comes on. We use very 
sophisticated rules-based analysis to determine what is at risk 
and what we ought to take a look at.
    The 2 percent number that you referred to, bantered about 
in the media, reflects what is believed to be stripped down and 
actually opened at the seaports. If you take the aggregate 
numbers of everything we look at across the board, it is 
upwards of 6 percent. And if you go to some of our ports that 
are adequately equipped with nonintrusive inspections equipment 
such as gamma ray, VACIS and x-ray equipment, it could be 
upwards, 15 to 18 percent.
    So I don't want the American public to think that we are 
letting things just slip through. Everything gets looked at and 
those things that we break down are those things that we have 
serious concern about.
    Mr. Putnam. Let us assume the best case scenario. You are 
inspecting 15 to 18 percent. What will that number be after you 
are transferred to the Department of Homeland Security?
    Mr. Browning. We would hope--and actually I think like many 
of the agencies here, we are a multi-mission organization--we 
would hope that through economies of scale both with respect to 
information systems, with respect to the ability to share 
information with the additional resources that there would be a 
force multiplier that would make our job better and allow us to 
do a better job. One of the things we know we got to do, given 
the volume of stuff that comes into this country, is that we 
have to take full advantage of technology to help us do this 
job. And the good news for us, and a number of you on the panel 
have been very, very supportive of the U.S. Customs Service 
over the years, and as a result of that we look in good shape 
to get some of the equipment and tools we need to do our job 
better. I would not expect there to be a change. I would expect 
us to be able to do the job better.
    Mr. Putnam. Mr. Acord, currently one of APHIS's missions, 
in addition to interdiction and prevention of plant pests and 
diseases entering our Nation, is finding a sanitary dispute 
resolution and you also have the legal authority to quarantine. 
Will those components also transfer to the Department of 
Homeland Security?
    Mr. Acord. Congressman Putnam, it is my understanding that 
all of the agency and its activities will transfer to the 
Homeland Security Department.
    Mr. Putnam. Do you believe that the non-terror related 
threats to the agricultural industry and threats to food safety 
that are not maliciously created, that are not maliciously 
introduced, they may be accidental introductions through 
tourists, through tagalong in cargo containers, some kind of a 
pest that gets sealed up, will those be a priority and will the 
eradication of those pests once they are established in the 
country receive the adequate attention under the Department of 
Homeland Security and where will the crossover be between 
Homeland Security and USDA?
    Mr. Acord. Congressman, I think there is no reason to 
believe whatsoever that the Department of Homeland Security 
would not focus on the ongoing programs that we have. The 
emergency response or the response to an infestation, whether 
it is accidentally introduced or deliberately introduced, the 
response is much the same from our perspective. So there is no 
reason to believe that this wouldn't receive a priority, that 
we wouldn't continue to address these issues the same way that 
we have in the past.
    Mr. Putnam. So the Department of Homeland Security, for 
example, would then assume responsibility for the eradication 
of citrus canker in Florida or the eradication of Karnal bunt 
disease in wheat fields? That would be a new mission of the 
Department of Homeland Security and not the U.S. Department of 
Agriculture?
    Mr. Acord. Congressman, if you transfer the entire agency, 
then we transfer that mission along with it. And given this 
administration's support for animal plant health issues and, 
you know, for the strong support that we have had, I don't 
believe that we are going to be in a situation of transferring 
just part of the mission and letting the other go. I think we 
will see rigorous enforcement of our quarantines and continue 
with the eradication programs that we now have in place.
    Mr. Putnam. Well, then, recognizing that threats to 
economic security and homeland security also can be in the form 
of food safety and not just animal plant health or animal and 
plant pest disease, is it appropriate then that the Department 
of Homeland Security does not address the food Safety 
Inspection Service or the food inspection components of FDA? Is 
that a gap in the biohazard arena?
    Mr. Acord. Well, I believe that as we get into the 
implementation of the details of the implementation of the 
President's proposal that we will see those issues addressed, 
sir.
    Mr. Putnam. Look forward to working with you on that. Thank 
you, Mr. Chairman.
    Mr. Shays. I hope the gentleman stays for another round. I 
appreciate the questions, the evolution of that question. The 
bottom line is from the responses we have heard homeland 
security means protecting the homeland against both the 
terrorists induced attack and the natural cause attack and will 
be treated with the same vigor. It is still an attack. The goal 
is still to protect, ``the homeland.''
    You heard from the vice-chairman of the committee, and now 
we turn to the chairman of the Subcommittee on Civil Service, 
Census and Agency Organization, who is directly involved in the 
whole reorganization of government. Dr. Weldon, you have 10 
minutes.
    Mr. Weldon. Thank you, Mr. Chairman, and I don't believe I 
will use the full 10 minutes. First of all, let me apologize, I 
had some conflicting commitments this afternoon. I did catch 
some of your testimony and for those I missed, I will be 
reviewing them. And let me just ask all of you, the 
administration with the recommendation--they did a fairly good 
job of keeping it under wraps and not releasing it to the 
public until it was fully developed and there has been some 
press coverage of that. Were you all providing the 
administration input as they went through that process in terms 
of what you see your needs are to meet our homeland security 
requirements over the recent weeks or months?
    Admiral Collins. Let me take an initial stab at that. 
Clearly, most of us at the table were involved since back in 
November-December timeframe as the Office of Homeland 
Security's policy coordinating apparatus was put into place 
with the policy coordinating committees, the deputy committees 
meetings and principal meetings, a series of policy 
coordinating bodies that considered many, many facets of the 
homeland security issue. The four were put on the plate right 
away, ITs, first responder, bioterrorism and border security, 
and all those issues were discussed at great length in a series 
of meetings and each agency had an opportunity to provide 
insight, input on these issues as they unfolded, including 
organizational considerations.
    So in a general sense we were part of a dialog that took 
place over a number of months back and forth at various levels 
with each of our organizations, sort of at the assistant 
secretary level, then at the deputy level and the principals 
level, and that unfolded over a number of months.
    Mr. Weldon. Did any of you want to add to that at all?
    Mr. Becraft. I would just echo what Admiral Collins said 
because Tom and I were at the table most of the time. There was 
quite a clear airing of positions on all the issues and I think 
on the organizational issues as well. Everyone had their 
opportunity to contribute, to put their opinions in, and I 
think that everyone walked away understanding what the issues 
were on the table. I don't think that this came as a great 
surprise to anyone.
    Mr. Weldon. Admiral Collins, I just had a specific question 
about the increased demands being placed on the Coast Guard in 
protecting our seaports. They have been recognized. I realize 
all the areas represented by all the departments here are of 
tremendous importance and critical infrastructure for our 
Nation, but in particular I have a port in my district and I 
have been able to see firsthand the demands. Now I understand 
the Coast Guard has gotten some funding in the supplemental and 
received some additional funding previously. Do you feel now 
that we are adequately funding the Coast Guard to meet the 
challenges that are being placed upon you?
    Admiral Collins. Clearly the reason we are here is an 
organizational dynamic, an aspect of getting better homeland 
security and we are talking through that, and there is also a 
resource capacity part of homeland security, set of 
competencies, set of capabilities to get the job done right.
    You know we have 361 ports and 95,000 miles of coastline 
and they are very valuable assets. Our ports, 95 percent of the 
volume of the trade coming through into our country, and 
absolutely essential to our economy, come through our port 
systems and waterways, and they are valuable and they are 
vulnerable. That is a pretty potent combination.
    I think that has been recognized. I think Senator Rudman 
nailed it this morning on the panel when he talked about port 
security, and I think it has been recognized solidly by 
Secretary Mineta and I think it has been recognized solidly by 
the Office of Homeland Security and the President in the 
support in both the spring and fall supplementals in 2002 and 
our 2003 budget.
    Our 2003 budget for the Coast Guard is the largest budget 
increase for the Coast Guard in its history, over 20 percent 
increase in our operating expense appropriation alone. That is 
the appropriation that allows us to operate, sail ships, fly 
planes and do these other things. We have a roughly 36,000-
person active duty organization. We have civilians on top of 
that. But there is a 2,200-person increase through those 
supplementals in 2002 to start building out the necessary 
competencies, capabilities to get where we need to be for the 
Nation. And I see that probably the multiyear effort that we 
will continue to discuss with the administration what the next 
steps are, but see sort of the first phase of a buildout that 
provides us the necessary competencies.
    Our effort is to build greater awareness in threats and 
vulnerabilities, enhance our presence for response and 
deterrence, protect critical infrastructure and provide for 
force protection and outreach with partners to leverage all of 
our capabilities. Those are our goals. That is what our budget 
supports and I think we are in the right direction with the 
great support of President Bush and Office of Homeland Security 
and Secretary of Transportation.
    Mr. Weldon. The other agencies, would you say that your 
budget is adequate for the challenges that are being presented 
to you, and I assume you are working on the 2004 budgets now 
and you are putting in your requests to meet these challenges 
under the new environment we are talking about?
    Mr. Browning. Congressman Weldon, I think from the Customs 
Service standpoint certainly a number of the supplementals have 
greatly assisted us in providing us with the additional funding 
that we need. One of the things that we have undertaken over 
the last several years is to develop a new automated system or 
infrastructure for our new automated commercial system which 
will have significant benefits to us in the context of homeland 
security.
    Mr. Weldon. One of the reasons I am bringing up this 
question is as I talked to some of the rank and file people I 
hear a lot of stories about 6-day workweeks and 10-hour days 
and 12-hour workdays. And in the immediate post-September 11th 
environment you can sustain that because the whole country is 
energized, but this is obviously going to be a long, protracted 
process and we need to make sure that we are not overstressing 
our work force, and I just want some assurance that the 
administration is taking the appropriate action to put the 
people in place so we can meet the demand, and what I hear is, 
yes, that is going on.
    Mr. Acord. I would respond from the Agriculture 
perspective, we have in our budget request for fiscal year 2003 
an increased request of $120 million to address these kinds of 
issues. Our port of entry programs are user fee based. We have 
had supplemental money allocated to us last year out of the 
defense supplemental to address the shortfall that occurred in 
the user fee collections and the traffic decline after 
September 11th. We have just distributed, you know, last week 
$43 million to States to assist them with the emergency 
preparedness, with surveillance capability for surveillance for 
foreign animal and plant diseases, and I think the 
administration has stepped up quite admirably in providing 
those resources.
    Mr. Weldon. Thank you. I yield back.
    Mr. Shays. Gentleman just wanted to prove he wouldn't use 
his full 10 minutes. He used 9 of them.
    Mr. Schrock.
    Mr. Schrock. Thank you, Mr. Chairman. Thank you for being 
here and to the folks in your agencies for the monumental tasks 
that they are going to be undertaking here. This is not going 
to be easy, but if we are going to survive in this world, we 
have got to do this and we got to make it work pretty quickly.
    Let me say that I agree with Mr. Putnam that we want 
brutally honest assessment. The day of political correctness 
has got to go because if we don't nothing is going to get 
accomplished here.
    I want to address one thing that Mr. Browning said that I 
would like comments from the rest of you. I have a vested 
interest in port security. I represent the Port of Hampton 
Roads, which has the largest contingent of naval vessels in the 
world and of course a huge commercial port. And what I worry 
about is a ship--everybody talks about checking containers when 
they get into this country. I believe it is too late at that 
point. And I am told 16,000 containers come into this country 
every day. And if we don't do something at the point of origin, 
we are going to be in trouble. And you kind of touched on that. 
And I would like to know what your thoughts are on how we solve 
that problem.
    As I came here today, I crossed under the Hampton Roads 
Bridge-Tunnel. I think about that every time I cross the 
Chesapeake. Of course, I see the Coast Guard folks out there as 
well and I try to figure out how are we going to solve this. 
That is a huge concern to me because if a ship coming in here 
from a foreign port has some little device on it in one those 
containers and the GPS system is set up so that when it gets 
behind the carrier piers it goes down and then our ships are 
locked in, and it is a huge concern of mine and I am just 
curious about what your thoughts are and any other people on 
the panel, especially the Commandant.
    Mr. Browning. Congressman, let me first of all respond. We 
greatly appreciate your comments. Actually this has been an 
area of great concern for Commissioner Bonner, as you are 
aware, and on his own initiative Commissioner Bonner basically 
pressed the organization to stand up to continue the security 
initiative, which in fact does intend to move our borders away 
from what would be the traditional points so we can do some of 
the risk assessment, some of the examinations that we need to 
do before that box is on a ship on its way to the United States 
and certainly before it is in one of our harbors, and that is 
starting to yield some very positive results. You may have 
noticed that it has been widely reported that Singapore, which 
is one of the largest security, container security ports, has 
in fact agreed to have us station our officers there and be 
part of the CSI program. We are very close to having a similar 
arrangement with Rotterdam. And there are at least a half dozen 
major, what we refer to as megaports that we are working out 
the details on so we can extend our borders beyond the United 
States. We firmly believe that is the way to do it, and in many 
respects as part of the global response to counterterrorism we 
believe with the requirements of reciprocity that we ought to 
be prepared to work with our counterparts in the same sense.
    Mr. Schrock. Are they going to do that with scanners? I am 
trying to figure out a process that would be used.
    Mr. Browning. Part of it is using the rules-based targeting 
systems and selectivity that we have. But the other part of it 
is also to acquire the necessary nonintrusive examination 
equipment, which we are fortunate that many of the megaports 
already have the infrastructure to do that, and then to ensure 
that we properly seal those containers, so once they leave that 
port we know that if they have been tampered with we can 
identify those containers that may have been tampered with and 
take appropriate action in coordination with the law 
enforcement agencies.
    Mr. Schrock. Commandant, before you start let me tell you I 
don't believe you are funded adequately. I may have worn the 
uniform of the Navy for 24 years, but I understand the Coast 
Guard has probably been one of the most underfunded 
organizations in the military for a long time, and your 
predecessor had the courage to come up here a couple years ago 
before I got here and say enough is enough. We can't do it 
unless you pay us and provide the funding. So the money you got 
this year was a start, but based on the mission you have and 
you are going to continue to have, we are going to have to look 
at that very seriously to make sure that you are properly 
funded.
    Admiral Collins. We view it as a multiyear plan, a 
multiyear buildout, and we are at the first installation and 
there will be further discussions within the administration. 
But clearly there is an organizational dynamic playing here and 
there is a resource capacity dynamic playing here, and you have 
to address both. In terms of the port security issue and 
container, I just echo the comments of my Customs colleague, is 
that this has been a multi-agency approach to this. There is a 
Container Working Group that has been formed under the auspices 
of Office of Homeland Security to examine various technologies, 
information systems and processes by which to solve this issue. 
Clearly, pushing the borders out and getting to point of origin 
where the container is loaded is a really attractive return on 
investment approach because really--this is a transportation 
logistics issue as much as anything else and it is managing the 
supply chain and having total visibility of the supply chain.
    I think heretofore most nations of the world looked at 
trade from an import control perspective, and I think we need 
to get into an export control perspective, all of us, so that 
we know what we are sending to our fellow nations. It is a 
global issue. It is going to take a global solution. And 
Admiral Jim Loy, my predecessor, last fall addressed the IMO, 
the General Assembly of the IMO, to introduce container 
security issues, sea man credentialing, security plans and a 
host of other security issues so that we could get safety on 
the international agenda.
    IMO represents the shipping industry--industries and groups 
of the world. That is where you get international regimes and 
protocols in place. We are very successful in getting unanimous 
decision out of the General Assembly to push forward 
aggressively on some of these international initiatives. There 
was a February Intercession Working Group. There was another 
one in May. There is going to be another one in September, and 
I think we are going to see some fruits of our labor real soon 
on some of these issues in December. That is a tremendous 
accomplishment because sometimes that organization moves at 
glacial speed.
    Mr. Shays. I just want to make sure that the cameramen 
aren't interfering with the reporter. If the reporter is having 
a little bit of trouble, give a little bit of space to the 
recorder. I am sorry to interrupt.
    Mr. Schrock. Let me tell you how important I think this is. 
On October 11, 2000, the day before the Cole incident, a major 
network film crew came into the Port of Hampton Roads to see 
how close they could get to a Navy ship. They actually came 
right to the hull of the USS Truman. The correspondent put his 
hand on the hull and said my hand is on the hull of this big 
ship and not one person has challenged me. The next day the 
Cole blew up and it got everybody's attention.
    It really worries me that could happen again with divers 
coming in, and if there is anything I can do to help either 
Customs or Coast Guard with this, I want to be a player in 
this. I want to get involved because it is vitally important to 
our national security from the Navy standpoint and our economy 
from the standpoint of, you know, Hampton Roads and what comes 
in and out of Hampton Roads, and I would like to help in any 
way I could.
    Thank you, Mr. Chairman.
    Mr. Shays. We will have a second round here.
    Mr. Souder.
    Mr. Souder. I would like to say something for the record 
that something that Mr. Schrock just said--Congressman 
Schrock--it has happened in a couple of other borders and I 
think it has been irresponsible of our media, and that is that 
sometimes they play games to try to make our agencies look bad 
when in fact we see them and we know they are there and we just 
chose not to shoot them or intercept them, and it should not 
always be perceived by the media when they do these stunts and 
they have done at the Washington border, the Vermont border, 
some of the other places, that our agencies didn't fully well 
know they were there. Now occasionally if you want to play it, 
you can break through, but we need to understand that a lack of 
action does not necessarily mean a lack of knowledge and that 
you all have been criticized and this has been happening at 
multiple borders and any reporter in America can do this type 
of thing if they are looking for that kind of story. But to 
show that you actually caught them might tip off some of the 
technology we have, and there needs to be an understanding by 
the American people that we are not interested in showing 
everything we have in every situation.
    I wanted to get one thing on the record as chairman of the 
Anti-Narcotics Subcommittee, and that is that the President has 
made it clear that there is a direct link between the funding 
of terrorism and narcotics. Admiral Collins said it in his 
statement that he viewed the homeland security as narcotics 
interception as well because if we don't get to their money 
sources this will also be true of illegal trafficking of minors 
and other things that terrorists are funded by. I know Admiral 
Collins agrees with that. I assume also that Customs, INS and 
FBI agree that would be part of the homeland security perimeter 
as of the point of the border crossing, that the funding of the 
terrorists is also an issue. I see each person nodding in the 
affirmative. FBI agree with that as well?
    A second point that I think is important because all of you 
have been tremendous in trying to work out particularly on the 
Canadian border but also the southern border, and I have been 
concerned over the last few days in watching this after our 
U.S.-Canada parliamentary session, a number of the Canadians 
pointed out to us that they believed that even in our 
interborder groups that the Americans have been acting a lot 
more unilaterally since September 11th. We have been under 
attack. We are behaving differently than we have in the past 
even to the point of wearing flag pins, in our tone. And the 
point of this agency is not to put up a wall around America. 
Every one of you have IBET, IMET, border teams and so on. And 
in actuality, this should--to the degree we have harmonization 
of laws and cooperation from Canada and Mexico should make it 
easier for their countries to work with the United States.
    Is it not correct; in other words, do you agree that the 
goal here is to make it better and that we are going to need 
better clearances in Vancouver and Singapore? The goal is to 
make it easier; the goal is not to erect a wall and that this 
new department should not be perceived by our allies around the 
world and our neighbors who are so critical and interdependent 
of economic security that somehow we are unilaterally doing 
something that is going to make it necessarily tougher to move 
commerce, to move visitors, to move tourism, to move nurses 
across Detroit, for example?
    Mr. Browning. Congressman Souder, let me first of all say 
you couldn't have said it better. In fact, first of all let me 
on behalf of the U.S. Customs Service continue to say thank you 
because you have always been a big supporter of this agency and 
we appreciate that. I have in my 26 years of government 
service, all of which have been with the U.S. Customs Service, 
and very proud to state, never seen the level of engagement of 
a Commissioner in the issues we are talking about right now, 
and I am talking about Commissioner Bonner being personally 
engaged in meeting with his Canadian and Mexican counterparts 
to work out the arrangements we have been able to achieve 
between our respective governments.
    And when you talk about the Smart Border Accord, well, what 
has happened is that real meaning to that accord has been given 
by the fact that Commissioner Bonner and Commissioner Wright 
from Canada have sat down face to face on numerous occasions 
and themselves hammered out the details of that arrangement. 
The same thing is true with our Mexican colleagues.
    I think we all know this is, as you say, not about fortress 
America, but it is about us taking all the measures we can to 
work bilaterally and multilaterally to ensure that we secure 
the international supply chain, and that also includes programs 
like CTPAT, where we draw the trade into that process.
    So to the extent that people are a little concerned that we 
are acting unilaterally, maybe what is happening is we are 
acting swiftly and that speed and resolve with which we are 
trying to achieve some of these things may suggest that we are 
trying to be unilateral, but I can say from our experience, 
having seen the commissioners, having seen the contacts we have 
had with our counterparts, that we are doing anything but 
trying to be bilateral. We can't win this war alone and it has 
to be a multilateral war and it has to be done across a broad 
spectrum of players and stakeholders.
    Mr. Acord. And I would just add from the Agriculture 
perspective, you know, that we too have been working with our 
counterparts in both Canada and Mexico. Under Secretary Hawks, 
who handles marketing and regulatory programs for USDA, met 
recently with his colleague in Canada. We have had similar 
meetings with officials from Mexico. We have our technical 
people working bilaterally to try to harmonize the regulations 
that we both operate under and to try to make this a North 
American effort.
    I, too, would echo the comments earlier about pushing the 
borders out. You know, the U.S. border for the most part ought 
to be considered a second line of defense, not a first line. I 
think we need to be looking more overseas at what is going into 
the containers. We need to push more of this activity offshore. 
I have seen tremendous cooperation over the last few months in 
working with the various other agencies in enforcing this kind 
of attitude and this kind of initiative to look beyond the 
border for the solution here.
    Mr. Tritak. I would like to emphasize and say it is a key 
thing that the Congressman is raising. Homeland security cannot 
be sort of a euphemism for neoisolationism. The whole purpose 
of many of these terrorist activities is to actually force us 
to withdraw from our global commitments. If the United States 
backed out of the Persian Gulf and Middle East, we probably 
would not be having the problems we are having right now, and 
of course they are not going to achieve that goal, but if you 
listen to what al-Qaeda has been saying, forces us to turn 
inward and basically withdraw our engagements and our 
responsibilities.
    So quite honestly, the whole purpose of the homeland 
security strategy and all the efforts of every agency you see 
at this table is for us to preserve the American way of life so 
that we can continue our global involvement, continue to bring 
the fruits of free enterprise and democracy abroad to those who 
otherwise would try to prevent us from doing that and actually 
force us to retrench our activities.
    So I completely concur with your concerns and the fact that 
we are protecting the U.S. people and property within the 
borders of the United States is not to be viewed as saying that 
is all we are concerned about. It is a means to an end.
    Mr. Souder. Not to mention the fact that the 5200-mile 
border with Canada would be downright silly to think that we 
can seal that whole border. I was just up at Sweet Grass in 
Montana and have been up at Portal in North Dakota. Between the 
Rocky Mountains and the Lake of the Woods in Minnesota, there 
is nothing but wide open spaces, and there is only a certain 
amount we are going to be able to do without a lot more 
clearances.
    May I ask one other question? I think it is--I heard some--
and I will pursue this a little further in the second round, 
but it has been suggested that we might actually save money 
with this agency and reduce resources. There isn't a cheap way 
to do this, and I wanted to pick up on a comment that Admiral 
Collins said and ask you a question, and then I am going to 
pursue it a little bit more. You explained fisheries inside the 
homeland security. Obviously if we don't intercept the people 
who are trying to put these two-mile long nets in the middle of 
the salmon run, we won't have a fisheries industry on the whole 
coast because we will get them and there won't be any to spawn. 
And if the Coast Guard is pulled back to the tight border and 
you are not out in Alaska and you are not having your boats 
down off Mexico watching for illegal narcotics and everybody is 
pulled in along the border, we will lose those things. And what 
I am trying to figure out and other Members, when we actually 
get down to the actual nitty-gritty of this, if you have a boat 
on the Detroit River and you have an obscure tip that somebody 
may be hitting chemicals plants along the river, which could be 
about anywhere, and you are watching and a sailboat tips over 
out further up in Lake Huron, how do you perceive this is going 
to evolve as to how the actual boat commander, who may be the 
only one given your limited resources, and he has to choose 
where to go because previously this search and rescue would 
have been the No. 1 priority because homeland security was not 
in your primary mission.
    Admiral Collins. Clearly search and rescue and the saving 
of life takes priority in all instances. So that decision in 
that particular instance would be fairly a quick one and an 
instantaneous one, that we will defer to the search and rescue 
case when life is at stake and prosecute the highest risk 
issue. All of our resources against all our mission portfolio 
is basically a risk-based algorithm where we are putting 
resources to the highest risk.
    Have we pulled back on some of our missions to do our 
homeland security mission? Yes. Did we do it in the immediate 
post-September 11th period? Yes. And a great percentage pulled 
back in the immediate aftermath and we are throttling back on 
that and reallocating our resources back into other missions, 
and just a couple percentage points below in terms of fisheries 
enforcement and counter drugs where we were pre-September 11th. 
That is because the size of the pie with the 2003 budget is 
getting a little bigger and so we have gotten some additional 
resources to cover those things. Still a capacity issue for us, 
clearly, and as we build out our competencies and capabilities 
over the next 2 to 3 years we are going to have to continue to 
pursue a risk-based approach to the allocation of our 
resources, and that is our full intent.
    Just one other note, we are doing port vulnerability 
assessments. They are funded within the supplemental and part 
of our 2003 budget and part of the maritime security bill now 
under consideration, passed by both Houses but now in 
consideration ultimately in conference. But they have called 
for port vulnerability assessments for our major ports to get a 
handle on the threats and the vulnerabilities, which will 
further help us make that allocation of resources against the 
highest threat.
    Mr. Shays. I thank the gentleman for his question. Mr. 
Souder, I wonder if you could involve me in a bit of a dialog. 
There is no question that costs go up to fight this war on 
terrorism. That needs to be separated from the issue of when we 
reorganize our government are we adding costs, are there 
synergies that could help reduce costs. In practical effect, I 
would suggest that the combining and the consolidation will 
mean that we use resources better but there probably won't be a 
savings because we will try to do more. But in addition, just 
fighting the war on terrorism, irrespective of a 
reorganization, will take more of our resources. And then your 
concern obviously is with those non so-called terrorist 
activities, will they suffer, and I think we as a Congress have 
to make sure that they don't suffer.
    Mr. Souder. I think one of the biggest dilemmas we look at 
in our committee is to make sure that in fact we are changing 
the missions of the agencies in the name of cost saving, that 
we do that publicly and state that debate because it very 
easily could be that we shift the mission to counterterrorism 
and then reduce another mission in the name because we don't 
want to increase the spending and de facto do that in a 
different way. Plus, we have not yet heard, and I would be 
interested and hopeful from the second panel, where the cost 
savings to this synergy is because having worked with this for 
a long time, I don't believe we will get efficiency of being 
able to target for protection. I believe we will have better 
information sharing, but I am not sure what the cost saving is 
even in that process unless we are talking about laying off 
large groups of people and doing certain things. We really 
haven't put on the table where that cost saving is.
    Mr. Shays. I suspect there isn't a cost savings, but there 
is better use of the resources we have. And if we then try to 
say there are cost savings and make it happen, I do agree with 
you, and I think what your suggestion is, that there would be 
programs that would in fact suffer that are maybe non-terrorist 
related.
    Are we in the same wavelength here?
    Mr. Platts, you have the floor.
    Mr. Platts. Thank you, Mr. Chairman. I thank all of our 
panelists for being here today and certainly for your service 
to our Nation's citizens day in and day out. You certainly have 
a tremendous task ahead of you as you work to protect our 
citizens. I do want to echo Congressman Putnam's comments about 
the importance of the frankness and being very forthcoming not 
just to Congress but to your superiors, and I think President 
Bush stated it well in his address to the Nation when he spoke 
specifically about FBI agents, about coming forth with what 
they find to their superiors, to you as well, either to the 
President, the Vice President or to your commissioners, your 
deputy--how important in this area, probably all areas, that we 
have that very frank and open dialog.
    My first specific question is, Mr. Tritak, regarding our 
nuclear power plant security and the infrastructure and 
protection. With the envision of restructuring, I was wondering 
what, if any, changes you envision with the NRC's 
responsibility for nuclear power plant infrastructure, the 
security of the facilities themselves.
    Mr. Tritak. Congressman, I want to be very frank about 
this. This is not an area that I can comment on in any 
particular detail. You have seen what the President has 
proposed in terms of moving around certain assets within the 
Federal Government. What I was basically saying, Mr. Chairman, 
this is not an area that I can comment in any particular 
detail. It is not an area that I focus on in my work at the 
CIAO. But we do know that the President has proposed a number 
of organizational proposals to deal with some of that and I 
would suggest, quite respectfully, that you may want to talk to 
him directly on that.
    Mr. Platts. In the proposal put out by the administration 
the infrastructure, including our energy sources, our utility 
operations, chemical plants are included in the infrastructure. 
So----
    Mr. Tritak. True enough, but you are getting in a level 
that I am not particularly comfortable dealing with. Let me say 
a little bit about the way we operate. One part of the critical 
infrastructure protection effort is trying to engage the owners 
and operators of those infrastructure--many of them are 
privately owned and operated--to undertake measures to help 
secure themselves both from the physical and, particularly 
where I have been focusing, on the cyber dimensions of 
security. Increasingly, your electric power industry, for 
example, is relying heavily on digital control systems to 
operate their assets.
    We know from comments made by al-Qaeda themselves that they 
are going to exploit vulnerabilities where they can find them. 
One area could be to exploit the vulnerabilities of cyberspace 
to produce certain kinds of harms that can only be achieved 
through physical destruction.
    What we have been focusing on at CIAO, largely bringing 
this to the attention of senior management and trying to make 
the case as a business proposition, is that it makes good sense 
to secure their infrastructures. It is important both for the 
Nation and also important as a matter of corporate governance 
and the rest. Once you start getting into the areas of 
regulatory issues regarding safety, and that is an area that we 
leave to the NRC and that is why I made the comment that I made 
earlier----
    Mr. Platts. And that is the reason for my question. I 
haven't seen a lot of information thus far, and we are the 
first week since the announcement, regarding the NRC, how it 
fits into critical infrastructure protection, and with two 
nuclear power plants bordering my district, that infrastructure 
of those plants and the security of them are kind of very 
paramount in my constituents' thoughts.
    Mr. Tritak. But there is an overarching division in the 
proposed Homeland Security Department which would deal with 
nuclear countermeasures and the risks posed thereby and I would 
be more than happy to take up with my appropriate colleagues to 
get back to you in this matter .
    Mr. Platts. That would be great and maybe to the chairman 
of the whole committee and Chair. Again it being early in the 
announcement, but whatever information that can be shared and 
that specific aspect of infrastructure protection regarding 
security of the plants.
    Mr. Tritak. I would like to add one point for the record. 
In creating the Department of Homeland Security, it was never 
envisioned that all aspects of homeland security would fall 
under one roof. There is still a vital role that is to be 
played by various departments and agencies in areas that relate 
to homeland security that do not come under the specific 
organizational structure of the Homeland Security. Protection 
of nuclear power plants undoubtedly is going to be a major 
issue, and I know for a fact, having been involved in numerous 
Homeland Security Department office policy committee meetings, 
that this is of paramount concern.
    Mr. Platts. The point about not this new department 
covering every aspect is well taken, but I think the intent is 
certainly to ensure a comprehensive approach and given the 
threat level of an attack on our nuclear facilities, making 
sure they are well in the loop of intelligence being shared, 
the information that the law enforcement community, everybody 
has, seems to argue pretty strongly that NRC be intricately 
involved in this new Department of Homeland Security.
    Mr. Tritak. I have no doubt that the concerns about the 
nuclear power plants are a component part of the Homeland 
Security Department. I guess the answer I want to give you, how 
it relates to the NRC and how that is going to be worked out is 
the piece I cannot give you at this time.
    Mr. Platts. And given where we are, that is understandable.
    Second question is, actually Deputy Commissioner Becraft 
communications and the focus of this realignment being better 
sharing of intelligence and better sharing of information in 
general. And we had the unfortunate disbursement of the student 
visas 6 months after the attacks regarding the terrorists 
involved. And are you comfortable or do you believe that this 
realignment will ensure better communications and was that a 
problem with the student visa being issued, that the 
information not being shared between agencies or even within 
agency, INS, that communication failures was the culprit there?
    Mr. Becraft. Congressman, I appreciate the opportunity to 
respond to this, because I think it needs some clarification.
    It has been portrayed that, in fact, visas were approved 
and forwarded after the fact. In fact, those two adjustments of 
status--of the current status of those two individuals, Marwan 
al-Shehhi, Moh--I've forgotten the name, I just went blank--
Mohamed Atta, those were approved back in July and August of 
last year.
    What took place on March 11th was a contractor's 
responsibility to send the notification, like a canceled check, 
to Huffman Aviation for their files. It was unfortunate that 
went out. It never should have gone out, and it was a problem 
in communications within the agency.
    But it was not an after-the-fact approval of adjustment of 
status for these two individuals. That was done before 
September 11th based on the information that the State 
Department, the CIA, the FBI and INS had at the time.
    Mr. Platts. I guess two parts. One is, despite it not being 
an approval but still a notification about someone who has 
attacked our citizens and taken the lives of our citizens, 
clearly it is still a failure of the system that was not 
caught.
    Mr. Becraft. Correct.
    Mr. Platts. But also as to the information that was made on 
the original decision, I would assume that the intent of this 
restructuring is that you have better information, that those 
visas would not have been approved or the adjustment of status 
would not have been approved in the first place if you had had 
a big----
    Mr. Becraft. If we had information, intelligence 
information, that would indicate to us that these people should 
not have been approved, that, hopefully, would have happened at 
that point. But I think it is on record we don't have any 
information to that fact.
    Clearly, the President's initiative to pull these 
organizations together and the attention that September 11th 
has brought to the whole issue of information sharing between 
law enforcement agencies and the intelligence agencies 
hopefully will preclude anything like this from happening 
again.
    There are no guaranties in life, but we certainly are a 
much smarter organization today and a much smarter group of 
people sitting at this table than we were 9 months ago, 10 
months ago, and that is because we have pushed hard and we have 
been pushed hard. We have been pushed hard by people like you 
on this issue to ensure that we improve the way we do business.
    Mr. Platts. Is it safe to say or accurate to say that part 
of what we are trying to do with the restructuring--and I well 
embrace the President's proposal; I think it is a well thought-
out proposal--is that we will kind of institutionalize the 
information sharing that is now occurring 8, 9 months after the 
attacks and it is still fresh in our minds? So that 2 years, 3 
years, 5 years from now, when we hopefully have been more 
attack free, that we still are sharing information well and not 
because of the vivid nature of September 11th but because it is 
the norm?
    Mr. Becraft. I totally agree with you. I think this focuses 
all the appropriate agencies on the issue at hand, and they are 
going to stay focused. There isn't anyone in the Department of 
Defense that doesn't understand what their mission is. That is 
because they have a unique organization over there, with a 
Secretary of Defense and civilian leadership that keeps them 
very focused on the mission, and they have a uniformed service 
that understands its duty. This will bring all of these 
organizations together, put them under one helm and ensure that 
we are talking to each other on a daily basis.
    Mr. Platts. Thank you, Commissioner. If I can squeeze in 
one more, or do you want me to wait?
    Mr. Shays. You know what? You can squeeze in one more. You 
used very little time the first time.
    Mr. Platts. A followup, Admiral Collins, to really the 
questions of Mr. Schrock and Mr. Souder and the scenario of 
your new mission being homeland security and how that relates 
to search and rescue and the scenario he gave with the sailboat 
capsizing.
    I guess the concern is saving money versus needing more 
money for adding to your priority missions. If that sailboat 
and your reaction to it would be an instantaneous decision, 
save the lives of those at risk but not knowing if it was an 
intentional capsizing of that ship to pull you away from your 
other duty, homeland security, it seems that without some 
additional resources you are already strained, given what we 
give you, and underfunded, that if you go and save the lives as 
that priority, that other very important assignment is going to 
be at risk of not being able to be well-fulfilled.
    Admiral Collins. Again, clearly, it is a little bit of a 
balancing act amongst the resources allocated across our 
missions.
    I might say that, again, with the help of the 2002 
supplemental and the 2003 budget, we are providing additional 
presence on the waterways of this country, at our ports and 
waterways. Through 2003, there will be six maritime safety and 
security teams. These are teams with about 70 active duty and 
about 30 reserves that will be positioned around the country to 
surge into areas to provide those kind of augmentations for 
high-profile, high-OPTEMPO-type activities. That is a good 
thing.
    In addition, there is both in the 2002 budget and the 2003 
budget additional resources going into our search and rescue 
stations, and there is additional resources to buy small boats 
for these maritime safety security teams and SAR stations. I 
might also offer that those SAR stations--or, typically, we 
would call them search and rescue stations--they are multi-
mission stations. They do law enforcement in addition to search 
and rescue.
    So the bottom line here, I think, is recognition both in 
Congress and in the administration that the enhanced presence 
in the ports and waterways of this country is an important 
thing, and we are building that capability. In the meantime, as 
we build that out, we will, from a risk-based perspective, 
allocate the resources accordingly.
    Clearly, there is linkage between--as mentioned earlier, 
there is great linkage between the counterdrug mission and 
illegal behavior of all types, including terrorism. It is the 
cash cow, if you will, to fuel illegal behavior. That 
particular mission, I think, remains a very fundamentally 
important one and figures materially, from my perspective, in 
the new Office of Homeland Security as one of those fundamental 
missions that both INS, Customs, and the Coast Guard in 
particular and the Border Patrol are very much tuned into; and 
we will continue to do that.
    Where we have the information and the intel to trigger 
action and allocation of assets, that is what we will do. As we 
get better on the awareness side, as we get better on the 
awareness side with good intelligence, good movement of 
information, actionable intel, fused intel, which this new 
Office of Homeland Security will give us, we will get better on 
a lot of fronts, stopping the bad and allow allowing the good 
to come through--stopping the bad and allowing the good to come 
through. So you service a mobility function and an efficiency 
function and stopping the bad at the same time.
    Mr. Platts. Thank you, Admiral Collins.
    Again, I thank each of you and your various colleagues in 
your departments and agencies for your work day in and day out 
trying to protect our citizens.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    This is an excellent panel, and we could spend time with 
just each and every one of you as a separate entity, but there 
is importance in having seven of you. But the seven of you are 
only part of the 100 that we see on those cards--admittedly, 
probably a more important part. We took some of the bigger 
changes.
    But as I am sitting here, there are so many things that I 
want to ask. I think of the U.S. Coast Guard and INS and 
Customs. I think of Customs as making sure bad things don't get 
into this country and that people pay for the things that come 
in that they are supposed to. I think of the INS as making sure 
those who come should be allowed to come, and those who 
shouldn't should be stopped and we catch them and so on, and we 
process it well and keep track of who is here and who isn't--
people, things. I think of the Coast Guard as how you interface 
with both of them.
    Yet, as we talk, I realize that you all interact, but we 
have been to conferences where we have talked about this, and 
there is a lot of competition in some cases and criticism from 
one agency to another. Hopefully, as you find yourself part of 
one entity--obviously, you are part of one entity, the United 
States--but working more closely together, some of the 
disconnects will disappear.
    I also think of the FBI and think of how the FBI is 
primarily investigative and that it was primarily domestic. 
Now, when we go overseas, obviously, we interact with the FBI, 
who are involved in catching foreign funds and involved in a 
number of other things overseas that impact us domestically. 
But the CIA, we didn't want them to come into the United 
States. We didn't want that intelligence component there, and 
the disconnect of an intelligence agency involved in gathering 
intelligence and analyzing and interacting with the culture of 
the FBI, which was basically evidence gathering.
    You are doing what we asked you to do over decades, and now 
we are saying they do not meld as well as we would like them 
to. You are all trying to be good soldiers, in the sense of 
wanting to make sure that this works, but we want you to be 
candid, to tell us where it is going to be most difficult.
    What I was doing when you were talking as well, I was 
thinking, Admiral, you are green; Baughman, you are purple; 
Browning, you are green; Acord, you are yellow, yellow colored; 
Tritak, you are blue; Medford, you are blue; Becraft, you are 
green. You fit in there in different ways, but you are going to 
all interact.
    I find it ingenious, frankly, the way the President's 
people have proposed capturing you, in some cases directly. You 
are the agency, the department, and yet with the FBI and the 
CIA we are going to use you as--this department is going to be 
your major, if not primary, customer. Not telling you sources 
and methods but telling you we want this information, and if 
you don't measure up, not that we are going to buy somewhere 
else, we are going to make sure that the President and others 
say you are not operating the way you need to be and you need 
to change.
    I am curious about the FBI. With the Cyber Division, does 
that come over? Does the FBI in a sense lose it, or does it 
stay with the FBI? And then is this Department of Homeland 
Security going to use you? Are they going to be a customer of 
yours?
    Mr. Medford. Congressman, that is correct. Essentially, the 
Cyber Division would entail the criminal investigative national 
security responsibilities of the FBI, the counterterrorism, the 
counterintelligence, and the criminal role that the FBI has as 
our core mission----
    Mr. Shays. And it will still stay in the FBI?
    Mr. Medford. Remain in the FBI, and then we will feed the 
intel and the information to the new agency.
    Mr. Shays. So you basically come under the blue component.
    Mr. Medford. That is right.
    Mr. Shays. When I look at Customs, do we think of Customs 
as--let me back up.
    When we look at INS, we kind of, in Congress, have divided 
you into two parts. Do you think of your operation as being 
divided into two parts? How do you view it?
    Mr. Becraft. As I stated in my opening statement, we have 
been looking to reorganize this agency for years, and we are 
focusing on splitting enforcement and services. That has been 
part of the game plan. I mean, we are delighted to see the 
President's plan that in a sense does that. It takes--as we can 
tell right now, from what we know of the plan, it takes our law 
enforcement elements, the Border Patrol inspections, probably 
investigations. I am sure there will be some discussion of 
this, but I would see those things ending up in the Border 
Security Division up here.
    Immigration Services is also a critical part of it. And I 
would refer back to Mr. Platts' discussion with me about the 
two terrorists, Marwan al-Shehhi and Mohamed Atta. That shows 
that there is a critical linkage here between benefits and the 
enforcement side. There is room for great fraud in the benefit 
side of the business.
    Mr. Shays. But all of INS comes under?
    Mr. Becraft. All of INS goes under.
    Mr. Shays. And would it all be under the first component?
    Mr. Becraft. It will be in the green, yes, sir.
    Mr. Shays. When I look at Customs, should I think of 
Customs--not having spent the time that others have on this 
committee with Customs, should I view it as being able to 
divide under the same services, revenue and basically 
enforcement, the three parts? How would I view it?
    Mr. Browning. Actually, I would say the three pieces are so 
closely intertwined we look at them as one piece in the 
organization.
    The revenue part of what we do, that is, collecting 
revenues and then turning them over to the Treasury Department, 
in our judgment would not be affected by this realignment. That 
is still something we could do and then turn the revenue 
collections over to the Treasury Department.
    Mr. Shays. Let me use this as a point. In the President's 
presentation, in their booklet they provided, on page 4 they 
made this comment, under nonhomeland security functions: The 
new department would have a number of functions that are not 
directly related to securing the homeland against terrorism. 
For instance, through FEMA, it would be responsible for 
mitigating the effects of natural disasters, and so on.
    So this is an example. The collection of funds would not be 
related to homeland security, but since the other parts are 
there, it makes sense and you could still carry it on?
    Mr. Browning. Actually, because the way we have built our 
mission those pieces are so connected, it would be very, very 
difficult to separate them out and still maintain the 
efficiency with which we are currently doing it. In that sense, 
we were very happy when the proposal had the entire Customs 
Service, with all of our mission responsibilities, going over.
    You will recall at the beginning of my statement that I 
said we have been a law enforcement agency for quite some 
period of time and we have managed to balance both of those 
responsibilities, the trade piece, our law enforcement border 
security, and compliance pieces fairly well. And, indeed, I 
think our trade is very comfortable with that.
    One other point I would raise, Mr. Chairman. One of the 
concerns that has always been raised with us by the trade is 
the need to have a single face on this process. If you take 
these functions and you bifurcate these functions, then what 
you do is you don't really have the economies of scale you are 
talking about here. You have the trade having to go to Customs 
to do examinations and inspections and somewhere else to do 
something else.
    Mr. Shays. You just triggered something I wanted to ask as 
well. When you are going on board a ship, potentially looking 
for people that are here illegally, that would be INS 
enforcement or not? Or would it be Customs? You are looking at 
products.
    You are smiling. Tell me about the smile.
    Mr. Browning. I am only smiling because there is actually 
an awful lot of synergy that already exists between our two 
organizations.
    If you take what happens at a port of entry--for example, 
on the southern-northern border, you could have a Customs 
officer at the booth or you could have an INS officer at the 
booth, because we are cross-designated to carry out those 
functions.
    Same situation at the international airports. INS will 
conduct----
    Mr. Shays. So there is real logic to this part?
    Mr. Browning. There is a lot of logic to this. They do our 
primaries, we do the secondaries. There is an awful lot of 
logic.
    In fact, when Congressman Putnam asked me the question, I 
didn't want to be flippant with my response to can we do our 
job better. We really should be able to do our job better, 
because, in fact, we are going to have the benefit of the 
resources that we have been working with for years so that we 
can put it under a unified command and get a unified result.
    One other point, and I am thinking back to Admiral Collins' 
point about what happens in that situation where he has to make 
a decision between a SAR rescue and whether he goes out on a 
law enforcement initiative. Arguably, in a new agency where you 
have Customs assets at our close-in assets our interceptors in 
the marine environment are very good. Deepwater is what the 
Coast Guard does very, very well. So, arguably, we ought to be 
able to communicate with each other and say, we need your 
assistance, have the mechanisms in place to make sure that 
assistance is available, and be able to respond in a host of 
different areas, not just border security, not just 
antiterrorism, but also the other core missions that we have--
search and rescue, trade facilitation and compliance, and 
immigration activities.
    Mr. Shays. Let me just say that I am going to recognize Mr. 
Putnam and then Mr. Souder and then come back. The second round 
there will be less Members, and we will probably be able to get 
you out of here pretty soon.
    But what I am going to want to talk to you about, Mr. 
Acord, is the issue of your agency within the Department of 
Agriculture being removed from the Department of Agriculture. I 
want to know what the cultural implication of that is. I am 
intrigued--and I will have you respond when I have my second 
round, but I am intrigued by the yellow component.
    When we had been looking at this for a number of years--the 
chemical, biological, radiological, and nuclear 
countermeasures--there was a big weakness in the other plants 
that didn't involve this focus. When I chaired the Human 
Resource Subcommittee, we began to look at things like mad cow 
disease. It was basically under agriculture. We decided to have 
a hearing because it affected human health, but we didn't have 
jurisdiction on animals.
    When we started to have this hearing, we had everyone from 
the cattle industry rightfully saying, tread carefully, you 
could alarm people, and you could interrupt a multimillion 
dollar business, which got us thinking. Then I became chairman 
of this committee. Just the incredible opportunity a terrorist 
has to conduct terrorism against our livestock and so on and 
the disruption that would cause.
    I look forward, Mr. Baughman, to talking to you about the 
relationship of the State and local participants, because we 
are going to be drawing in parts of Justice and HHS into grants 
to first responders. Again, I think that is a pretty 
interesting way that the White House is looking to kind of 
bring these parts together.
    But I can wait, and I will give Mr. Putnam the opportunity 
to ask one last round of 10 minutes. I say last round. It 
probably will be.
    Mr. Putnam. Thank you, Mr. Chairman.
    Just between rounds I have been jotting down the different 
things that we look for at our borders. Obviously, there is--in 
the waterways there is a search and rescue component, but in 
border security we are looking for terrorists, drugs, 
immigration. We have Fish and Wildlife stations looking for the 
trafficking of endangered species; Ag looking at plant, pest, 
and disease issues; trade enforcement, the revenue side, fee, 
tax, tariff-type issues; ordinary crimes, larceny, things like 
that; and firearms. And all of you are, to varying degrees, 
part of that puzzle.
    So I am curious, prior to September 11th, how often, how 
many times had all of you met one another or worked with one 
another or engaged in a conference with each other on how to 
better protect our borders? Prior to September 11th.
    Admiral Collins. I will give it an initial stab. I think 
there has been a history of close coordination from Washington 
all the way down to the field level.
    When I was on the West Coast, close rapport with INS and 
Customs on the West Coast to deal with issues. Oftentimes, we 
do joint boardings together on ships to take advantage of 
respective expertise. We know about compartmentation and 
dangers and safety issues aboard ship. We advance notice of 
arrival from vessels coming into the United States and 
scrutinize them against data bases that our partners maintain, 
and so forth.
    On counterdrugs, there has been a joint interagency type 
approach to counterdrug efforts for a number of years. I think 
that has to get better. It is getting better and better each 
year in terms of the coordination. We maintain a joint 
interagency task force, east and west--it is an interagency 
group--in Key West, in the West Coast, all jointly manned.
    I could go on, but I think there are great examples of 
partnerships across the board, and the reorganization will 
build on that.
    Mr. Putnam. You do a wonderful job at JDEF East and JDEF 
West, but how many times have you guys at this table met with 
one another prior to September 11th?
    Mr. Baughman. I don't know about the individuals, but as 
far as agencies, our agency meets routinely, probably once a 
month, with many of the agencies here.
    Coast Guard, under their role with the National Contingency 
Plan for Hazardous Materials, we have supported INS in 
immigration emergencies and doing some planning there; APHIS, 
in foot and mouth disease, when there was an outbreak there 
last year, we were working with them to do State-level 
planning. So we have on a number of occasions.
    Mr. Putnam. So based on the first two answers, at the 
highest levels, all of our future deputy assistant secretaries 
of the Department of Homeland Security have never met.
    Mr. Becraft. I would like to say I've worked with Admiral 
Collins and with Bruce Baughman for probably 10 years now, and 
they were on critical issues. Way back before I got to INS and 
the drug business, Tom and I knew each other. Mr. Baughman and 
I were intimately involved in the post-Haitian-Cuban crisis in 
1994. We have working relationships. We have a Coast Guard 
liaison officer, a Customs liaison officer. We have people over 
in those organizations. That is surviving in business today. It 
is reality.
    For example, for Customs and INS, I will admit it, there 
has been tension there over the years. There is always a little 
too much battle when you are located in the same little port of 
entry. But the bottom line is that we cannot survive together 
or independently without working together, and that has been a 
reality, and it has been a working reality.
    Mr. Browning. Congressman, I have only been on this job 
about 30 days, but I will tell you my predecessor had an awful 
lot of contact with these folks, and everything being said here 
is true.
    I think what this reorganization is really going to do is 
build on some of the good relationships that have, in many 
instances, been the by-product of folks in the same location 
with the same objective, developing those relationships that 
allow them to pull their organizations together and make things 
happen. I think this reorganization is going to provide us with 
the framework, with the institutional framework with which we 
can sort of move this process even a step further.
    Mr. Putnam. Let me change gears a little bit. Admiral, if 
our airport security was as outstanding as the Coast Guard, 
there is a lot of this discussion we probably wouldn't even be 
having. You do an outstanding job. During peacetime, you 
probably have a much higher percentage of your personnel in 
harm's way on a daily basis than our other uniformed services; 
and for my State, you are our first line of defense from a 
whole host of threats.
    You mentioned three stipulations, concerns that you had 
about the new department. I only caught the first one, which 
was, if you are going to transfer us, please transfer us in our 
entirety. Could you please repeat the next two, because I was a 
little slow?
    Admiral Collins. Sure. The first one was transfer intact, 
in whole. And I think you can tell by the diagram there labeled 
U.S. Coast Guard, and it is expressly stated within the 
information put up by the White House, that, in fact, is the 
case. Check.
    Mr. Putnam. Check.
    Admiral Collins. Second, we maintain our military multi- 
mission maritime characteristics.
    I think the taxpayers of the United States and the public 
gets a great deal of benefit from the combination of those 
attributes. They have matured over 212 years, and I think they 
have served the Nation very, very well. We would like to see 
those remain intact; and all information that we have received 
on this issue that is, in fact, the case.
    The military, in particular, we have extensive partnerships 
with the Department of Defense, the U.S. Navy written into many 
of their plans. We have Coast Guard units right now in GTMO in 
the Persian Gulf providing niche area support services in 
partnerships with the Department of Defense. That is terribly 
important. It is a good stewardship issue, and that is going to 
continue.
    The third is that we fully support the full range of our 
missions that we have talked about here today, that we still 
pursue the search and rescue mission, that the marine 
environmental protection is still an important issue to the 
Nation. And, by the way, an environmental catastrophe may 
happen as a result of a terrorist attack. So there is linkage.
    But all those missions remain critical missions to the 
national security of the United States. As I mentioned, the 
1999 Presidential Interagency Task Force confirmed and 
validated the essential nature of those missions. So I think we 
are in good standing on all those features; and this proposal 
addresses them very, very adequately.
    Mr. Putnam. Thank you, Admiral.
    Commissioner Browning, if you don't know the answer to 
this, I understand, but it is a sister agency under Treasury. 
Could you please explain to me what role Secret Service has? 
Because they appear to be on a different functioning plane, but 
they are the same color. And if you don't know the answer, I 
understand, I will get it.
    Mr. Browning. Actually, Congressman, I know no more than 
what was in the document that was put out about why Secret 
Service was pulled into that.
    Mr. Putnam. As part of your Customs function at our ports, 
when you are tracking illegal firearms shipments, I assume that 
is an ATF issue.
    Mr. Browning. That is correct. We have some engagement in 
that; that is correct.
    Mr. Putnam. Is there a rationale for transferring all or a 
portion over ATF into the new department?
    Mr. Browning. Actually, the ATF mission is a domestic 
mission. As to why they were not transferred over as part of 
this process, I don't know. But, clearly, with respect to the 
border, there would be a hand-off for Customs to ATF if there 
were smuggling activity or arms were tried to be imported 
without the appropriate license. We would do the interdiction. 
We would turn it over to the regulatory agency for them to make 
the disposition of what ultimately would happen.
    But, other than that, I have no sense--no real sense about 
the inner discussion as to where ATF lands in this process.
    Mr. Putnam. Mr. Acord, I fully believe in this plan, but I 
do have some strong concerns about transferring all of APHIS.
    I believe that there is a very strong case to be made for 
having a unified border security agency involving all the 
people who are here, a foot wide, if you will, around the 
Nation. But once, for example, with APHIS, a plant, pest or 
disease is introduced, I feel like USDA possesses the expertise 
to conduct the quarantine, eradication, education, and control 
functions better than the Department of Homeland Security.
    I would not want the Department of Homeland Security 
distracted by citrus canker in Florida or by the pink hibiscus 
mealybug, and I wouldn't want to think of where those two 
issues would fall on the priority list in a Department of 
Homeland Security. Is there a functional way to split off 
functions to reflect those concerns?
    Mr. Acord. Congressman, I think if you look at transferring 
all of the Animal and Plant Health Inspection Service, which 
this plan does, then we move those functions and those 
responsibilities with the organization. For emergency program 
operations, we draw from the domestic field force from our 
veterinarians. If we're doing it on the plant side, we look to 
the plant protection and quarantine officers as a source of 
people to staff those emergency response teams; and I think 
that points out the need for the transfer intact as it is 
proposed.
    Mr. Putnam. Thank you.
    Mr. Shays. Mr. Souder. Thank you for your patience.
    Mr. Souder. Commissioner Browning, would you agree that 
since Customs is being moved into the Department of Homeland 
Security that, though you are multi-missioned, that is now your 
No. 1 mission?
    Mr. Browning. Actually, I would say since September 11th, 
Congressman, that has been our No. 1 priority. But at the same 
time, the other core mission requirements, working with the 
trades to have them assist us in shoring up supply chain 
security, we have not lost focus of that.
    I think probably for the foreseeable future 
counterterrorism is going to be the No. 1 priority of all the 
agencies here, but I don't think that means we cannot continue 
to also merge that responsibility of border security with the 
other core mission of the organization. It is going to be a 
challenge, but I think it is one we have indicated we are 
capable of addressing.
    Mr. Souder. Would everybody at the table agree, at least 
for your divisions that are being transferred in, that is now 
your No. 1 mission, is homeland security?
    Mr. Tritak. I certainly can.
    Mr. Souder. Because that is going to be one of the 
difficult things for us to work through, and it has been the 
historic tradeoff both for Commerce and Customs at the border, 
is economic security or homeland security in the process of how 
much checking and how fast people move through the border.
    What Congress needs to understand is if we have somewhat 
altered the mission, your priority mission, since September 
11th, because this occurred on September 11th. There was no 
question there was a shift at the borders, which is why there 
is a longer backup, even though there are fewer people 
crossing. In most places it is closer to normal now, but we 
also have less traffic. But if that mission is changed and if 
Congress wants to make sure that we are keeping the commerce 
moving, then we have to put adequate border crossings, adequate 
bridges, adequate personnel and provide adequate pay at those 
borders or we are going to, in fact, change our economic 
security.
    In a pickup in Fort Wayne, Indiana, there are 100 border 
crossings involved. There are 1,400 nurses who cross daily at 
Windsor; and when we backed it up for a number of hours in 
Detroit, the Detroit hospitals didn't have staff.
    We have to understand here that there is not just shuffling 
people on the deck, which I would agree, Mr. Browning, earlier, 
you all have been doing this for some time. We in Congress may 
not have realized that, but this is more acknowledging what has 
been happening and accelerating that pace.
    So it is not like we are making a huge step in progress 
here. We are now more acknowledging; and now, in Congress, in 
our appropriations process, we are going to acknowledge this. 
But if we are to keep our multi-mission task, this is not going 
to be done without a change in dollars.
    Because, since September 11th, we changed the missions of 
many of your agencies as far as what was your primary. The 
primary mission of Coast Guard was not homeland security prior 
to September 11th or Customs or Commerce or Ag or FEMA.
    For example, if you have a tradeoff in FEMA between a 
hurricane and a tornado or a fairly high-risk threat, and you 
are in the risk assessment business, obviously, how does this 
alter your tradeoff calculations even in preparation? Those are 
things that we have to take into consideration for our 
constituents and understand that there isn't a cheap way out of 
this.
    Let me address one of the Border Patrol issues. My 
understanding is, as of at least 2, maybe 3 weeks ago now, that 
40 percent of the Border Patrol agents on the south border have 
applied to be sky marshals or other positions. In other words, 
we in Congress are talking about beefing up our Border Patrol, 
yet our pay levels on the Border Patrol and the job 
satisfaction is such that we cannot hardly hold the people we 
have. Reorganization is not going to address that question. We 
have a fundamental challenge.
    Mr. Becraft. It is very true, Congressman, that we are 
really bleeding when it comes to retaining our qualified, 
experienced people in the Border Patrol. We are all in 
competition with each other right now. We are in competition 
with the transportation security agency, which seems to be 
drawing off the majority of the people that are leaving. It is 
a very critical issue.
    Last year, the INS recruited, and it was a banner year. We 
had to hire 4,000 people, and we did it. This year we have to 
hire 8,000 people. That is what it was at the beginning of the 
fiscal year. Right now, given attrition, we are looking at 
having to hire 10,500 people in order to get the numbers to 
recruit and get the numbers that we think we will get. Whether 
or not we come in close to that number is doubtful. I must tell 
you, I figure we will come in somewhere at 6,000 or below.
    But we are competing amongst ourselves. Right now, the 
journeyman level for a Border Patrol is a GS-9. We would like 
to get that up to a GS-11. We are working with the 
administration, and we are working very well with the 
administration on that issue. But there are tough calls and 
tough decisions that have to be made. Clearly, if you want to 
put qualified, experienced people on the line, we have to be 
able to compete with our sister agencies.
    Mr. Souder. If we are going to talk about homeland security 
in the Civil Service Subcommittee, as well as others, we need 
to look at some of those questions, or what it looks like is if 
we have come up with a political solution and we have not 
really given you the means with which to deliver.
    One of the effectiveness questions that I think that the 
chairman and I were talking about is that some of your 
synergism is occurring currently, but in these different teams 
hopefully this will help resolve some difficult questions. 
Because we in Congress haven't resolved this nor have you in 
your agencies.
    For example, the Border Patrol mission is to patrol the 
border, but Customs often wants to let somebody get through so 
we can figure out the network and watch where the next point 
is. This really becomes critical in southern Arizona, where we 
have had hearings, and in upstate New York, where the goal is, 
are we going to catch people back at a transportation cross 
point, as they move through different things, or are we going 
to be at the border. And many Members of Congress who represent 
the general population of that area don't want to come back off 
the border because then many of their constituents are going 
through who may not even be crossing a border.
    We in Congress, when we talk about, hey, we want to do a 
homeland agency, need to understand that there is actually some 
political consequences to this. Because you all who have been 
working inside your agencies now theoretically are going to 
have a supervisor who can resolve some of the differences and 
force us to make some tough decisions here in Congress. Because 
with homeland security there are multiple ways to look at this.
    If I can ask one other direct question on the INS question. 
I think every Member of Congress was panicked that one of our 
offices had called and cleared one of those people, because 
somebody had called us, one of our constituents. Because all of 
us call all the time for visa waivers or acceleration. The 
Department of State, I don't believe, is in this, are they, on 
the INS clearances? How does it work, and how do you perceive 
that we could do that better as far as the intelligence that 
relates to these different students that are often put in an 
embassy and then come into our system? It is unclear to me how 
this is going to work if we don't have the clearance at the 
host country organized in this.
    Mr. Becraft. Well, I must say that we don't have all the 
details on how that is going to work based upon the 
documentation that we have received thus far on the Department 
of Homeland Security. But, clearly, your point is well taken. 
We have to do it.
    As we have said earlier on the issue of cargo and goods 
coming to the United States, we need to reach and push our 
borders out, reach out and check that stuff as far away as 
possible. Visa officers, consular affairs officers in embassies 
around the world need to have the resources and the assets as 
well as the intelligence available to them to make those 
conscious decisions as far away as possible.
    Now, how that process will change and work in the future 
based on this plan, I can't tell you. I am sure there will be 
great discussion between the State Department and INS and the 
Department of Homeland Security and the Office of Homeland 
Security. But the message clearly has been, and I have stated 
it here before, in fact to you, that our goal is to push that 
as far away as possible, with the proper intelligence, the 
proper law enforcement information behind us, so that the 
decisions are made before these people get here.
    Mr. Souder. I want to again commend each of you; and I know 
we are going to have lots more hearings before we get to the 
end, I am sure, in each of our committees. There is difficulty 
with the idea that we are going to get economies of scale. I 
think we will get efficiency. As the terrorists get better, we 
have to get better, and that is really what we are trying to do 
here.
    Sweet Grass was the last crossing I was at. I was up in 
Vancouver and then crossed over at Sweet Grass. It illustrates 
the complexity of the border, because there is an Ag Department 
presence there, but there is a veterinarian, and he is just one 
guy. It is not like you can separate his functions. He is 
checking for hoof and mouth disease and other types of things. 
That is one of the biggest border crossings in the United 
States, if not the biggest, for dead and live meat, as they 
say, because of Calgary and Montana and the back and forth. So 
you have one vet guy there who doesn't have the ability to 
split his functions, and he is looking for both type of things.
    We have also found the biggest drug busts that Customs has 
identified, somebody at risk over in Vancouver, and they found 
1,200 pounds of BC Bud that sells for higher in Boston and New 
York than cocaine, and for almost as high in San Francisco, in 
a peat moss load which was headed for the Department of 
Agriculture. But the Customs guy caught them. Otherwise, it 
would have gone through as an Ag load.
    In the back part of that border, which is one of the main 
ones where we are doing bag checking, they are finding arms 
dealers coming across. So it would have been ATF coming in the 
United States, but Customs catches them at the border because 
they're arms dealers and they initially catch them because of 
licensing.
    In other words, trying to split this stuff up is difficult, 
but we also need to realize that this is only a partial agency 
because you are so interconnected in the domestic and 
ultimately with the border teams. I believe it is a step in the 
right direction, but we have lots of details to look through 
here. And having had six hearings so far on the border and been 
to somewhere between 15 and 20 crossings now north and south, 
we are doing a lot. There is already a lot of synergy there. I 
don't think we are going to find a lot of cost savings, but, to 
be more effective, I think we need to be willing to invest this 
so we don't kill our commerce in the process of improving our 
homeland security.
    I yield back to the chairman and thank him for this 
hearing.
    Mr. Shays. I thank the gentleman.
    Mr. Souder, will you have other questions to ask, or Mr. 
Putnam?
    Mr. Souder. There will be other hearings.
    Mr. Shays. How about you? We have time, if you want.
    Mr. Putnam. Lots of questions.
    Mr. Shays. OK. Well, I haven't allowed you to use the 
facilities, but if you have another 15 minutes or so, I think 
we can get you out of here.
    I want to understand, Mr. Tritak, your position a bit more 
and what your agency does, and then I will be able to ask the 
question. But what I am wondering, before you even describe it, 
is you are going under the information analysis and 
infrastructure protection part.
    Mr. Tritak. Right.
    Mr. Shays. Are you being captured entirely as a unit?
    Mr. Tritak. Yes.
    Mr. Shays. So you are not providing a service, you are 
going to be in that unit consuming services provided by another 
agency; is that correct?
    Mr. Tritak. Yes. Actually, in many respects, perhaps more 
commonly similar to the NIPC. We were created out of whole 
cloth specifically to address the problem of critical 
infrastructure assurance.
    Mr. Shays. Slow down a second. You were printed on the 
what?
    Mr. Tritak. I'm sorry. We were created anew in 1998 by 
Presidential directive to deal with a very specific set of 
problems that were identified by a Presidential commission for 
critical infrastructure protection.
    The idea was you needed to have an office that would 
coordinate across national outreach and awareness efforts to 
the private sector, which is a major stakeholder in all of 
this. I know we have not gotten too much into that, but we all 
understand that is the case. There were a number of other 
issues that needed to be addressed, and the question was, where 
do you put it?
    The original proposal was, well, let's put it in the White 
House. And for a variety of reasons the commission and the 
administration decided that probably was not the best place to 
put it.
    Mr. Shays. So you are in Commerce, you are going to the 
Department of Homeland Security----
    Mr. Tritak. Correct.
    Mr. Shays [continuing]. And describe to me what your tasks 
will be within that area.
    Mr. Tritak. Well, I think what the homeland security 
department wants is to basically bring the functions we have 
been performing over there so they are performed in one place 
and also to combine them with similar efforts that are taking 
place elsewhere, the big one being outreach and awareness, and 
to engage the private sector, No. 1.
    No. 2, we have an effort under way called Project Matrix, 
which was designed to help agencies identify their critical 
assets and their dependencies on infrastructure within the 
Federal Government, to better help prioritize where you put 
your dollars in terms of securing key functions in the Federal 
Government.
    Then the third is to help facilitate the development of a 
national strategy. And those were the issues or the functions 
that were assigned to the CIAO in 1998 by Presidential 
directive.
    Since the Bush administration has taken over, we have also 
been asked to house an information integration program office 
that basically will help identify information sharing needs and 
exploit high technology, information technology to better 
facilitate the sharing of data across Federal Government. That 
is a proposal that is in the 2003 budget.
    What the proposal for homeland security is is to take that 
function, everything we have been doing, and put it in the 
Office of Homeland Security.
    Mr. Shays. And that makes sense.
    Mr. Tritak. That makes sense.
    Mr. Shays. It does makes sense. And you all concur?
    Mr. Tritak. We fully support it, and the Secretary of 
Commerce does as well.
    Mr. Shays. Mr. Medford, I just want be sure that I am clear 
that your part of the FBI remains in the FBI, but you will be 
providing a service to this customer, the Department of 
Homeland Security? So, unlike Mr. Tritak, you will not be part 
of the Department, you will be providing a service to it?
    Mr. Medford. My understanding is that we have to work out 
the specific details, but in concept that is correct. The 
interagency process of the NIPC is basically that they 
prioritize prevention and mitigation of attacks on the 
information infrastructure and the physical infrastructure of 
the country. The process of analyzing and conducting the watch 
and warning mission, which is basically advising potential 
victims and mitigating the attacks, that process and the 
interagency process would be moved over to the new agency.
    The FBI would continue our core mission to investigate 
criminal violations of Federal law and to address our national 
security responsibilities. That is my understanding today.
    Mr. Shays. So when you say moved over to the agency, still 
under the auspices of the FBI or will it be part of the new 
department? That is what I am trying to get to.
    Mr. Medford. Right, and we still have to work out the 
details. Obviously, we are in the early stages. Preliminarily, 
we are looking at the responsibilities for the NIPC being 
assumed by the new department so that we can basically work 
closer with such agencies as Commerce and GSA and others that 
do a similar function.
    Mr. Shays. Very good.
    Getting to you, Mr. Acord, I just want to be clear. I look 
at the pathogens that attack us, and some of them can be 
naturally initiated and others could be initiated artificially 
by terrorist activities. One of the most horrific testimonies 
our committee had was, and our last question traditionally is, 
is there anything we should have asked you, and a noted doctor 
of a major medical magazine said, my biggest fear is a small 
group of scientists, dedicated scientists will create an 
altered virus that will have no antidote, and it will wipe out 
humanity as we know it.
    That same fear basically exists in the animal world as 
well. You will be part of homeland security. Is there any doubt 
in your mind, though, that you would not pay attention to the 
natural attacks that would face our livestock as well as the 
terrorist-generated?
    Mr. Acord. I think that gets back to the comment 
Congressman Souder made earlier about where the priorities are. 
Our priorities have always been to prevent the entry of foreign 
animal and plant diseases.
    Mr. Shays. No matter what the generator of it is?
    Mr. Acord. That is exactly right. We try to stay on top of 
all of the potential pathways that may exist where they can 
gain access to this country, and we try to maintain access to 
the latest science to make sure that we understand what the 
risks are and how they can be transmitted.
    At the same time, I think it is important to recognize that 
we have another very important priority, and that is to 
maintain the health of our herds and flocks and the crops that 
we have in this country, because that is fundamental to our 
success at trade. If we don't have that kind of capability, to 
maintain the importance or the focus on eradication and control 
of diseases that already exist, then I think we put trade at 
risk when we do that.
    But I think that is something that certainly can be dealt 
with in this new Department of Homeland Security.
    Mr. Shays. I am going to conclude, before I ask the general 
question, with Mr. Baughman. I think it is very exciting for 
FEMA to obviously play a major role in this effort; and when I 
look at the purple, which is where you are, correct----
    Mr. Baughman. That is correct.
    Mr. Shays [continuing]. You have preparedness, mitigation, 
response and recovery. Preparedness has the connotation to me, 
obviously, of preparing the Federal Government, but preparing 
the State and local, the first responders. What the White House 
is suggesting is that we are going to draw on other agencies 
that have been involved in this effort and bring them under 
this title of preparedness. Could you speak a little to this 
and how there might be advantages by doing this?
    Mr. Baughman. Sure. As a matter of fact, in the President's 
2003 budget proposal, the Office of Domestic Preparedness at 
Justice would have been folded over into my office at FEMA. 
This proposal goes one step further in that it folds both 
organizations plus the preparedness piece of DHHS all into one 
office. I think that is a threefold force multiplier, in that 
now we have 300 people working on very related preparedness 
issues.
    So be they natural disaster, weapons of mass destruction 
related, there has been a duplication of preparedness efforts 
among the three agencies. We have been working with those 
agencies to reduce that. This will now put us all in one office 
and I think make us better work together and more effectively.
    Mr. Shays. Mr. Putnam, I am going to invite you to ask your 
questions, then I will just ask the last question. So if you 
have a question or two to ask, feel free.
    Mr. Putnam. Thank you, Mr. Chairman. I will just ask one 
more. I know the hour is late, and these outstanding men and 
their staffs have put an awful lot into this, and for many of 
them it is as new to them as it is to us. So we are all trying 
to feel our way through this.
    What I have witnessed, being in what I call a sentinel 
State, in Florida, that sort of hangs out there and is exposed 
to a lot of issues--illegal immigration, drugs, the porous 
borders, all those issues--is that the well-funded, bright, 
capable terrorist who means us ill most likely can find a way 
to bring some kind of harm or damage in some way, shape or form 
to the American public. But our real weakness has been in the 
everyday stuff.
    We still have drugs coming in despite a multi-decade war on 
drugs. We still have illegal immigration. We still have 
trafficking of endangered species. We still have unintentional 
introductions of plant, pests and diseases. And up until 
September 11th, the basis for all that has been, or the 
conventional wisdom was that there was a lack of coordination 
among the agencies, that Customs is there looking for a very 
specific thing, APHIS is there looking for a very specific 
different thing, and so forth and so on; and that Customs 
doesn't employ a whole lot of veterinarians that know the 
difference between an ordinary tick or an African heartwater 
tick, which would wipe out the livestock industry.
    If you are all under one roof, but you are still 
functioning as separate subgroups, how will we, on a daily 
basis, on the ground, in the trenches, as all of this commerce 
is coming in and all of these cruise passengers are unloading, 
and we currently only inspect 1 percent of them and 25 percent 
of international air travelers, as all these people are rushing 
by and we are trying to encourage freer and fairer and more 
open trade and as the world shrinks and air fares are reduced 
and more and more people want to go fishing in Costa Rica 
instead of just coming to Florida and we have all this 
movement, how is that really going to improve on a daily basis 
by being under the same roof?
    What will be different in the way that Customs speaks to 
APHIS? Who speaks to Fish and Wildlife? Who speaks to the INS? 
How will all those actually improve the percentage of cargo or 
people who are interactive with--how will it improve or 
increase the number of drug shipments or weapon shipments that 
we interdict? How will it reduce the number of plants, pests 
and diseases that are allowed to get into the homeland that end 
up costing us millions of dollars to eradicate? Anyone.
    Mr. Browning. I will take my best shot at it, Congressman. 
Actually, I think----
    Mr. Shays. I know it is late, but I want you to speak nice 
and loud.
    Mr. Browning. Certainly. I said we will take our best shot 
at this.
    I think, indeed, one of the things we have talked about 
that comes out of this process is a sense of unified command 
and unified purpose. You are talking about a number of agencies 
that have both a strong cultural and historical foundation. If 
this works right, and I think we have the potential to build 
something really important here, you can merge together and 
bring all of those forces together, and it ought to allow us to 
put more people on a problem, and it ought to allow us to use 
those people better.
    You have situations right now, where for our staffing 
purposes and INS staffing purposes at the same location we have 
to staff at levels that if we were one unified body we might 
not have to staff at. The ability to share information. We are 
in the process right now of building a new automated system 
that a number of the agencies at this table are going to be 
using called ACE. That is our new automated platform for the 
21st century. That tool ought to really give us some of the 
critical information we need to make some of these decisions.
    I think you are absolutely right. I think a very talented, 
motivated terrorist will always find a way. But I think what 
this proposal does and what I think we are all committed to, 
and I certainly know the 21,000 men and women of the U.S. 
Customs Service are committed to, is making it as hard as 
possible for that to ever happen again. And I think this is a 
step forward.
    What we hope comes out of this is the ability for us all to 
communicate more rapidly, to have those mechanisms in place so 
we can get the resources and assets we need to bring to bear on 
a problem quickly, rapidly, and in a fashion where we aren't 
fumbling around to try to get there. And I think this process 
moves us a long way toward that.
    Mr. Putnam. Mr. Acord, I think you have heard this 
frustration come from me before.
    Mr. Acord. Well, I think one of the things that it 
certainly will do, is provide us greater access to containers, 
so that we don't have several different people looking at the 
containers for different reasons. I think there's an immediate 
improvement probably in the access to containers.
    The information system that Commissioner Browning talked 
about, I think we have a great deal of efficiency that we will 
achieve by being part of that system. And I think we can 
perhaps deploy our professional expertise, the trained 
biologist, the veterinarians, the entomologists, and the 
pathologists that we have. I think there is an opportunity 
perhaps to utilize their skills a little more efficiently and 
have them focus on maybe some of the higher-risk pathways that 
are available for entry into the United States.
    On the other front, you are absolutely right that there is 
always the risk of something getting through the border. That 
is why we focused our attention on early detection and rapid 
response. That is why we have put out more resources to the 
States to try to increase the number of people that are out 
there looking for plant and animal disease and then to have 
emergency preparedness plans in place that provide us the 
opportunity for a quick response to that. Because the earlier 
we find it, the quicker we can respond to it, control it, and 
eradicate it, the cheaper it is and the less for us economic 
damage is done to the agriculture community.
    Mr. Putnam. Commissioner.
    Mr. Becraft. I would agree with everything my colleagues 
have said, but I would add one thing. What this plan does for 
us is it gives us a clear chain of command. We are working for 
one outfit; and so, as Commissioner Browning had mentioned, 
there are turf issues, there are issues out there that in the 
past have probably caused conflict. But a clear chain of 
command is going to change that. It is going to ensure that we 
understand that our focus is on the mission and it is all of 
our focus.
    How this looks 5, 10 years down the line, whether or not 
people walk around with Border Patrol or INS or U.S. Customs 
Service patches on them, that will be resolved over great 
debate; and I am sure it will be resolved, much of that debate, 
right here. But the fact of the matter is it has to change, and 
the President has said it.
    I think you see from us, and I know you keep looking for 
the realistic answer and what are the real problems with this, 
because I think we could all anticipate that there will be 
problems.
    I think you also see from the responses here today that we 
are leaning forward in the saddle to make this work. We want to 
make this work. It is important to America and it is important 
for my Agency to make it the best Agency it can be in support 
of this Nation. And I don't mean to take anything from anyone 
else, but I just think this is the smart thing to do. And we 
need to get on with it.
    Mr. Shays. I would like to ask any of you if there was a 
question you had prepared to answer, and wish we had asked you, 
that you would like to ask yourself and answer the question, is 
there anything that you would like to put on the record?
    And I will make the point to you that the doctor I referred 
to that talked about alerting our committee to what an 
individual scientist could do--not a country but a group of 
scientists--in altering a biological agent and wiping out 
humanity, he asked the question and he responded to it.
    Is there any question we need to put on the record, any 
statement you need to put on the record before we adjourn this 
hearing? Let me say to each of you that we started this morning 
with six Members of Congress--two Senators, four Members of 
Congress. It is the first time in my memory that we treated the 
Members of Congress as witnesses. It wasn't perfunctory and 
they spoke for a number of hours on something they worked on 
for years.
    We had Warren Rudman, who basically was one of the three 
major people empowered to have us look at this issue for years, 
and for years they have suggested we have a Department of 
Homeland Security.
    And I was very dubious to see what this panel would be, 
this third panel that we began at 1 o'clock. You have, in my 
judgment, given credit to your Agency, given credit to the 
administration, given credit to us by your thoroughness in your 
responses, and I feel, quite frankly, very impressed by how you 
have been able to put this all together on such short notice. I 
appreciate what your staffs have done to cooperate with us, but 
I am very grateful to this panel. It has been an outstanding 
panel, and I appreciate your patience because it is a big 
panel.
    Thank you very much. This hearing is adjourned.
    [Whereupon, at 3:50 p.m., the joint subcommittee was 
adjourned.]


</pre></body></html>
